<html>
<title> - ARE WE LISTENING TO THE ARAB STREET?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  ARE WE LISTENING TO THE ARAB STREET?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 8, 2002

                               __________

                           Serial No. 107-235

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-885 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             CAROLYN B. MALONEY, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 8, 2002..................................     1
Statement of:
    Carmon, Yigal, president, Middle East Media Research 
      Institute; Laurent Murawiec, former senior international 
      policy analyst, Rand Corp.; and Hafez Al-Mirazi, Washington 
      bureau chief, Al Jazeera Washington Office.................   106
    Ross, Chris, Ambassador, U.S. Department of State; and Harold 
      C. Pachios, chairman, U.S. Advisory Commission on Public 
      Diplomacy..................................................     8
    Zogby, John, president and CEO of Zogby International; Dr. 
      James Zogby, president of the Arab American Institute; Dr. 
      Shibley Telhami, professor of government and politics, 
      Maryland University; Dr. Daniel Brumberg, associate 
      professor of government, Georgetown University; and Dr. 
      R.S. Zaharna, assistant professor of public communications, 
      American University........................................    39
Letters, statements, etc., submitted for the record by:
    Brumberg, Dr. Daniel, associate professor of government, 
      Georgetown University, prepared statement of...............    62
    Carmon, Yigal, president, Middle East Media Research 
      Institute, prepared statement of...........................   109
    Murawiec, Laurent, former senior international policy 
      analyst, Rand Corp., prepared statement of.................   117
    Pachios, Harold C., chairman, U.S. Advisory Commission on 
      Public Diplomacy, prepared statement of....................    21
    Ross, Chris, Ambassador, U.S. Department of State, prepared 
      statement of...............................................    11
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Daniel Brumber article...................................   135
        Prepared statement of....................................     3
    Telhami, Dr. Shibley, professor of government and politics, 
      Maryland University, prepared statement of.................    55
    Zaharna, Dr. R.S., assistant professor of public 
      communications, American University, prepared statement of.    74
    Zogby, Dr. James, president of the Arab American Institute, 
      Impressions of America Poll................................    43


                  ARE WE LISTENING TO THE ARAB STREET?

                              ----------                              


                        TUESDAY, OCTOBER 8, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Schrock, 
Tierney, Allen and Watson.
    Staff present: Lawrence J. Halloran, Staff Director and 
Counsel; Thomas Costa, Professional Staff; Joseph McGowan, 
Fellow; Jason M. Chung, Clerk; Jarrel Price, Intern; David 
Rapallo, Minority Counsel; and Earley Green, Minority Assistant 
Clerk.
    Mr. Shays. The Subcommittee on National Security, Veterans 
Affairs, and International Relations hearing is called to 
order.
    On September 11, many Americans got their first glimpse of 
the hostility and resentment harbored by some against our 
people and our culture. Others have known for decades that a 
toxic antipathy often dominates the so-called Arab Street of 
Middle East public disclosure. Left unrebutted, anti-American 
invective invites others to translate animus into deadly 
action.
    So the war against terrorism must also be fought with 
words. Public diplomacy, our efforts to understand and inform 
and influence foreign publics, plays an indispensable role in 
arming the soldiers of truth against the forces of fear and 
hatred.
    Over the past year, the State Department has increased the 
reach and frequency of both broadcast and Internet information 
on U.S. policy against terrorism. The new, more aggressive 
approach seeks to counter anti-American content polluting the 
global news cycle with a positive message Secretary of State 
Powell recently described as the right content, right format, 
right audience, right now.
    But there are those who believe we came too late to the 
battle for Arab hearts and minds and continue to lose ground to 
apparent unsophisticated opponents hiding in caves. Like the 
stereotypical ugly American tourist, critics claim we have only 
upped the volume, shouting the same culturally tone-deaf 
slogans at an audience that neither understands the language of 
Western thinking nor trusts the source of the message.
    Public diplomacy works at the intersection of language, 
culture and modern communications media. Translating the 
subtleties of ideology and idiom can be a perilous crossing, 
with truth the potential hit-and-run casualty.
    To be heard on the Arab Street, we must first listen and 
recognize the social, economic and political context inhabited 
by our target audience. Failure to listen to Arabs in Arabic is 
one element of the intelligence failure that led to September 
11.
    One significant barrier muting the American message of 
freedom and hope with which many Arabs appear inclined to agree 
is the perceived disconnect between our words and our actions 
in the Middle East. Heard through the filter of strong U.S. 
support for the state of Israel and its people, American 
statements on Arab security and religious tolerance engender 
only skepticism and mistrust in many audiences. However 
simplistic or unjustified that perception is, the reality 
confronted by U.S. public diplomacy in the region confronted 
by--however simplistic or unjustified, that perception is the 
reality confronted by U.S. public diplomacy in the region. It 
cannot be ignored.
    To discuss the effectiveness of efforts to understand and 
influence perception of the United States in the Arab world, we 
welcome distinguished witnesses from the State Department, 
academia, a noted public opinion survey firm, and the media. 
They bring an absolute wealth of knowledge, experience and 
insight into the subject. We appreciate their time, and we 
truly look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.001
    
    [GRAPHIC] [TIFF OMITTED] T8885.002
    
    Mr. Shays. At this time I would recognize my colleague, Mr. 
Allen from Maine.
    Mr. Allen. Thank you, Mr. Chairman. And thank you for 
holding this hearing. I look forward to it.
    I wanted to welcome both of our first two panelists, and 
Ambassador Ross and Harold Pachios. Harold Pachios, in 
particular, is a practicing lawyer of great distinction in 
Portland, Maine, a longtime friend of mine, and a person who 
has a distinguished career, both in the public and private 
sector, and very glad to have you here today.
    This is a particularly important subject, given the nature 
of the debate in the House and Senate this week, because we are 
considering the most solemn of challenges, whether or not to 
authorize the sending of our young men and women into harm's 
way. It is--part of that debate has to do with the consequences 
of what--the consequences of an action against Iraq. It is--in 
the context of dealing with that issue, it is fundamentally 
important that we understand the Middle East as thoroughly as 
we can.
    One thing we do understand is that the population--just as 
in this country, the population in other countries may have a 
different view at any one time than the leadership, than the 
government in power at that particular moment, and, therefore, 
it is critically important that our actions be developed with 
an understanding to the possible reaction of what is sometimes 
called the Arab Street. But that may be too general, because 
the population may react differently in different countries.
    In this context public diplomacy, the art of trying to 
understand and influence populations in other countries, not 
just the government in power, becomes critically important, and 
that is why I think that this hearing is particularly timely. I 
am very pleased that the chairman decided to hold it today. And 
as I said before, I do look forward to the testimony of the 
witnesses. Thank you very much.
    Mr. Shays. I thank the gentleman.
    At this time the Chair recognizes the distinguished 
gentleman Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for conducting this important hearing at this time, since we 
are so engaged with crucial matters involving the Arab States.
    The terrorist attacks of September 11 brought Americans to 
the realization that young men filed with hatred of the United 
States could, with limited training and guidance, become 
focused instruments of mass terror, willing and able to kill 
thousands of Americans. Soon thereafter we grew more aware of 
another baffling fact: Prevailing sentiment in the Arab and 
Muslim world explained away the attacks in an absurd collection 
of conspiracy theories, and viewed them as an inevitable, even 
justifiable, reaction to American hegemony.
    I, this morning, was at a briefing by the Secretary of 
Defense, and as we walked through the Pentagon, we saw some of 
these posters that were displayed in Iraq immediately after the 
September 11, indicating that America was being paid a debt 
that they owed to America.
    We must act decisively to counter this view of America and 
close the gap that is widening every day between our Nation and 
the Arab and Muslim world. It is clear from a number of public 
opinion surveys conducted across Arab and Muslim countries that 
there is much resentment, much anger and mistrust toward our 
Nation.
    Our Nation, while certainly will not--must not change its 
policies on the basis of Arab public attitudes, our diplomacy 
must find a way to better persuade the people of the region to 
support, or at least acquiesce to, our policies and understand 
our policies.
    Public diplomacy is about taking our message to the Arab 
Street. It doesn't mean altering, though, American policy to 
make it easier to sell. Yet in projecting our message toward 
the region, we must be especially mindful that if the Arab 
Street does not take our message seriously, or harbors its 
deep-seated mistrust of the message that we are attempting to 
convey, that they will most certainly not receive our message. 
Accordingly, it is essential that we design our public 
diplomacy to be especially careful how we convey our messages.
    This also requires a conclusive and deliberate effort by 
the governments of the region to officially and publicly 
repudiate the purveyors of anti-Americanism, governments who in 
the past have championed the spread of anti-Americanism as a 
means to deflect criticism of their own misrule, as is the case 
in so many of the Arab lands.
    Mr. Chairman, at no other time has the issue of public 
diplomacy been more important to review, and we thank you for 
bringing this before us. We thank the witnesses, too, for 
taking the time and the effort to help us with their knowledge 
and experience in public diplomacy, and I hope the hearing will 
provide some insight in how we can better address this hearing. 
Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time the Chair would recognize Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. And thank you for 
holding these hearings at probably one of the most crucial 
times in our history.
    I think your statement and Mr. Gilman's statement says it 
all. I think most conflicts are created because of a failure to 
communicate.
    I was a public affairs officer in the Navy for 24 years. 
That is what I did for a living. I sometimes wonder if we do it 
as well as we should.
    So your presence here today is very important, very timely. 
We appreciate you coming, and hopefully we can all walk away 
from here learning something that will help solve some of the 
problems we are facing now any maybe avoid other problems that 
could be created because we don't communicate well.
    So thank you very much for being here. Thank you, Mr. 
Chairman.
    Mr. Shays. Thank the gentleman.
    At this time the Chair would recognize Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Right now in the 
Middle East, more than 50 percent of the population is under 
25, as I am sure has been discussed here, but unemployment is 
also over 30 percent. Many are uneducated, and those that have 
an education often can't find decent work. The result is a 
population that is disaffected and without hope.
    It is imperative that we root out terrorism and that we 
remain vigilant in all ways to defend against it, but I am 
afraid that won't be enough. The world has changed, so our 
perception of and our attitude toward the rest of the world 
must also be revised and expanded.
    We must move forward and dedicate ourselves to changing the 
hearts and minds of those who have been taught to hate us. 
Accomplishing this will not be easy. An important component of 
reversing the tide of hatred and distrust that currently 
prevails in the Arab world is our public diplomacy initiatives. 
We must continue to support and properly fund international 
broadcasting programs, and realize that such outreach is an 
integral part of the United States foreign policy planning.
    International broadcasters have the ability to provide 
objective and accurate news about America and the world to 
millions of people living in these disaffected Arab societies. 
Their work is critical to advancing American interests, but we 
must also remember that it is crucial to understanding their 
own world. A free media is the vehicle toward a free society 
and helps promote regional understanding. For example, a 
hostile Arab youth equipped with credible information is less 
like to be armed for battle against a perceived enemy.
    Mr. Chairman, it is so important that we endeavor to 
liberate the Arab world and promote freedom overseas; that we 
do not forget to do so at home. We must practice what we 
preach. We must not suppress divergent opinions, and we must 
not mistake well-grounded opposition to a unilateral preemptive 
war for a lack of patriotism. Specifically as we debate how the 
administration should proceed with Iraq, we must make sure we 
have an actual debate. It is imperative that as we reveal 
ourselves to the Arab world, what we show them is something 
that is open, democratic and tolerant of all views.
    Again, I want to thank you, Mr. Chairman, for convening 
this hearing. I look forward to hearing from the witnesses on 
this matter.
    Mr. Shays. Thank the gentleman for his statement.
    Mr. Putnam, I understand that you do not have a statement, 
but would want to recognize--the Chair would want to recognize 
that the vice chairman is here as well. And all of these 
Members before you have been very active on this committee, and 
I am, as cairman, very grateful for their tremendous work that 
they have done here.
    I would also just want to say that we are going to have a 
number of days of debate, and Members of Congress will be 
voting their conscience on this issue, and there will be very 
different views expressed, but I think we will all do ourselves 
proud on this issue.
    At this time I would like first to take care of some 
business and ask unanimous consent that all mmbers of the 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I would ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    At this time we will recognize the first panel. We have a 
panel of three. I will say to all three panels that we are 
usually fairly generous on the 5-minute rule and allow you to 
roll over another 5 minutes, but it is not intended to allow 
you to go 10; it is to allow you to go over 5. And given that 
we have some academicians, I am particularly concerned about 
this issue.
    To start on our first panel we have Ambassador Chris Ross, 
U.S. Department of State; and we have Harold C. Pachios, 
chairman, U.S. Advisory Commission on Public Diplomacy. And we 
will note for the record, Mr. Pachios, that to Mr. Allen you 
are first among equals on this panel.
    At this time, if you could stand, I will do as we always do 
and swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that our witnesses have 
responded in the affirmative, and, Ambassador, welcome, and 
look forward to your statement. Thank you.

STATEMENTS OF CHRIS ROSS, AMBASSADOR, U.S. DEPARTMENT OF STATE; 
 AND HAROLD C. PACHIOS, CHAIRMAN, U.S. ADVISORY COMMISSION ON 
                        PUBLIC DIPLOMACY

    Mr. Ross. Thank you Mr. Chairman.
    Mr. Chairman, members of the subcommittee, it is a great 
pleasure to be here today to join you in exploring the complex 
and challenging subject of Arab public opinion, or the Arab 
Street, and how we are engaging the Arab world to build a 
better understanding of America's politics, policies, 
priorities and values.
    Those of us who practice public diplomacy appreciate the 
very high interest that Members of Congress have shown in 
public diplomacy, both in the House of Representatives and in 
the Senate, through a series of hearings and proposed 
legislation. We also appreciate the attention that the advisory 
commission and various foundations and other private 
organizations have shown in the development of public diplomacy 
at this critical time.
    The term ``Arab Street'' is misleading on several counts. 
First, there is not a single Arab Street, but many. Whether 
expressed through angry street demonstrations in Gaza, a 
disputatious call-in show on an Arab satellite station, or in a 
sober editorial in a Pan-Arab newspaper, Arab public opinion is 
diverse, dynamic, and responsive to shifting circumstances.
    One overriding issue, however, crosses all boundaries in 
the Middle East: the Palestinian-Israeli conflict. This fact 
does not mean that we cannot productively engage Arab publics 
on other subjects. On the contrary, it is vital that we do so. 
But it does mean that we must always recognize that the Arab-
Israeli conflict is the prism through which other issues, 
including our position on Iraq, are perceived and understood on 
the Arab Street.
    The Arab Street matters, but it is neither omnipotent or 
nor impotent. This point has been a source of confusion before 
the Gulf War, and in the run up to the military campaign in 
Afghanistan, there were predictions that massive demonstrations 
could topple governments friendly to the United States. When 
they didn't materialize, many concluded that the Arab Street 
carried limited political clout. Both views are flawed.
    Arab governments are skilled at coping with dissent or 
working to suppress it when it appears threatening. At the same 
time, Arab leaders recognize that they must be sensitive to 
public opinion, especially when it embodies deeply held 
convictions about values such as faith and honor.
    That said, one of the conundrums of the Arab Street is the 
dynamic of its news media, which are often government-
controlled, and which frequently engage in negative 
stereotypes, disinformation and outright demonization of the 
United States and of Israel.
    Every American Embassy in the region, as I can attest, 
devotes considerable time to rebuttals of such unfounded 
accusations and attacks in the media. Such accusations and 
attacks are all the easier to disseminate now that the 
information revolution has reached the Middle East. Internet 
use is growing, and satellite television has become the chief 
means through which much of the Arab population gets its news, 
including incessant and often inflammatory images of violence 
between Palestinians and Israelis.
    How do we go about accurately gauging public opinion in the 
Middle East? First, our embassies routinely report on media 
comment in their host country. We also conduct public opinion 
research and polling through the Department of State's Office 
of Research, and we draw upon the findings of such private 
firms as Gallop, Roper and Zogby. All of these reports are 
analyzed and distributed widely throughout the foreign affairs 
community and among foreign policy decisionmakers.
    In engaging the Arab Street, our chief responsibility is to 
make sure that people understand our policy for what it is, not 
what others say it is. This means engaging in a robust program 
of policy advocacy by making senior officials available for 
media events at home and abroad, distributing policy statements 
to Arab opinion leaders, and responding swiftly and decisively 
to unfounded charges in the Arab media.
    Recent polls in the Arab world show that suspicion and 
hostility toward the United States are widespread. They are fed 
not only by unbalanced media coverage, but also by inflammatory 
Friday sermons at certain mosques and contentious educational 
materials and instruction.
    But when we look more deeply, we can see that Arabs and 
Americans share certain fundamental values; among them love of 
family, faith, education, generosity and achievement. That is 
the rationale for our forthcoming Muslim life in America 
initiative which will encompass Websites, publications, 
posters, radio and TV spots, parallel print treatments, 
speakers and other exchanges. We believe that this initiative 
will help counter the myth of America as anti-Muslim and 
present a truer picture of faith, family and achievement in the 
United States.
    More broadly, we are attempting to reach a larger, more 
diverse and younger audience in the Arab world through expanded 
exchange programs, augmented television programming, a new 
magazine, a renewed emphasis on English teaching and American 
studies, and fresh Websites. In parallel, the board of 
broadcasting Governors Has inaugurated a highly successful 
radio broadcast, Radio Sawa, that has captured significant 
audiences.
    Mr. Chairman, we are engaged with the Arab Street because 
attitudes matter. Words and images have consequences, and over 
time, any foreign policy requires the understanding and support 
of peoples and nations. The Arab Street can be a formidable 
obstacle to building that support, but through recognition of 
our common interests and shared values, we believe that the 
Arab public can become an ally in our common quest for freedom 
and opportunity.
    Even if this goal is ambitious, we still want to strengthen 
our engagement and our dialog with Arab publics to the point 
that it becomes possible for us to discuss our policy 
differences on the basis of our common humanity and values, not 
on the basis of an enmity that is so strong that it empowers 
those who would resort to violence and terrorism.
    Mr. Chairman, thank you, and I will be happy to take 
questions at the appropriate time.
    Mr. Shays. Thank you, Ambassador.
    [The prepared statement of Mr. Ross follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.003
    
    [GRAPHIC] [TIFF OMITTED] T8885.004
    
    [GRAPHIC] [TIFF OMITTED] T8885.005
    
    [GRAPHIC] [TIFF OMITTED] T8885.006
    
    [GRAPHIC] [TIFF OMITTED] T8885.007
    
    [GRAPHIC] [TIFF OMITTED] T8885.008
    
    [GRAPHIC] [TIFF OMITTED] T8885.009
    
    Mr. Shays. I don't usually comment on statements before we 
get into questioning, but I think you got us off on the right 
foot here. I think it was a very thoughtful statement that is 
very helpful for the rest of this dialog. Thank you.
    Mr. Pachios, nice to have you here. Thank you very much.
    Mr. Pachios. Thank you very much for asking me to testify. 
I have been on the United States Advisory Commission for Public 
Diplomacy for several years and have been chairman for 3 years. 
The Commission, as you know, has been around for about 50 
years. It is the only entity in the U.S. Government that is 
exclusively dedicated to public diplomacy. It is a citizen 
commission, seven members, bipartisan, appointed by the 
President, confirmed by the Senate. And I can tell you for the 
years that I have been on the Commission, not much attention 
has been paid to the Commission or its reports. One or two come 
out every year.
    It wasn't very interesting reading to most people before 
September 11. So there have been, however, several Mmbers of 
the House and a few Members of the Senate that have been very 
interested in it, and some of them are in this room, and we are 
grateful for that interest.
    Since September 11, of course, there has been enormous 
interest in public diplomacy. This has been very, very helpful, 
because between the end of the cold war and the early 1990's, 
and September 11, 2001, our apparatus for conducting public 
diplomacy around the world was reduced in content, reduced in 
resources, and, frankly, when September 11 occurred, we were in 
a much worse position to communicate our views to the world 
than we were 10 years earlier.
    Recently Graham Fuller met with the Commission. He is the 
former vice chairman of the National Intelligence Council at 
the CIA and an Arabist who lived many years in the Middle East; 
like my colleague Ambassador Ross, fluent in Arabic and very 
knowledgeable about the area. When Mr. Fuller came to speak at 
our hearing, he had just returned from a State Department tour 
of the Gulf States, and he said, I have never felt such an 
extraordinary gap of separate worlds, hermetically sealed one 
from the other, that you almost have to go through an airlock 
to get from one to the other.
    That might have been some hyperbole in this statement, but 
the fact is that after all of these years in the Middle East, 
he came back very, very concerned, as others have.
    Now, it is not all bad news. The administration has gotten 
off to a good start on translating American principles and 
compassion into the vernacular of Muslim countries. The 
Secretary of State is making public diplomacy a priority for 
Ambassadors and embassy staff, and I would add that this 
particular Secretary of State has a better understanding and 
more of a commitment to public diplomacy than any of the others 
that I have observed, and that is a major plus.
    The Middle East Radio Network is off to a good start. 
Arabic language Websites print publications, special citizen 
and journalistic exchanges with countries in the Middle East 
have all been established to set the record straight on the 
United States, but more must be done to engage large numbers of 
people in these countries.
    Prior to its consolidation into the State Department, USIA 
was, as I observed it, fairly agile and tactical. They could 
reinvent themselves there, and they did. It was more--I think 
the USIA was more like the Marines and the Special Forces than 
the Regular Army. However, the Commission agreed with the 
decision to move USIA into the State Department because we 
believed that it would make public diplomacy an integral part 
of foreign policy planning, and we thought that was important. 
Frankly, it was off in left field.
    But the State Department is a very large and inflexible 
bureaucracy, and even the simplest matters sometimes require 
layers of bureaucratic approval. It is not an environment where 
people act on their own and take any degree of management risk, 
more often than not. So notwithstanding the fact that Secretary 
Powell is one of the strongest managers and leaders the 
Department has had in recent decades, putting public diplomacy 
planning and programing in the midst of this very bureaucratic 
apparatus has, in fact, resulted in some problems.
    So we think to achieve greater flexibility in our public 
diplomacy infrastructure, we need to place greater 
responsibility in the field, on the Ambassadors, embassy public 
affairs officers and Foreign Service nationals. The State 
Department needs to give them the leeway to develop and 
implement country-specific programs. It is my impression that 
all too often we have had a cookie-cutter approach to public 
diplomacy activities in our missions abroad. To achieve this, 
the State Department needs to recruit and train the right 
people.
    My years of inspecting and evaluating USIA and State 
Department operations in the public diplomacy field have taught 
me that we have some good people doing it, a lot of adequate 
ones, and some people who are just not very good at the 
business of communications.
    Two years ago Mark Grossman told me that the State 
Department was spending $75,000 a year on recreating Foreign 
Service officers. Compare that with what the Department of 
Defense spends to recruit. That needs to change. I would also 
like to point out that all of the courses in public diplomacy 
and communications offered by the Foreign Service Institute, 
where we train our Foreign Service officers, could be completed 
in 3 days. Now, I understand that Under Secretary Beers and 
Ambassador Ross told me yesterday that is all changing, and 
that they are working hard on the recruiting end and the 
training end. It does need to change. They ought to be 
commended for it.
    The Commission has issued a report recently, and we made 
several recommendations, but I think three are probably 
highlighted more than the others. First is that we fully 
support the implementation of the White House Office of Global 
Communications. There is some controversy in some quarters 
about that, but we think it is important to centralize the 
message in one place.
    The Press Secretary in the White House has traditionally--
the press office has traditionally coordinated a lot of the 
domestic information activities in the government among all of 
the departments, in fact, and the same thing ought to happen 
with respect to the message that we send abroad. So we are very 
supportive of that.
    Second, we believe that the involvement of the private 
sector in public diplomacy is very important. As I pointed out, 
the government's public diplomacy infrastructure is 
bureaucratic and resistant to change. To effectively 
communicate with foreign populations in the information age, 
public diplomats need to be flexible and agile. So much more 
work, I think, needs to be done in working through the private 
sector and NGO's to meet our public diplomacy objectives.
    And we agree with Ambassador Ross that Radio Sawa so far is 
off to a very good start and is very important in adding that 
other dimension to public diplomacy. It has always been a long-
range process, exchanges, information programs, and so forth, 
and now we need to reach masses more and more effectively, and 
Radio Sawa is a very good first step in doing that.
    Thank you very much, Mr. Chairman.
    Mr. Shays. Thank you as well.
    [The prepared statement of Mr. Pachios follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.010
    
    [GRAPHIC] [TIFF OMITTED] T8885.011
    
    [GRAPHIC] [TIFF OMITTED] T8885.012
    
    Mr. Shays. We are going to start with Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Gentleman, in January 2002, the General Accounting Office 
Report: Foreign Languages. Human capital approach needs to 
correct staffing and proficiency shortfalls, and goes on to 
point out that five public diplomacy positions in Pakistan were 
held by employees without a useful level of language 
proficiency.
    And I have before me an article from the San Diego Union 
Tribune of October 7th saying that before the World Trade 
Center was bombed in 1993, one of the plotters was captured on 
tape discussing how to make explosives, but he spoke in Arabic, 
and the FBI didn't translate the phone conversation until after 
the explosion. And lapses highlighted a chronic shortage of 
linguists--I am reading from the article--and translators in 
U.S. intelligence agencies.
    The FBI, CIA and NSA said that they made strides toward 
closing those gaps, but key members of our congressional panel 
say the problem is still glaring, hampering an agency's ability 
to monitor and infiltrate terrorist groups.
    What do you have to say about those major lapses in the 
ability of people in public diplomacy and in intelligence not 
having the ability to know what is going on among our Arab 
people?
    Mr. Ross. Mr. Gilman, thank you for that very important 
question.
    Mr. Gilman. Thank you, Mr. Ambassador.
    Mr. Ross. I had the pleasure to welcome you in Damascus 
many years ago. At the time I was working with the Syrian 
Government entirely in Arabic. It is very important, a very 
important tool.
    The lacks that the GAO cites exist. They are due to a 
number of factors. In the specific case of public diplomacy, 
the drastic reduction of resources that occurred over the past 
10 years, as cited by Chairman Pachios, resulted in a reduction 
of recruitment, a reduction of training, not to mention a 
reduction of programs, and the number of Arabic speakers at a 
fully fluent level dropped dramatically to the point that in 
September 2001, when the Department of State began looking for 
someone to appear as the American face on Arab satellite 
stations, they had to look to those of us in retirement, myself 
included, and I was brought back to do that in those early 
months.
    The Secretary has placed a tremendous emphasis on renewed 
recruitment. He has given a very significant share of that 
recruitment to the public diplomacy function, and in order to 
prepare the new entrants linguistically, we are encouraging the 
Foreign Service Institute to beef up its language training, as 
well as its professional training in public diplomacy.
    Arabic is a hard language. It takes a good 2, 3, 4 years to 
learn to a level of proficiency that would permit a 
professional discussion, and one of the obstacles to be 
overcome is the hesitation of many people to take time out as 
it were from their career to learn such a language, but we are 
working hard to change that perception.
    Mr. Gilman. Would our other panelist like to comment on 
that?
    Mr. Pachios. Just briefly, Congressman.
    I went out to Damascus at the time that Chris was 
Ambassador there. And this was, I think, 1997 I was there. They 
were spending--they had a budget, allocated by USIA at the 
time, $675,000 for all public diplomacy activities in Syria. 
Most of that was used to pay rent for the American Center, 
which was apart from the embassy, had a library, and the 
salaries of Foreign Service nationals. And I was appalled. At 
the same time we were spending a few million for public 
diplomacy activities in the U.K. So there was--we had our 
priorities, I think, in reverse.
    Mr. Gilman. Have we readjusted those priorities?
    Mr. Pachios. I would say not completely, but I don't know 
whether Ambassador Ross would agree with me.
    Mr. Ross. Certainly. In the aftermath of September 11, we 
have redirected resources to the Arab and Muslim world in a 
significant way.
    Mr. Gilman. I would hope so.
    Now, that same report that I was reading said that 
intelligence and language experts say it would take years for 
our government to meet its needs for linguists and translators. 
Are we doing anything to try to beef that up?
    Mr. Ross. We are recruiting intensively among those who are 
already studying Arabic at universities. That is a start. We 
already have a number of people who are completely fluent in 
Arabic by virtue of their family origins, but this is still far 
short of the need. And this is a need felt not only by the 
Department of State, but, as you suggested, by other government 
agencies such as the FBI. It is a governmentwide problem, and 
we need to pay a lot of attention to it.
    Mr. Gilman. Well, it seems to me that this is very basic in 
our needs. If we are going to do public diplomacy, we ought to 
at least understand the language and be able to fluently use 
that language to overcome some of the obstacles out there. And 
I hope that both of you gentlemen will encourage whoever is in 
charge of getting linguists, people who are well versed in 
language, to move forward.
    Mr. Ambassador, what is the Shared Values Initiative, and 
what organizations have partnered with the Department to 
promote that initiative? It almost seems to me that when we did 
away with the USIA, we were really at fault in taking away some 
of our basic needs of communicating, and now we are trying to 
piecemeal putting that together. What are your thoughts, 
gentlemen?
    Mr. Ross. Mr. Gilman, the Shared Values Initiative is an 
effort to build on values that have been identified as common 
to Americans and to Arabs. The various polls that have been 
done demonstrate that love of family, respect for faith, 
respect for education are all common values, and one of the 
strategies we have adopted to narrow the gap of 
misunderstanding with the Arab world has been to place a focus 
on these shared values through a campaign that is to begin in a 
few weeks after some months of preparation.
    It is a campaign that is a multimedia, total communication 
campaign, based on TV and radio spots, press placements, 
speakers, various forms of videoconferencing and the rest to 
try and bring Americans and Arabs closer together and to 
demonstrate that the United States is not hostile to the Arab 
and Muslim worlds, but indeed wishes to continue working very 
closely with them.
    Mr. Gilman. Which organizations are helping us with that 
shared value?
    Mr. Ross. We consulted widely within the Muslim-American 
and Arab-American communities in proceeding, and one particular 
Pakistani-American came forth and organized a group that is 
working particularly closely with us. This group is the Council 
on Arab and Muslim--American-Muslim Understanding. And it will 
be sending speakers out to the region during this campaign to 
help reinforce the messages of shared values that I described.
    Mr. Gilman. Did you want to comment on that, Mr. Pachios?
    Mr. Pachios. No. Just one brief comment, and that is that I 
think you were right that when we did away with USIA and placed 
all of this in the Department of State, that there was some 
rough months that occurred after that, because this was not 
highly valued, this kind of business was not highly valued in 
the State Department. It was a different mindset.
    And, frankly, I have always thought--I am a civilian. I am 
not a government employee. I have done this for a number of 
years. I have always thought that--and I think you all can 
identify with this--people who have run for political office 
and who have tried to reach out to constituents and get them to 
understand what they are doing and get them to understand their 
positions, they are well equipped to communicate in the way we 
ought to be communicating with foreign populations.
    That is the same business. We are trying to get people to 
understand policies, just the way all of you do in your own 
constituencies. And I think we need to emphasize those kinds of 
qualities and that kind of experience, frankly, more than we 
have.
    Mr. Gilman. Thank you.
    And Mr. Chairman, if you will with me, one more question.
    What is the role of this new White House Office of Global 
Communications?
    Mr. Shays. I need a short answer.
    Mr. Rausser. Yes, sir. The White House Office of Global 
Communications is meant to provide a means of ensuring that the 
President's priorities in foreign policy are accurately 
reflected in the field of public diplomacy. And the Office of 
Global Communications is also meant to offer opportunities 
wherein the President's very powerful voice can be used in 
support of public diplomacy.
    So it is a way of linking the highest office in the land 
with the world of public diplomacy and to help coordinate the 
work of public diplomacy. That is done, in fact, by several 
agencies.
    Mr. Gilman. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank my colleague.
    I just want to say I realized as you were asking your 
questions, Chairman Gilman, that this may be one of the last 
hearings that you do before this committee, and I want to say 
to you personally on behalf of the other committee members that 
you are a model.
    You are one of the most gracious men that I have ever 
worked with, and one of the most thoughtful. And when you ask 
for more time, I could never say no to you. But thank you for 
not taking advantage of it.
    Mr. Gilman. Thank you, Mr. Chairman, for your kind words.
    Mr. Shays. You are welcome. You are very loved by these 
Members of the Congress and, hopefully, by your constituents.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I would say that Mr. 
Gilman is loved by his constituents given the number of times 
he has been returned to the House.
    Mr. Ambassador, the Zogbys in particular, but others also, 
tell us that it is not the American people that are hated or 
disliked by the Arab community, but it is American policy. And 
it seems that one way to break through that is to engage people 
in the community, and that means to go on the opportunities 
that they may have in television stations, radio stations and 
participate in them and listen, and have a dialog, and explain 
what the United States' policies are.
    Have we increased the number of occasions that we take 
advantage of to do just that? And who are the individuals--if 
we are having these language problems, are we sending other 
people with interpreters, are we sending the same people over 
and over again? Are we having any concerted, coordinated effort 
to engage in that way so that there is at least a feeling of 
openness and exchange and listening going on?
    Mr. Ross. Mr. Tierney, certainly since September 11, there 
has been an intensive and coordinated effort to provide senior 
officials for appearances for media events of all kinds, with 
both the electronic and print media in the Arab world. To the 
extent possible, we have drawn on those who mastered Arabic 
well enough to make public appearances of that sort. But in 
many cases senior officials have appeared in English, and 
fortunately, the electronic media have a set of rather good 
interpreters who can carry the message forward in Arabic.
    It has been an intensive effort, and you are right, a lot 
of policy explication needs to be done. We need to be sure that 
as people react to our policy, they are reacting to the reality 
of our policy and not somebody else's version of that policy. 
We need to be sure that people understand the context of our 
policy, the way it came about, the reasons that it came about. 
This is often lacking in--in the shorthand versions of our 
policies. And so policy explication at all levels of public 
diplomacy, from the Secretary of State down to those working in 
the field as public affairs officers, information officers, 
etc., policy explication is the No. 1 priority at this point.
    Mr. Tierney. Thank you.
    And in following on that thought, Mr. Pachios, and then 
Ambassador Ross, you talked, Mr. Pachios, about the need for 
flexibility in getting our message out or whatever, but it 
seems to me there is tension between that and making sure that 
the message we get out is consistent and truly represents the 
administration's position. And that--so you have the 
bureaucracy on one side trying to make sure that everything is 
approved all the way up so it is the same, because we all know, 
as well-intended as the media is, that sometimes they 
extrapolate out a message or give it an interpretation that the 
original speaker may or may not like, but, as that passes 
through different channels, you have more risk, I guess, of it 
being misinterpreted or misstated.
    So how do you reconcile that tension between wanting to 
have some control to make sure that your message actually gets 
out there and the flexibility that you need in the field to 
have enough people getting out there with it?
    Mr. Pachios. That is a good question. I can't reconcile it. 
It is a tension that will always exist. But I do think that we 
need to take some more risks, and we need to make sure that we 
have in the field Ambassadors and professional Foreign Service 
staff who are good enough to minimize the mistakes and let them 
carry the ball more, instead of having to phone back to 
Washington on so many issues.
    Mr. Tierney. So it is a communication and education process 
within your own team, and then letting them have some 
flexibility on that?
    Mr. Pachios. Ambassador Ross is an expert in this.
    Mr. Ross. Having been out there for a number of years, I 
can say that one of the most effective functions of the Bureau 
of International Information Programs, which is now in the 
State Department, is to provide materials to Ambassadors and 
other embassy staff to draw on in explaining and defending 
American policy.
    Currently Presidential and secretarial speeches, for 
instance, get translated into all of the relevant languages and 
sent out immediately so that they are available out there for 
our practitioners in the field to draw upon, and that is--that 
is the basis from which individual spokesmen appearing on the 
various media abroad work from.
    Mr. Tierney. Mr. Pachios, the recommendations and the 
advice of your Commission before September 11, 2001, and after, 
has it been significantly different, or are people just 
listening more?
    Mr. Pachios. They have not been significantly different. I 
point out to people that if you took all of the Commission's 
reports--this is a bipartisan Commission--if you took all of 
the Commission's reports between 1988 and the year 2000, and 
then compared what was recommended there with all of the 
reports that have been written since September 11, Council on 
Foreign Relations, CSIS, all of the--everybody else that has 
commented on this, you wouldn't find anything new. Radio Sawa 
is new. That is different.
    Mr. Tierney. Thank you. I yield back.
    Mr. Shays. Thank the gentleman.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador and Mr. Pachios, for your opening 
remarks. I want to--I think Mr. Gilman's line of questioning 
hit the nail right on the head, and I want to follow through on 
that a little bit about language proficiency. But I am not sure 
I understand what the Department is doing to meet the Arab 
language proficiency skills. If the personnel who engage the 
folks in the Arab world can't speak the language, how can they 
be effective?
    What are we doing to recruit them? Is recruiting a problem? 
Is it that we are not spending enough money? As Mr. Pachios 
said, we have to spend money on our campaigns to communicate 
with the constituents. I spent $125,000 a week in my last 
campaign just on TV. You don't spend half of that trying to 
recruit people. And I think--where is the problem? Is it 
something we are doing wrong here? Is it something you are 
doing wrong that you are not requesting of us? And how do we 
recruit correctly, because, as I said, communications is the 
name of the game. How do we go about doing that?
    Mr. Ross. I will attempt to get for the subcommittee a 
fuller response from our Bureau of Human Resources, but my 
understanding is that the Secretary has placed a great emphasis 
on reinvigorating the process of recruitment, and there is a 
special interest in finding candidates who already have some 
degree of hard language skills, whether it be Arabic or Chinese 
or another.
    Within the career, there are increasing opportunities for 
language training, and the picture is perhaps not as bleak as 
one might assume. There are a great many Foreign Service 
officers who speak Arabic to the level of being able to conduct 
a private business session, a private exchange.
    It is somewhat different when you get on television. Your 
level of Arabic has to be a good, better than that, because of 
the pressures and the intensity of the event. In every embassy 
in the Middle East, there are several officers who do master 
Arabic in whatever function they have been placed. They are 
always available to help the mission as a whole, when the use 
of Arabic is essential.
    As I said, the critical shortage is in--is at the level of 
being able to appear on television and to do it fluently.
    Mr. Schrock. Well, I can tell you, one of the--two of the 
tours of duty I had I was required to take Arabic, and it was 
brutal. I mean, it was the most difficult thing I ever did, so 
I can certainly understand that.
    Do you have a comment on that, Mr. Pachios?
    Mr. Pachios. No. I would just say that I am delighted that 
the committee members are focusing on this issue of recruitment 
and training. I met with Ambassador Ross and the Under 
Secretary yesterday, and they are as well. So it is critical.
    Mr. Schrock. One of the--we always hear that they hate us, 
they hate us, they hate us. I have never been able to get 
anybody to answer completely why they hate us, which makes me 
wonder, are we really responding to the untruths that we hear 
in some of the Arab media that creates that level of hate that 
communicating correctly would solve, if that makes sense? I 
don't understand why--are we doing as much as we can to present 
the other side?
    Mr. Ross. I think that--to ask why do they hate us is 
perhaps to oversimplify the situation. In the months after 
September 11, I took two trips to the Middle East, spoke to an 
extremely wide variety of individuals ranging from high school 
students through all of the levels into senior government 
officialdom, and nowhere did I find hate. I found a lot of 
anger and mistrust.
    I think the proportion of those who actively hate is very 
small and is most dramatically represented by the likes of 
Osama bin Laden. But the vast majority of people in the Arab 
world, in fact, as the polls have shown, admire and respect a 
great many things about our country. They admire our 
educational system, our technology, our medical sciences, the 
opportunities that exist in this country. And by and large, 
when you probe, you get the answer that, I don't like some of 
your policies.
    And the issue keeps coming back to policies. Of course, 
that, too, from the Arab perspective is an oversimplification, 
because the policies that they don't like derive from the 
American people and their elected representatives. So the 
attempt to draw a distinction between the American people and 
American policies is a little bit specious.
    But that is how virtually every Arab whom I spoke to on 
these two trips did express his or her feelings. I admire a 
great many things about the United States, but their policies 
give me trouble. And in that context, that is where our 
function of policy explication continues to be so important. To 
the extent the problem is their understanding of policy, we are 
attempting to improve that understanding.
    Mr. Schrock. Mr. Gilman handed me something, as I asked 
that question, from Zogby that their conclusion is that America 
is not hated; in fact, many things about Americans are viewed 
favorably. It is only American policy that creates negative 
attitudes among Arabs and Muslims. It is American policy; that 
means it happens here in Washington, it happens on Capitol 
Hill, happens in this room, that is me.
    How do we solve that? We need to have people like you tell 
us how we can solve that, because if we are stepping into to 
the muck and mire of this thing, and we don't realize that we 
are doing that, unless we know we are doing it, how we can 
solve it, then it is my fault. I would like to share it with 
the other 434 Members as well, but it is up to us to make sure 
that our policy isn't creating these problems.
    Mr. Ross. Our central task is to make sure that our 
policies are clearly understood and that the context for those 
policies is clearly understood. Once that is done, differences 
may well continue to exist. Inasmuch as policy positions 
reflect interests, and American policies are American policies, 
we are not going to change them because someone finds fault 
with them somewhere. They reflect our own reading of our own 
interests, and we have to live with the fact that in some 
cases, the--the differences over policy are unbridgeable.
    Mr. Schrock. The policy could be correct, but the 
interpretation over there is----
    Mr. Ross. That is one element, but even when the other side 
understands our policy completely, they may still disagree.
    Mr. Pachios. I would just like to add that the experts will 
say that 80 percent of selling something is listening. Salesman 
go and they ask questions, and they listen. Tell me your 
problems. And I am not an expert on the Middle East, as 
Ambassador Ross is, but I know a little bit about human nature, 
and I think when people perceive that you are not listening, 
that you are not feeling what they feel, they get very 
frustrated.
    And I think that is part of the problem. We cannot 
communicate with people until they're convinced that we are 
listening and that we sense what their trouble is.
    Mr. Schrock. That is where we have got to get the money to 
recruit the right people to get that communication skill down 
pat so we do it correctly. I agree with you.
    Thank you very much, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time we can have Ambassador to Ambassador, 
Ambassador Watson.
    Ms. Watson. Thank you so very much, Mr. Chairman, and the 
gentlemen who have been speaking. I came in a little late. I 
didn't hear your statement, but I have been reading it, and 
some thoughts come to mind. And I would like to make these 
statements and then end with a question and then have your 
comment.
    In the State of California, and I represent Los Angeles, 
there has been a movement for decades on English only. That 
movement gave a very negative message to the people who came 
over the border. And the first thing that struck me after 
September 11, is that people really misunderstand us, they hate 
us, and why. We have never really taken time to understand 
their culture, their beliefs and their religions, and to be 
able to convey to them in their language.
    One thing I learned living in Japan and taking Japanese is 
that there are many English phrases that don't even translate. 
We miss a lot in translation. So we don't send the right 
messages when we say English only. It is like, if you don't 
speak our language, then don't speak. I think that is one 
thing.
    Cultural diversity. In the current crisis that we are 
facing, who are the people that you see speaking about you and 
to you? They are not faces that look like you. Colin Powell was 
the only one, and he got pushed to the margin. So the people 
who are sending the messages over TV, that I am sure they 
monitor second by second, are faces that look different than 
theirs.
    I understand that through the State Department there was a 
project, I think Louis Stokes started it several years ago, 
that went to the historically black colleges and selected high-
potential students, brought them into the State Department.
    I think Louis Stokes started it several years ago, that 
went to the historically black colleges and selected high 
potential students, brought them to the State Department. They 
learned Farsi and other languages, and they could be very 
instrumental. So cultural diversity is not displayed well 
through our media. When we rattle our sabres, does that not 
send a message that we want to go ballistic, rather than go 
diplomatic? You can comment on that.
    And then how do we educate? Every time I go to a temple in 
my district and I try to deal with this struggle between the 
Israelis and the Palestinians and say there are innocent people 
on the other side, I get taken on for that. And I really 
believe that there are innocent people on the other side who 
have no idea about American policies and they don't hate us. 
But the rhetoric is so high about how they do. So how do we 
educate them?
    And let me just say that I don't see a clear policy in 
dealing with the Middle East. Right now, the policy is to go in 
and strike first and get rid of the bad guys. I don't hear a 
clear policy. Are we going to do nation-building? Are we going 
to really care about these people after we go in and take the 
bad guys out? Are we going to try to reach understandings? Are 
we going to get down to the grassroots? And I don't hear a 
clear policy.
    And finally, let me say is it our alliance with Israel that 
creates negative impressions? So I have a lot of issues that 
trouble me in trying to think through a policy for America. As 
one of the Members of Congress voting, that I'm very troubled. 
I mean, it is causing some sleepless nights, since we are in 
the process of voting on a resolution now. So if you can 
comment on these issues I raised and the one question at the 
end, is it our alliance with Israel, I'd appreciate it. Thank 
you so very much.
    Mr. Ross. Thank you, Madam Ambassador. This is a culturally 
diverse country. That is one of its enormous strengths. I am a 
Greek American. I enjoy that heritage tremendously, as I am 
sure other Americans of other backgrounds enjoy theirs. I think 
it is an aspect of our country that we must build on that; we 
must use to the maximum extent possible in representing 
ourselves overseas.
    The Secretary of State has shown a great deal of interest 
in this issue. He would like the diplomatic service to reflect 
all elements of American society to the greatest degree 
possible, whether that be on any basis you wish, on the issue 
of language is a very important one there. The Secretary of 
State is also very conscious of the importance of tone in 
talking to other people. It was mentioned earlier that Chairman 
Pachios mentioned that Arab populations seem to feel a need 
that someone is listening, someone is understanding, someone 
has some empathy for them. This can be conveyed to a certain 
extent by the tone one uses in speaking, not by some drastic 
change of policy.
    There is a great deal to be said for speaking softly, and I 
personally am of that school. Our policy in the Middle East is 
clearly a policy that seeks to work for the peace and well-
being of all peoples there. This is a very difficult time. The 
level of violence, counterviolence, terrorism that has existed 
between Palestinians and Israelis for the last couple of years, 
has made it very difficult to pursue the search for a political 
settlement.
    We remain actively engaged to try and bring the level of 
violence down and to end the acts of terrorism. But it will 
take a major effort to rekindle the political process that, in 
the end, is the only way to achieve any kind of mutually agreed 
settlement between Palestinians and Israelis. We are very 
conscious of the fact that on both sides, innocent people are 
paying a tremendous price for the continuation of the violence 
and the terrorism.
    So it is certainly something that we are focused on. We do 
not have a policy of striking first and asking questions later. 
As you know, the President has taken no decision on how to 
proceed with regard to Iraq. You have heard his successive 
speeches on this subject, and I think the administration is 
proceeding in a careful way as it moves forward.
    Ms. Watson. If you could address the question I raised 
about our alliance with Israel. Is that pre-determining for 
Arabs, the United States position, and if they're anti Israel, 
do we suffer from that attitude?
    Mr. Ross. I think that the Arab governments regard our 
special relationship with Israel as a strength because in the 
work of peacemaking over the years, we have been able to work 
with the Israeli government in the process. I think the issue 
is far more--the degree to which we are seen to be actively 
involved in the search for peace and for the time being, there 
being no active political process, we are perceived as being 
relatively in active.
    I think the day that it becomes possible openly to work for 
a political settlement, the attitudes on the Arab side will be 
mitigated and people will, as they have in the past, see our 
special relationship with Israel as an advantage in the work of 
building peace.
    Mr. Shays. Thank you. Recognize the vice chairman of the 
committee.
    Mr. Putnam. Thank you, Mr. Chairman. Welcome, Mr. 
Ambassador and Mr. Pachios. If I--please correct me if I 
misunderstood you, but I believe that you just said that our 
special relationship with Israel is largely viewed as an 
advantage, or will be viewed as an advantage. Is that what you 
just said?
    Mr. Ross. The Arab governments, in general, recognize that 
in any peace settlement, Israel must participate, and they 
recognize that our special relationship with Israel enables us 
to play a very important mediating role.
    Mr. Putnam. I just wanted to point out that according to 
the Zogby poll, the rejection of America's pro Israel tilt is 
nearly unanimous. Asked whether they approved the U.S. 
Government policy toward the Palestinians, just 1 percent of 
Kuwaitis, 2 percent of Lebanese, 3 percent of Egyptians and 
Iranians, and 5 percent of the Saudis and Indonesians say yes.
    And if, according to your previous testimony, our policy in 
the Middle East toward Arabs is even when, as you put it, 
people thoroughly understand how we arrived at that decision, 
they still disagree, we have a tall order in communicating, as 
I see our policy toward Israel not changing any time in the 
near future, and our support being unflinching and steadfast.
    So therefore, recognizing the unflinching support of the 
United States toward Israel, and the unflinching opposition of 
the Arab world toward our position, could you please elaborate 
on how we are going to overcome that obstacle?
    Mr. Ross. In the 7 years that I was Ambassador to Saudi 
Arabia, we worked very hard with all the Arab parties to 
achieve a comprehensive peace. In that peace-making contact 
with the Syrian government, with which I was working very 
closely at the time, and which is, by no means, an easy 
partner, the Syrian government made a distinction between a 
special relationship and a tilt.
    Mr. Putnam. But what about the Syrian people? The people 
who are the targets, the audience of this public diplomatic 
effort that we are here to discuss today?
    Mr. Ross. In the context of peacemaking, as they saw us 
positively engaged on the road for peace, I did not find a 
Syrian public opinion that opposed our relationship with 
Israel. Our problem today is that there is no active search for 
peace in the way that we knew it in the 10 years following 
Madrid, and when that is absent, then attitudes tend to harden, 
tending to go in many different directions.
    Mr. Putnam. Let me just continue, if I may. I hate to cut 
you off, but we only get 5 minutes, and I just want to move on 
to another question. In a study that the United Nations did, 
the Arab Human Development Report of July of this year, the 
report written by Arabs for Arabs points out these statistics: 
Arab societies and their current 280 million people are being 
crippled by a lack of political freedom, the repression of 
women and isolation from the world of ideas. 65 million adult 
Arabs or 23 percent of the population are illiterate. Two 
thirds of them are women.
    In the next 8 years, its population will go from 280 
million to 450 million. 20 percent of those people live on less 
than $2 per day, and 40 percent of them are under 14. Well, 
then, a Nation like the United States where the largest 
childhood nutrition problem is obesity, do you think that there 
might be something deeper than the progress of the Arab peace 
process in their resentment, or their envy of the United States 
as the world's last economic cultural diplomatic and military 
hegemon, for lack of a better term?
    Mr. Ross. Historically there hasn't been that kind of 
societal envy or resentment. I think as the figures grow in the 
categories that you mentioned, that is very possibly going to 
emerge as yet other element in this equation. Arab society, as 
I have experienced it, does have safety nets that continue to 
work, the extended family being one of them. So $2 a day for a 
family of 10 is different from $2 a day for a single 
individual. It is a worrisome picture and the statistics that 
you cite demonstrate the magnitude of the problem.
    Within our limited resources, we are trying to do something 
to correct some of these phenomena, but in the end, it is going 
to take a very enormous effort on the part of many, many 
parties to deal with the kinds of situations that you are 
describing.
    Mr. Putnam. The report further points out that Arab 
intellectuals are fleeing a stifling and repressive political 
and social environment, and half of Arab women are unable to 
read or write, and the mortality rate is double that of Latin 
America and quadruple that of East Asia. How are we 
communicating and how are we fashioning a message when half of 
the population is illiterate?
    If you're a woman, you have no economic opportunity and 
perhaps are unable to read or comprehend the messages that we 
are broadcasting or transmitting. Furthermore, as Mr.--as the 
gentleman from Virginia pointed out in terms of resources, he 
spent $125,000 a week to communicate to one 435th of this 
country. We're dealing with an entire region, and as you 
pointed out in your testimony, there are many Arab streets. So 
how many different messages are we communicating?
    Mr. Ross. On the issue of illiteracy, the fact that it is 
as widespread as the report indicates, has heightened our 
determination to make increased use of the electronic media, 
particularly television and, to some extent, radio, Radio Sawa, 
being our principal tool in that regard. Radio and television 
reach out to illiterate populations. On the issue of women, and 
their role in society, we have a very active womens' program 
within our limited means in our exchange program.
    At this point, 48 percent of our exchange grantees are 
women. Given the magnitude of the problem, a lot more needs to 
be done there. But there is an active interest in improving the 
position of women in society.
    Mr. Putnam. My question, my third question was whether, as 
you pointed out, there are many Arab streets. How many 
different messages do we communicate?
    Mr. Ross. Our message has to be a consistent message 
throughout the region. The nature of modern media, if, for no 
other reason, dictates that this be so. You can't speak to one 
population saying one thing and another saying another. 
However, our embassies on the ground are able to fashion this 
consistent message in terms that are most relevant and most 
directly meaningful to individual audiences. But the core 
message has to remain the same.
    Mr. Putnam. Well, both of you have referenced political 
campaigns talking about enormous, enormous-sized nations and 
someone running for Governor, much less someone running for 
president, doesn't run the same commercial in Harlem as they do 
in south Arkansas or in Kentucky or in Central Florida. You 
have different methods, different messages for different 
populations even within a nation. And when you look at the 
diversity within these nations, the different religious 
factions, the tribal elements, there has to be some tremendous 
diversity to communicate the core message in a variety of 
different ways.
    We're putting an awful lot of emphasis on younger people 
through Radio Sawa, the Internet, television. In populations 
where 20 percent live on less than $2 a day, how many have a 
TV, a radio or access to the Internet?
    Mr. Ross. Radio and television are virtually universal, 
despite the poverty, and this is true because families collect 
among themselves to buy a set that may serve five, 10, 15 
people. Televisions are often placed in cafes and other public 
places. Radio is omnipresent. The Internet, to this date, 
remains a very limited phenomenon, although in some Arab 
countries it has acquired quite a foothold. But what we note 
from the figures is that it is a growing phenomenon. It is 
going to penetrate over time.
    For the moment, however, radio and television are the 
principal means of communication to the widest possible number. 
And satellite television is particularly significant. Again, 
hearken back to my days in Damascus, when you climbed up the 
mountain adjacent to Damascus and looked over the city, which 
was largely apartment buildings, the entire city was covered in 
satellite dishes. Every building had five or six or seven on 
it.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman. Recognize myself for my 10 
minutes. I have lots of different emotions. I just really have 
enjoyed this panel. I have enjoyed the questions that my 
colleagues have asked. As a former Peace Corps volunteer, I 
have ingrained in me the sense that you need to understand 
cultures and I will just quickly say that when I was in 
Brussels recently, I was walking down the aisle or down the 
hallway, and people were coming outside the doors, coming in 90 
degrees and running right in front of me and crossing me, 
making me stop and looking at me like I was rude. And I found 
myself saying these are rude people.
    And then the next day, I was driving a car--I was driving 
in a car, and they were explaining to me the rules when you 
drive a car in Brussels. And that is, that a 90-degree--a 
person coming in from a side street has the right of way and 
can literally come in front of a car coming down a straight 
road. And I thought, well that explains the connection that I 
had with people cutting me off. And when I knew that, I looked 
at it differently and realized that to them, I was the rude 
person and they,in fact, weren't being rude at all.
    I just didn't understand that when you walk down and 
someone comes to your right even at 90 degrees you stop and let 
them go. So there has been a lot of talk about the speaking 
side, but I want to put a little emphasis on the listening 
side. I'm told that ingrained in me as well that--not that I 
always practice it, is that you listen, you learn, you help and 
then you lead. You know, and that sense to me is that you then 
take action.
    I will also say to you that I have some real biases against 
the Arab community that I have to deal with, its treatment of 
women and so on. I can go on. I was touched, Doctor, Ambassador 
Ross, by your comments about--first off I agree with you. There 
is no one street, and I am almost a little embarrassed that we 
called it that, but it was a good title. It is obviously a very 
robust society. But I understand that to the Palestinian--
excuse me, to the Arab world now speaking as one, we appear, in 
many cases, to be immoral, anti religious and anti Muslim.
    We--I was impressed by thinking about in Muslim nations 
that we share certain values of family, faith and education and 
generosity. And it seems to me that when we sort out these 
problems that we have that we need to focus in on what binds us 
together, and then try to sort out our differences. But one 
thing I know is going to happen is we are not changing our 
policy about Israel. If anything, September 11 has made me feel 
more sympathetic toward Israel, more understanding that there 
are not good terrorists and bad terrorists. There are 
terrorists.
    And an embarrassment that our country has not stood up to 
terrorism. When I was in Turkey meeting with them about the--
those in the Kurdish community that have been very active in 
terrorism, and that their complaint to us was that in France, 
the terrorist organization in Paris has their headquarters. And 
yet they've lost 30,000 people. I have to start with this 
premise that certain policies simply aren't going to change. 
And I start with the premise that our failure to stand up to 
terrorism has also had an imprint on the Muslim world.
    And I would like either of you to tell me if I am wrong in 
my general belief that the--am I wrong in my general belief 
that allowing our embassy employees to be held hostage for 444 
days was an absolute outrage, and that the Muslim world began 
to look, and I say Muslim world collectively, at a great nation 
not willing to protect its diplomats and not willing to speak 
out for them and not willing to treat this as what it was, a 
terrorist act, or certainly, an act of war? I go down from 
Germany, our failure to respond to the killings of our soldiers 
in Germany by terrorists, the Hezbollah and what they did in--
to our Marines in the barracks in Beirut, and the fact that no 
one was held accountable.
    No one basically in leadership was held accountable for the 
bombings in Saudi Arabia. No one really was held accountable 
for the bombings of our embassies in South Africa. No one was 
held accountable for the Cole, what happened with the Cole. No 
one. And when the President said at one event I attended, he 
said I was wondering, I keep thinking what were the terrorists 
thinking. And then the thought, they probably thought we were 
going to sue them and we smiled.
    But, you know--so I guess what I want to say is there are 
lots of ways we send messages, and I want you to speak to the 
concept of our failure to address terrorism, and what message 
that sent. And I would like to ask both of you.
    Mr. Ross. I think you are absolutely right on the issue of 
terrorism. Historically, it has proven a rather difficult 
phenomenon to counter and to combat, but I think the current 
approach of seeking out terrorists, wherever they may be, and 
dealing with them appropriately is the right posture. The 
Tehran hostage crisis was a very sad chapter in our presence in 
the region. I, myself, was present in the embassy and I was 
assigned to the embassy in Beirut the day it was bombed and 
lost many friends there. I know the costs of terrorism, and I 
think a firm response is fully justified.
    Mr. Shays. But I'm talking more than justified. What 
message does it send to the--to that part of the world when a 
great Nation like the United States is willing to, I mean, did 
that win us friends? When they saw us fail to respond to the 
deaths of nearly 300 Marines, did we win friends that way? Did 
we win friends by turning the other cheek? I need to know that. 
If you tell me we won friends, I want to know how we won 
friends.
    Mr. Ross. No, I don't think that we won friends, Mr. 
Chairman. I think on the contrary, people began to assume that 
they could take pot shots of various kinds at the United 
States, and that there would be no reaction or no significant 
reaction. And I think as I say, our current posture is a much 
sounder one.
    Mr. Shays. One of the things the Israelis say to me is that 
you are trying to impose your western thought on our Middle 
East dispute. And one of the things they have said to me and to 
others is you will not be able to impose a settlement. We will 
have to come to grips with in. But I think of something even as 
what seems as horrific as tearing the--and I am speaking now of 
what the Israelis are doing, of literally destroying the homes 
of the families whose children have been suicide bombers.
    And to my western thought, that seems pretty unusual, and 
somewhat questionable. Until I put it in the perspective of 
asking myself, why would anyone in the Arab community accept 
$25,000 for the death of their son who had killed innocent 
children and innocent adults? And so I have a hard time--and I 
realize that world is different, very different. I would like 
to ask you, Mr. Pachios, would you care to comment on the 
question I asked?
    Mr. Pachios. I don't--my colleague, Ambassador Ross, was in 
the counterterrorism for a while, so he is an expert, I am not. 
But I would like to say that your comments about listening are 
correct. Your comments about combatting terrorism are correct. 
But there is some commonality here. We're not the only people 
on the planet that are affected and threatened by terrorism. 
Most of the countries in the western world are concerned about 
terrorism, and terrorism, frankly, is counterproductive in 
those countries where it's carried, out and they know that and 
there is a lot of suffering.
    So there is a message there, that terrorism benefits no 
one. But if we listen, maybe we can get to the roots of this. 
There is the feeling that if you don't have tanks and jet 
aircraft like the United States and its allies have, that you 
don't have anything but human bodies. And I think we have to 
get to the bottom of that and listen and then respond. Unless 
we hear them, we have no message to give them that is 
meaningful.
    Mr. Shays. Let me just take a quote that you said. To put 
it bluntly--Mr. Pachios, this is your comments. I'm sorry. To 
put it bluntly, we should not be in the business of getting 
people to love us. We will never win the war of words. We 
should however try to help the world understand us. And I would 
like you to elaborate on that.
    Mr. Pachios. Well, I wish Congresswoman Watson were here, 
because I would respond to what she said. We are a very diverse 
country and we're the freest country and the most diverse 
country in the history of this planet. And people do know that. 
And they know that--and we need to put our policies in context. 
It is the result not of a few people gathering in a room and 
saying OK, let's support Israel and here's why. It is 
representative of what our country is all about. These policies 
evolved. And sure, there are interest groups, there are 
different constituencies, and our policy is reconciled and it 
becomes a policy for our country.
    We need people to understand that. If people--policy is 
made different any most Middle Eastern countries. It is made 
differently. And so we have to explain our policies in context; 
that this is the result of what happens in a very free society 
with a lot of diversity. And this policy is the product--and if 
you--you may not agree with it. You will never agree with it. 
But understand what motivates it and how it comes about.
    Mr. Shays. Thank you. I know we have to vote. I think we're 
going to have three votes, so I might suggest to the witnesses 
that they may want to get something to eat and we would go to 
the next panel, and we probably will be coming back around 10 
after 12. I think that is probably when it is going to be. I 
will say to you one more comment. When I was in Jordan speaking 
to a leader in Jordan, he was saying you Americans don't 
understand how our community views a leader. When times are bad 
in the United States, they blame you as a leader.
    When times are bad and when we're in a crisis in our own 
country we turn to our leaders. And he was trying to explain to 
me how, in an ironic sort of way, the incredible suffering that 
was being visited upon the Iraqis, where I would think it would 
make people turn against Saddam, it made them turn toward him. 
In our country we would have been out of office like that. 
Well, obviously we have a different system of government but 
that is another factor. Appreciate both of you.
    I would like to ask if you have anything that you want to 
put on the record, maybe you felt needed to be put on the 
record, for instance, Mr. Pachios, you wanted to comment to Ms. 
Watson. I didn't know you were so shy that you wouldn't have 
just jumped in. So assuming that you are shyer than ambassador 
Ross, is there anything you want to put on the record that 
needs to be put on the record?
    Mr. Pachios. Thank you.
    Mr. Shays. All set?
    Mr. Pachios. I think we're all set. I just disagreed with 
the fact that people don't know that we're diverse, clearly 
they know we're diverse and people around the world, you know 
there is the old saying, go home American and take me with you. 
And I think she's wrong on that.
    Mr. Shays. OK. Well I am happy you put that on the record. 
Ambassador, any last comment?
    Mr. Ross. Just again to express appreciation for the 
interest that the Congress has shown in public diplomacy and 
the support that it's provided.
    Mr. Shays. Well, you see an interest. We know this battle 
against terrorism is both social, political, economic as well 
as military. I don't think that's as evident to the American 
people that we in government know that. I think it will become 
more and more evident and your work is very valuable. It's 
underutilized. Both of your work is under utilized, and I hope 
your work becomes more prominent.
    Thank you both very much. You were excellent witnesses. 
We're adjourning--we are recessing. Excuse me. Don't put 
adjourned down there or I'll be dead here. We are recessing and 
we may be back by 12, but it may be 10 after.
    [Recess.]
    Mr. Schrock [presiding]. Thank you for your patience. But 
the votes--we have to do votes once in a while. So we'll 
proceed. The chairman will return in a short period of time, 
but he asked that I start this hearing with panel 2. And 
welcome to all of you.
    We have--it is this afternoon. We have Mr. John Zogby, who 
is the president and CEO of Zogby International; we have his 
brother, Dr. James Zogby, who is the president of the Arab 
American Institute; Dr. Shibley Telhami, who is a professor of 
government and politics, Maryland university; Dr. Daniel 
Brumberg, associate professor of government, Georgetown 
University, and Dr. R.S. Zaharna, who is assistant professor of 
public communications, American University. Up the street here? 
Where I got my degree. I wanted to make sure it was the right 
one. As is traditional we swear in our panel so if you would 
please rise, we'll do that.
    [Witnesses sworn.]
    Mr. Schrock. Please note for the record that the witnesses 
responded in the affirmative. I think we will just begin our 
discussions today with Dr. Zogby, or Mr. Zogby.

     STATEMENTS OF JOHN ZOGBY, PRESIDENT AND CEO OF ZOGBY 
INTERNATIONAL; DR. JAMES ZOGBY, PRESIDENT OF THE ARAB AMERICAN 
  INSTITUTE; DR. SHIBLEY TELHAMI, PROFESSOR OF GOVERNMENT AND 
 POLITICS, MARYLAND UNIVERSITY; DR. DANIEL BRUMBERG, ASSOCIATE 
 PROFESSOR OF GOVERNMENT, GEORGETOWN UNIVERSITY; AND DR. R.S. 
ZAHARNA, ASSISTANT PROFESSOR OF PUBLIC COMMUNICATIONS, AMERICAN 
                           UNIVERSITY

    Mr. John Zogby. Thank you, Mr. Chairman. Thank you for this 
opportunity. And let me say that after almost 2 decades of 
polling the American street, in the last 2 years we have polled 
extensively Arab public opinion, and I think it is very, very 
important that we make that differentiation. We're not talking 
about the street. We're talking about real people.
    I would like to call your attention to the report that 
appears on the table of an earlier poll that we had taken this 
year. The report is entitled ``Arab Nations' Impressions of 
America poll.'' I hope that people will take it and read it 
because there are some starting findings here. We were 
obviously taken aback by the events of September 11, and also 
by a poll that was done by our colleagues, another polling firm 
that tried to answer the question, why do they hate us? Having 
traveled pretty extensively and often into the Arab world and 
Muslim world, that was not the impression that we had had about 
Arabs in general; that generally they don't hate us.
    And so we conducted an extensive poll back in March and 
early April. And we asked them on a scale of very favorable, 
somewhat favorable, you now how we talk, to very and somewhat 
unfavorable what their views were of the American people, of 
American science and technology, American movies and 
television, American freedoms and democracy, American products. 
And in every case, close to majorities or majorities were 
favorable to those aspects of American life, people and 
culture.
    The breaking point, however, was when we asked specific 
questions about American policies toward Iraq, toward the Arab 
nations in general, toward Palestine and the Palestinians the 
numbers just fell off a cliff, to single digits, in fact. And 
so essentially they love us, but they don't like our policy. 
And very important point that needs to be made. Among the most 
startling findings of the poll, and this is where the 
opportunity is, I believe, for American policymakers, is that 
contrary to every myth that I had had or that others had 
written about, about the demographic boom in all of these 
countries, about solid majorities in all of these countries 
being people under 25 years of age, and that these are the 
street Arabs and the most dangerous element in Arab society, on 
the contrary, to the degree of 12 to 15 points in each case, 
the 18 to 29-year-olds that we polled had more positive 
attitudes toward America than any other age cohort.
    When we added to the mix those who had access to satellite 
TV, those who had access to the Internet, which incidentally 
borders on around 28 do 30 percent who have access to the 
Internet, not Internet capacity at home, but Internet capacity 
in cafes and among friends and so on, the numbers went up even 
further among those who said that they like us and have 
favorable views, which led, I think, to the obvious conclusion 
that there is an age cohort that need not be dangerous to the 
United States and the interests of the west.
    There are common bonds of culture. There are ways, tools 
that we can communicate to them via the Internet, and via 
satellite TV. And so I just want to set the stage then for the 
more detailed poll that we just conducted on Arab values, Arab 
feelings, which my brother is going to address, but just simply 
to suggest to you we will be polling in this region more and it 
is the policy and that should not be dismissed. It is the 
policy that alienates Arabs and especially young Arabs at a 
time when we can win them over, when we can build bridges 
instead of burning down bridges. I thank you for the 
opportunity, Mr. Chairman.
    Mr. Schrock. Thank you, Mr. Zogby.
    Mr. Schrock. Dr. Zogby.
    Mr. James Zogby. Thank you, Mr. Chairman, the book that 
John just referred to is called What Arabs Think, and it's just 
out and its values, beliefs and concerns of people in 8 Arabs 
countries. The book was important, I think, to do because at 
this point, too often discussions that take place in this 
country about the Arab world and about what Arabs think is 
based on anecdotal evidence, kind of intellectualized 
prejudice, I call it. One takes an observation, generalizes the 
observation into a conclusion, and depending upon the bias of 
the person makes that conclusion into this is what Arabs are, 
this is what they think.
    It's sort of the same kind of street observations that one 
gets here in the States, you want to know what they're like? 
Well, one of them came into my store today and then becomes an 
observation based on a single anecdote, which is blown up into 
something much larger. As a result, Arab opinion is dehumanized 
referred to as the Arab street, generalized, treated as an 
object usually of scorn and therefore dismissed. The fact is 
that there is Arab public opinion just as there is American 
public opinion, and thanks to the Arab Thought Foundation, we 
were able to go into eight Arab countries and do a detailed 
assessment of what Arabs think.
    I think it's important that we pay attention because 
unfortunately, up until now, our conversation with that region 
has been a conversation with the deaf. And that actually goes 
both ways, we're talking and not hearing what they're saying 
back to us. They're talking to us and not hearing how we're 
receiving it. You know, the cartoon ``Non Sequitur,'' it begins 
with a husband and wife and the wife says something and it's 
what she said and how it was heard. I listened to the President 
last night. I know how he was heard here. The question we need 
to be asking ourselves is how was he heard there, and if the 
message is not being received well, then we need to take a look 
at how we're presenting ourselves and what is behind the 
disconnect.
    What we learned in our polling is that at the end of the 
day, Arabs are people like us. They go to bed at night thinking 
about their kids. They wake up in the morning and worry about 
their jobs. The No. 1 concerns what matters most, their civil 
rights. What comes next is health care. What's interesting is 
that what comes after that is Palestine. But at the very bottom 
of the heap, just like for us is the question of foreign 
policy. Palestine is not a foreign policy question. It is a 
personal, almost existential defining issue. It is a tragedy 
happening to people just like them.
    And what, therefore, is an extension of that and intriguing 
is when you ask them how they feel about other countries in the 
world, the measure of their value of other countries is how 
those countries impact them, not unlike Americans, who will 
make their determination on the favorability and unfavorability 
of other countries using a very similar standard.
    The lowest, therefore, for the Arabs is Israel because 
Israel is doing a very bad thing to Palestinians. Right after 
that is the United States. And after that is the U.K. toward 
the top of the heap are countries like France and Canada and 
Germany who they perceive having a different relationship with 
them. When we ask questions about how they feel about these 
countries, or in particular, with regard to the United States, 
we say what should the United States do to improve its 
relations, about a third to a half say treat the Palestinians 
better, or treat us better, or respect our rights and be more 
fair and balanced to us.
    I think the question of listening and hearing and therefore 
responding with language that people understand is so critical 
to this discourse. And I must say that there are those in both 
the Advisory Commission on public diplomacy as well as those 
who are involved in the effort at the State Department 
understand that. They are restricted, of course, by the 
question of policy and the domestic debate here in the United 
States.
    But when the domestic debate here in the United States 
impedes on our ability to pursue critical foreign policy 
objectives, then I think we need to take another look at how we 
go about both the conversation here at home and also the policy 
that results from the conversation. It is making the Middle 
East a more dangerous place for us, and I think it is at that 
point I will end my remarks and be happy to ask actually that 
your Impressions of America Poll in its entirety be submitted 
for the record. I think it would be an important piece of 
information for other members to consider. And I thank you for 
the opportunity to speak.
    Mr. Schrock. Thank you doctor. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.013
    
    [GRAPHIC] [TIFF OMITTED] T8885.014
    
    [GRAPHIC] [TIFF OMITTED] T8885.015
    
    [GRAPHIC] [TIFF OMITTED] T8885.016
    
    [GRAPHIC] [TIFF OMITTED] T8885.017
    
    [GRAPHIC] [TIFF OMITTED] T8885.018
    
    [GRAPHIC] [TIFF OMITTED] T8885.019
    
    [GRAPHIC] [TIFF OMITTED] T8885.020
    
    [GRAPHIC] [TIFF OMITTED] T8885.021
    
    Mr. Schrock. Dr. Telhami. Did I say that right?
    Mr. Telhami. Yes, sir. Thank you, Mr. Chairman. I would 
also like to address----
    Mr. Schrock. You need to have your microphone on.
    Mr. Telhami. Thank you, Mr. Chairman. I also would like to 
address sort of what drives public perceptions of America in 
the Arab world especially, and the Muslim world broadly. And 
also secondarily, whether that really matters for U.S. policy 
in the Middle East. There are people who think it shouldn't 
matter because after all, we have authoritarian governments who 
can simply disregard public sentiment and have succeeded in the 
past, and therefore will in the future so we can ignore public 
sentiment and deal with governments and not worry about public 
opinion.
    So let me address both of these issues. I think it is true 
that the attitudes of radical groups like al Qaeda and those 
people who make up al Qaeda and its backbone support hate 
America, not only for its policies, but also for its values. No 
question that there are people who are intolerant in the region 
who do constitute political movements that are incompatible 
with American interests.
    But it is also obviously true that the vast majority of the 
people in the region do not see America through that prism. 
When they think of America, they're not thinking about western 
values and their resentment of America is mostly based on 
American policy, not American values. Certainly, every poll has 
shown that to be true. And to the extent that we have these 
interesting historical episodes where America has not always 
been disliked in the Middle East. They were historically in 
fact, America had a favorable rating in the Middle East for 
much of its history until the past 25 years or so.
    And certainly, when you think about Middle Eastern 
attitudes to toward other western countries, they have 
favorable rating toward a number of western countries, and 
those countries that have favorable ratings are those whose 
policies are perceived to be favorable to them. There is no 
question that it is a policy issue, not a value issue at the 
level of the public. Al Qaeda aside, which is a problem that 
has to be confronted separately, and I think there is no 
daylight between us and al Qaeda. But I think that is not true 
about the general public in the region.
    Now what are these policy issues that matter for most 
people? And I think here it is clear that the vast majority of 
the public in the Middle East is frustrated with a political 
system that they see as unfavorable to them, which they seem to 
have no role to play. With all that comes with that, an 
authoritarian political order, hardship, loss of hope, and 
foreign policy, and they see the United States as the anchor of 
that political system which is disadvantageous to them. But no 
issue, no issue is as important in the perception of the region 
as the Palestinian-Israeli issue. It is the prism through which 
most people in the region see the world. It isn't that's the 
only reason they resent America.
    And frankly, when you look at the world, we have to remind 
ourselves that America unfortunately is resented not only in 
the Middle East, but in countries and regions that have little 
to do with the Middle East, such as Latin America and Asia. And 
in that sense, the resentment of America in the Middle East is 
not especially different from many other parts on a number of 
issues. But the added value of the passion of resentment is 
largely related to the Arab-Israeli issue.
    And we have to understand that issue for most people is not 
about foreign policy, as Jim said, but about identity.
    There are a number of reasons for it over the past half of 
a century. Why the collective consciousness the collective 
political consciousness of Arabs is, in large part, formed in 
relation to the Arab-Israeli conflict, and especially to the 
Palestinian issue. If you look at the psychology of 
generations, successive generations of Arabs since World War 
II, the defeat of 1948, the war of 1956, the defeat of 1967 the 
war of 1973, major wars that over which people paid a heavy 
price and that, in fact, brought down dreams of collective Arab 
aspirations, most of which were linked to the issue of 
Palestine and Israel.
    And so there is a collective scar in the region that is one 
of humiliation related to the Arab-Israeli issue, and the 
Palestinian issue remains an open wound, because now it is 
visible. They are the ones who are mostly dying among Arabs and 
who are seen on television through the news media every single 
place.
    And so when people form opinions about the United States 
today, they largely see the United States through that prism, 
through the Arab-Israeli conflict.
    We have two headlines today in our newspapers about the 
Middle East, one about the President's important speech on Iraq 
and on terrorism, and the other was about the death of 12 
Palestinian in Gaza. We are correctly, in our public discourse, 
focused on the President's speech. That is the one that is 
going to be consequential for us. What is consequential in the 
region, what people are reporting, and the passions are being 
formed, largely through the second story, that it is a 
secondary story to us. So they see us through a different 
prism, and we have to keep that in mind. In that sense, that is 
a central issue in the attitudes.
    Now, the second point I want to address is the extent to 
which that matters at all. It is clear that governments in the 
region have been able actually to repress the public and to 
overlook the pressure that emanates from the public on foreign 
policy. And I think they have survived and they have been able 
to build institutions that have been robust, and I don't think 
that most of them are threatened by things like revolutions, 
are few and far in between in history. They don't happen very 
often. But, frankly, most of them are stressed to the limit, 
and they don't want to be tested even if they know most likely 
they will survive.
    But beyond that, we have to remind ourselves of what the 
consequence will be. When we ask governments, like the 
Government of Jordan, to go against its strong public opinion 
to support our policy on issues like Iraq, for example, where 
there is pervasive opposition across society against such a 
war, when we ask them, support us, we are saying, disregard 
your public. And when they come to us and say, we can only do 
that by being more repressive, because that is the only way we 
can put down the dissent, make sure the demonstrations don't 
challenge our authority, make sure that we can do what we need 
to do in supporting a war, we have to understand that the 
consequences of disregarding public opinion in the formation of 
our policy and dealing with governments is the perpetuation of 
the very repression that has fueled much of the terrorism 
phenomena in the region. We have to be very conscious of that.
    And my worry, Mr. Chairman, is not so much that there would 
be revolutions in the Middle East tomorrow if there is a--if we 
pursue policies that disregard completely public opinion in the 
region, but that there will be passionate opposition and 
intensification of the sense of humiliation. That will 
unfortunately fuel the terrorism phenomenon that we are trying 
to fight. Thank you very much.
    Mr. Schrock [presiding]. Thank you very much, Doctor.
    [The prepared statement of Mr. Telhami follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.022
    
    [GRAPHIC] [TIFF OMITTED] T8885.023
    
    [GRAPHIC] [TIFF OMITTED] T8885.024
    
    [GRAPHIC] [TIFF OMITTED] T8885.025
    
    Mr. Schrock. Dr. Brumberg.
    Mr. Brumberg. Thank you very much, Mr. Chairman. I am 
delighted to be here. I will read a short statement, then if I 
have a couple of minutes, I might add a few remarks that touch 
also on the written testimony I provided this morning.
    The purpose of my testimony today is to transcend the 
highly politicized debate about the roots of Arab hostility to 
the United States by providing a systematic analysis of this 
complicated phenomenon. This analysis is based on the 
distinction between Islamists and Arab nationalist ideologues 
as one circle of concern; their immediate audiences and 
university professional and religious institutions, another 
circle of concern; and a third circle, the wider Arab populace.
    At the core of these three circles are political activists 
and ideologues whose hostility to the United States is informed 
by an ideology of resentment. Many, although all Islamists, 
some of whom been educated in the science and medical faculties 
of American and Western universities, view some aspects of 
American culture and society as threatening to the moral, 
social and political cohesion of the Islamic community.
    The second circle consists of the immediate audience of 
these ideologues. This audience is made up of university 
students, professionals in law, academia, medicine, engineering 
and other vocations. These men and women interact through 
networks that operate within and across professional 
syndicates, labor unions and other semiofficial institutional 
arenas. While some of the second circle are potential recruits 
for the first, many, if not most, are ideological fence-
sitters. Whether they join up or not is a function of many 
factors, not least of which is the Palestinian issue and the 
fate of Iraq.
    The outer circle to which Shibley referred to, to which Dr. 
Zogby referred to, is constituted by the bulk of Arab society, 
men and women whose chief concern is making a living, feeding 
their families, or simply surviving. While members of this 
third circle sometimes echo the xenophobia of Islamist 
ideologues, their world views are not founded on an ideology of 
resentment.
    That said, many of these young people do constitute a 
potential mass base who, under conditions of regional or 
domestic strife, can be mobilized by Islamists, because such 
mobilization comes in irregular cycles, the sudden cresting of 
which cannot be long sustained. Such spontaneous moments of 
mass protests rarely pose a dire threat to the very existence 
of Arab regimes. Still, the cumulative effect of such protests 
has been to widen the legitimacy gap between Arab regimes and 
the population.
    In the short and medium term, the United States can do 
little about the inner core of Islamist and Arab nationalist 
ideologues who preach anti-Americanism if the overall domestic 
and regional context that helps them sell their resentment to 
the wider populace is not static. Such contextual factors must 
be addressed in ways that do two things: reduce the leverage of 
anti-American activists, and increase the leverage of those who 
share our values and share our concerns.
    How do we go about this? Here substantial progress toward 
resolving the Palestinian-Israel conflict is essential. Over 
the last few years, especially since the collapse of the Oslo 
peace process, Arab young people have been fed a daily diet of 
horrific images of Palestinian young people dying in the 
streets of Gaza and Ramallah. That these images have sometimes 
been manipulated by Pan-Arab satellite television stations such 
as Al-Jazeera and/or by governments is true, but long before 
such manipulation, Palestine had become the No. 1 issue for 
millions of Arabs, especially literate, middle-class Arabs 
living in the urban arenas of Cairo, Rabat, Amman and Damascus.
    While there will always be other social, economic and 
educational and political factors that threaten Arab youth and 
make them vulnerable to anti-American ideologues, a lasting 
two-state solution to the Palestinian-Israeli conflict will 
help take the wind out of the sails of those who trade in 
hatred and resentment.
    Given the centrality of the Palestine issue to the Middle 
East, we must recognize that an American-led campaign to topple 
Saddam Hussein will deepen anti-American resentment, even if it 
eventually leads to the creation of a pluralistic government in 
Iraq. Faced by mounting protests, Arab regimes will repress, 
thus widening the gap between government and populace. This 
dangerous dynamic cannot be mitigated unless the United States 
focuses attention on the Palestine-Israeli conflict.
    Finally, over the long term, there are a host of other 
issues that must be addressed. As the authors of the recently 
published Arab Human Development Report acknowledge, progress 
on revamping Arab educational systems and a push for a genuine, 
as opposed to cosmetic, democratic reforms are vital. So, too, 
are economic reforms that gave non-oil-producing states a means 
to increase private sector production in ways that benefit the 
wider society.
    Still over the short term such reforms may also exacerbate 
rather than reduce anti-Americanism. This is an important 
point. Economic reforms often deepen unemployment and social 
equity, at least at the outset. Democratization tends to 
mobilize Islamists, while educational reform will also be 
resisted and opposed by Islamists.
    Given the short-term side effects produced by the long-term 
medicine of such reforms over the next 12 months, American 
policymakers must concentrate on redefining the wider political 
environment. This project cannot succeed unless the 
administration pushes for peace and democracy in Israel and 
Palestine, as strongly as it is mobilizing for a regime change 
in Iraq. Absent such an effort, the United States may win the 
battle, but lose the war.
    And let me just finally add, very quickly, that my 
statement this morning goes over a lot of other issues that I 
did not mention in my testimony. I do think that we need to 
focus on the question of Saudi Arabia, the production of hate 
speech, the question of anti-Semitism. I think these are very 
important issues.
    I think the question of Al-Jazeera, as I discuss in my 
written testimony, is very important. I think Al-Jazeera has 
tended to manipulate a crisis and exaggerate it and distort it. 
Willfully or not, it has been an avenue by which certain kinds 
of hate speech have been spread. These are all important 
factors, but if Al-Jazeera did not exist, if it was just CNN, 
if it was just BBC, the images of the Palestine-Israeli 
conflict broadcast to the TV stations of millions of young 
people in the Arab world would be there day in, day out.
    Until the United States decides that Palestine is as 
important as Iraq, I don't think that all of the talk about 
public diplomacy, learning Arabic and all of the rest of it 
will make as much difference as we would like. Thank you.
    Mr. Schrock. Thank you.
    [The prepared statement of Mr. Brumberg follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.026
    
    [GRAPHIC] [TIFF OMITTED] T8885.027
    
    [GRAPHIC] [TIFF OMITTED] T8885.028
    
    [GRAPHIC] [TIFF OMITTED] T8885.029
    
    [GRAPHIC] [TIFF OMITTED] T8885.030
    
    [GRAPHIC] [TIFF OMITTED] T8885.031
    
    [GRAPHIC] [TIFF OMITTED] T8885.032
    
    [GRAPHIC] [TIFF OMITTED] T8885.033
    
    [GRAPHIC] [TIFF OMITTED] T8885.034
    
    [GRAPHIC] [TIFF OMITTED] T8885.035
    
    Mr. Schrock. Dr. Zaharna.
    Ms. Zaharna. Thank you, Congressman. It is always good to 
see an AU alum, and especially one that was in the Navy in PA, 
and I will be talking about communication.
    Sir, I have already submitted my testimony for the record. 
What I would like to do here is briefly highlight five 
challenges that the American public diplomacy faces in the Arab 
world. I phrase them in term of mindsets, or ways of thinking. 
And I would like to conclude with the important role that 
Congress plays as the representative of the American people in 
American public diplomacy.
    First, mindset is--think relationships. Most Americans 
think of communication in terms of sending messages. It is the 
old send a message, receive a message model. Similarly, 
discussion of American public diplomacy has focused on 
America's message and its image. America focuses on sharpening 
its message, coordinating it, reshaping it, packaging it, 
selling it. In the Arab world, communication is primarily about 
building relationships; cultivating, solidifying and defining 
relationships.
    American executives often complain that they must spend 
hours and some days having coffee before they start business. 
It is not that we like coffee so much, but relationships are 
the cornerstone of activities in the Arab world.
    So I want to say, if America wants to strengthen 
communication with the Arab world, think the about building 
relationships instead of conveying or relaying messages.
    Second, think eye level. And I mean this in two ways. 
First, even though America is a superpower, we cannot diminish 
the power of others. As a superpower, we speak in terms of 
threats. We immediately put others on the defensive. We may win 
the compliance of a country's leader, but we may alienate a 
country's people. If we look at others in the eye, we realize 
that they are just as proud of their culture and tradition as 
we in America are of ours.
    Second, if we want to talk to the people in the street, we 
must speak to their reality on the ground. The Arab world is 
not information-deprived, but policy-sensitive. We are a 
superpower. They hear us. The whole world hears us. And when 
what we say in terms of American public diplomacy doesn't match 
what they see in terms of American foreign policy, then we have 
a credibility problem.
    In the Arab world American policies--and they have used the 
word ``policy''; I want to say weapons, because the direct 
consequence of American policies are weapons. American weapons 
speak louder than American words.
    Three, think two-way. Most Americans tend to view listening 
as doing nothing. Communication means talking. After September 
11, America has been doing a lot of talking, but with few 
results. The far more powerful component in the communication 
equation is not talking, but listening. And I am reminded of a 
prayer of St. Francis: Seek to understand if you wish to be 
understood.
    I know, and I am glad you returned, Congressman Shays, that 
is exactly what you are doing here today. That is why I applaud 
your efforts. The better we understand others, the more likely 
that they will understand us in return.
    No. 4, the mindset. Think crisis diplomacy. When it comes 
to the Middle East, we are not dealing with traditional public 
diplomacy, but what I call crisis public diplomacy. Traditional 
public diplomacy focuses on the long-term strategies. They are 
usually cultural, educational, and it is usually for a friendly 
or neutral public.
    Crisis public diplomacy, on the other hand, means 
communicating simultaneously with multiple publics, some 
favorable, some hostile, and it is in a rapidly changing, 
highly visible, politicized environment. And a crisis, the best 
way to rally American public support is to identify and 
demonize a foreign target.
    Unfortunately, the best way to alienate a foreign public is 
to demonize and threaten one of their own. And there is--this 
is especially true in the Arab world. There is even a saying 
about that in terms of, my brother, my cousin, I against the 
strangers.
    Crisis public diplomacy calls for new strategies in 
communicating with both the Arab and the American public 
simultaneously.
    Finally, think Congress. When we think about American 
public diplomacy, we need to think about the American Congress. 
Most discussion of American public--public diplomacy focuses on 
the State Department, the White House and ignores the Congress. 
Yet America's representatives here at home are an important 
face abroad. From the vantage point outside of the United 
States and particularly in the Arab world, Congress has always 
played a major role in shaping American public diplomacy. The 
actions and the decisions of the American Congress have a 
direct impact on the people of the Arab world. I urge you and 
your committee to explore this uncharted terrain more so that 
the Congress itself can fully realize its role in shaping 
American public diplomacy.
    Sir, I thank you, and I look forward to answering any 
questions.
    Mr. Schrock. Thank you, Doctor.
    [The prepared statement of Ms. Zaharna follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.036
    
    [GRAPHIC] [TIFF OMITTED] T8885.037
    
    [GRAPHIC] [TIFF OMITTED] T8885.038
    
    [GRAPHIC] [TIFF OMITTED] T8885.039
    
    [GRAPHIC] [TIFF OMITTED] T8885.040
    
    [GRAPHIC] [TIFF OMITTED] T8885.041
    
    Mr. Schrock. Before I relinquish the chair to the chairman, 
I am going to ask a couple of questions. I wrote something down 
that Dr. Telhami said. He said the United States had positive 
ratings until the last 25 years or so. That kind of shocked me. 
Can you help me understand that?
    And, No. 2, I notice that you had a--I gather this is an 
article from the San Jose Mercury News. I am very familiar with 
the San Jose Mercury News. That is where my parents live, and 
my dad sends me every clipping that he can find on this 
subject. But in there it says, despite Vice President Dick 
Cheney's recent statement that moderates throughout the region 
would take heart at an Iraqi regime change, the strategic 
reluctance of Arab States to support an American-led war on 
Iraq should not be underestimated.
    We hear all of the time in committees, especially on House 
Armed Services Committee, that there are other nations just 
praying that we do this to get a regime change in Iraq, and 
that the Iraqi people want the same thing, too. I would like to 
get comments on that.
    And I am curious. One of you, and I can't remember who, you 
were talking about the speeches that Mr. Bush has made. And, of 
course, I, like a lot of Americans, watched the speech that Mr. 
Bush made last night. I know how Ed Schrock from Virginia 
Beach, VA, U.S.A., perceived it. But I guess I would be curious 
to know how you all think the Arab nations looked at that, 
because, obviously, based on what your testimony has been here, 
it is totally different. So I would be curious to know what 
your comments would be on that. The 25 year thing really 
interests me.
    Mr. Telhami. Well, let me begin. You have heard, actually 
Mr. Zogby, an interesting poll, which showed, for example, that 
while there is resentment of U.S. policy, in fact, when you 
think about France, now there is a favorable rating of France 
in the Arab world because they think of French policy as being 
positive. Obviously, France represents Western values.
    But if you look actually historically, and this is 
interesting, right after World War I, when President Wilson 
sent a commission to the Middle East to find out what the 
people in the Middle East wanted, and, in fact, the vast 
majority of the Middle East wanted independence, but if they 
had to have a mandate from the League of Nations, which they 
believed was probably going to come, they preferred above all, 
of all the powers of the world, they preferred the United 
States of America, because they saw America as a positive 
force, nonimperialist state that favored self-determination. 
But the French rank last in their thinking.
    To put that historically, to see how the game shifted from 
France being at the bottom and the United States being at the 
top, now it is the other way around in the thinking, now what 
has happened over the century?
    In part it is obvious that we are now more of a superpower 
involved in the Middle East, and I think that role clearly 
shapes perceptions globally in the Middle East. No question 
that the French imperialism ended in the region after World War 
II, and our role in terms of being the superpower, the most 
involved superpower in the Middle East, clearly has helped 
shape that opinion.
    But it is also true, even after we became more engaged in 
the Middle East, that at various stages we have had more 
favorable ratings throughout the past 25 years, depending in 
large part on how people assess our ability to move the process 
forward. I think if you look back in the 1990's, in fact, not 
looking far, right after the Iraq war of 1991, I think people 
bought into the possibility of a political order backed by the 
United States, that is based on a negotiated settlement of the 
Arab-Israeli dispute, and economic development and political 
change.
    And, frankly by the end of that decade, that paradigm 
collapsed. It collapsed not only because the Arab-Israeli 
negotiations collapsed, that is the most visible sign of it 
through the Camp David negotiations, but also because the 
change that was promised at the beginning of that decade never 
materialized. And because it was seen as a decade of Pax 
Americana, it is Pax Americana, it is the United States that is 
actually seen to be responsible for the collapse of that dream.
    And so it is really a function of what transpires. If you 
look, by the way, and I--if I may just expand one point. I said 
in my testimony that we have to look at the attitudes from the 
Middle East toward the United States in global perspective. We 
have to remind ourselves always it is not just Arab and Muslims 
who now have a resentment of American foreign policy, it is 
pervasive across many regions.
    In fact, even the degree of violence against America has 
not been more--has not been stronger in the Middle East than in 
other regions. Al Qaeda, which is a problem that has been 
horrific and we have to deal with it, it is a global problem, 
it has roots in the Middle East, it has to be addressed 
separately. If you put that problem aside for a moment and you 
look at the pattern of violence against America in the Middle 
East, you find the Middle East has not led in terrorism against 
America or in terms of frequency of terrorism, period, 
globally. So while, in fact, there is a resentment toward 
America in the Middle East even now, and certainly in the past 
two and a half decades, that resentment has not been so 
passionate that it has resulted in more terrorism than in other 
places around the globe.
    Mr. Schrock. Let me ask you, Doctor, in the next 25 years 
the media has really come into its own as well, and they pay 
more attention to these issues. Could that be a reason for some 
of the positive ratings decline?
    Mr. Telhami. No. The 25 years, I am really specifically 
referring to the 1967 war.
    Mr. Schrock. OK.
    Mr. Telhami. I think that war resulted not only in the 
collapse of the Pan-Arab movement and the defeat of Arab 
States, but it really resulted in the American presence in a 
visible way, both in terms of the alliance with Israel, the 
alliance then with Iran, with the Shah, the government in Iran, 
and, in essence, the United States became much more directly 
involved in regional politics, and as a consequence--and 
usually an ally of governments that are not Arab, Israel and 
Iran, throughout that period. And clearly that defined to a 
great extent the attitude of Arabs on issues that matter most 
to them, because the issues of Iran and the Gulf and Israel in 
the Arab-Israeli core clearly were important, broad political 
issues for the Arab world, and the United States was seen to be 
on the wrong side for much of it, not so much during the Iran-
Iraq war.
    Mr. Schrock. I would like to hear--the comment I had about 
how the Arabs might have perceived the speech that President 
Bush gave last night, I know how I perceived it. Members here 
know how they perceived it. I would be curious in your reaction 
to how you think the Arab world perceived it. Dr. Zogby.
    Mr. James Zogby. I was the one who made the observation, 
and let me elaborate. The language that the President used was 
very evocative and very meaningful to people in this country, 
but in the Middle East, just as the President's words are 
viewed in context here, and the context being a person whom 
many Americans came to believe as someone they could trust, 
someone who stood strong and tall against terrorism and made 
America feel strong, in the Middle East he is also viewed in 
context, and, therefore, the words are judged in context. But 
that context is of a longer duray, similar to the one that Dr. 
Telhami was referring to, that is the growing sense of values 
as projected in the region, but, more recently, just the 
developments of the last several months.
    The President gave a very strong speech on April 4th where 
he laid down markers for Israelis and Palestinians. A few weeks 
later, the Israelis had not met the mark, but Sharon was a man 
of peace. And about the best we can muster to deal with some of 
what Israel has been doing is that their actions are not 
helpful.
    There is a--there is an asymmetry--I refer to it this way--
there is an asymmetry of power in the Middle East. America and 
Israel have it, and the Arabs don't. But there are two other 
asymmetries. There is an asymmetry of compassion and an 
asymmetry of pressure. From the American side, we give pressure 
to the Arabs and Palestinians, and we gave compassion to the 
Israelis.
    The headlines that Dr. Telhami referred to in today's paper 
were instructive. There is no way that if a similar attack had 
occurred in Israel, that the reaction would have been as muted 
as it was from our own administration. The concern that we are 
presenting to the Arab world today, our concern for the freedom 
of the Iraqi people, doesn't ring true to them. It doesn't. Our 
sense of being a liberator does not ring true to them. And I 
think that we have to take seriously the fact that these are 
real people, with real feelings and real concerns. And as Dr. 
Zaharna noted, if we understand them, they will better 
understand us, because our language will be different when we 
speak to them, and it may just be that our policy changes as 
well.
    It is--may not be the easiest way to mobilize American 
public opinion, but it may be that what we lose in our ability 
to mobilize and inflame American public opinion may very well 
make us more secure by helping us reach a better understanding 
with people in the Arab world and build a stronger base for 
values, for our relationships, and a more secure environment 
for our friends in which to operate in that very troubled 
region right now.
    Mr. Schrock. Do I hear you saying that you don't agree with 
Vice President Cheney's comments that moderates throughout the 
region want a regime change?
    Mr. James Zogby. Look, this regime is not respected. It is 
feared, and many have anger toward it. But their anger toward 
it is matched in many places by an anger toward us. In many 
ways people view the equation this way, stuck between the anvil 
represented by the regime of Saddam Hussein and the hammer 
represented by America. They see the Iraqi people having been--
you know, been cornered and beaten both ways.
    And so, no, absent broader regional support, broader 
regional engagement, we are not viewed as the people to go in 
and change that regime. Do they want him gone? I think that is 
true, although we never asked the question. But we have asked 
people the question about their attitude toward that regime in 
earlier polls, and people are not favorable.
    But they are not favorable toward America leading a 
unilateral strike. In fact, when we asked the question in an 
earlier poll, would they support that, the numbers went through 
the floor. And actually when we asked the reverse question, 
would they support America ending unilateral sanctions and 
reintegrating Iraq into the region, the numbers went through 
the roof. It was interesting that the same numbers came from 
Kuwaitis and came from Iranians, two countries that fear 
Saddam, as that came from Egypt and came from Saudi Arabia.
    It is important to understand that there is a--a real 
problem that we are having in the region right now, and it is 
largely based, I think, on this question of the disconnect 
between the values we project and the policies we pursue as 
they apply to Arab people.
    Mr. Schrock. OK. Thank you.
    Ms. Zaharna. Could I reinforce Zogby? In terms of just the 
disconnect that he was just talking about, on the back page of 
the Washington Post, on the very back, it talks about the 
bill's language on Jerusalem as a break from U.S. policy, and 
we put that on the back, and it is very easy to miss. In Al 
Quds, it was not only the top one, and I didn't print it out in 
the color, but it was in red. So they took--this was a major 
issue. And we put it on the very, very back, and Jerusalem, 
which was, some have cited, in terms of starting the whole 
intifada the most recent one, one is on the back, and one is on 
the top, and in red, a big red headline.
    So just that reinforcing that disconnect.
    Mr. Schrock. Mr. Tierney.
    Mr. Tierney. Thank you. I thank all of you for your 
testimony.
    Let me allow you to play Secretary of State for a little 
while in that region, because I would like to hear from each of 
you, what do you think the most immediate things the United 
States could do in terms of its policy to change the dynamic in 
the Middle East? And you can start maybe with Dr. Zaharna and 
work from right to left.
    Mr. Brumberg. Well----
    Mr. Tierney. Or we could skip right over Dr. Zaharna and go 
to Dr. Brumberg, I guess.
    Mr. Brumberg. Playing Secretary of State here for just a 
moment, I think that what we could do, if we assume, which I 
think is a fairly good assumption, that some sort of action in 
Iraq is inevitable--how broad that is is not clear, but if some 
sort of an action is inevitable, I think the most important 
thing we need to do is make it clear that we are willing to 
invest as much political, economic capital in addressing the 
issue of Iraq as the future of the Palestinian-Israeli 
conflict, and to make that clear time and time again, and 
moreover, beyond words and deeds, by following up any action in 
Iraq with a concerted effort to bring about a solution to the 
Palestinian-Israeli problem.
    If these things are not clearly set out as goals, and if we 
don't act on them, I really think that any victory in Iraq will 
be short-lived. So if I were the Secretary of State, I would be 
working on step two, which is to address the Palestinian-
Israeli theater.
    Mr. Tierney. What step exactly would you be looking at in 
terms of showing or exhibiting that you are moving in that 
direction? If you are going to step two, to focus on the 
Palestinian-Israeli question, what overt act would you signal 
so that people would interpret that you were serious about 
that?
    Mr. Brumberg. I would push for real political reform in the 
Palestinian community as a prelude to final negotiations of the 
peace process. We have talked about values of democracy. The 
President has talked about a democratic Palestine, a 
Palestinian state, many times. What does that mean? I think 
that we have to link that to an active engagement in the peace 
process. This must be something that we are going to do in the 
wake of any action in Iraq, and it has to begin with serious 
discussions of real reforms in the Palestinian community; not 
just cosmetic reforms that are meant to divert attention from 
the peace process, but which are linked to the peace process.
    Mr. Telhami. I view the major threat that the United States 
faces today to be the threat of al Qaeda, and global terrorism 
connected to al Qaeda. If that is the case, then I think one 
has to address the priorities related to the Middle East from 
that perspective,and I think that perspective should include 
two aspects of that phenomenon. One aspect is, in fact, the 
organizers, the suppliers, the al Qaeda and its operatives, who 
have to be confronted, and the United States is doing that. But 
the second side is what I call the demand side. Why is it that 
these groups succeed in recruiting so many members, in playing 
to public opinion in the region, in raising funds?
    And that is really the issue, because if, in fact, there 
are motivated people, if there is a demand side out there to be 
recruited, then if you close one shop, including al Qaeda even 
in Afghanistan, then some other supplier is going to go out 
there trying to compete to meet that demand.
    And the real issue then is what is that demand side of 
terrorism that we have to address? And here I think there is no 
question in my mind that much of that demand is related to a 
collective sense of humiliation in the region, absence of hope, 
and in large part connected to a political order that is not 
promising, and the absence of a settlement of the Palestinian-
Israeli conflict. And to my mind, the best way to address that 
demand side is to make the pursuit of Arab-Israeli peace a 
priority in American foreign policy, and to work with 
governments, not only an American responsibility.
    Arab governments are going to have a lot of burden on their 
shoulders. They are going to have to change. We know the 
difficulty of not--one of the frustrations of the--in the 
region has to do with the failure of the promises of the 1990's 
after the Gulf War, and people are not going to live on hope of 
promise, they want to see results.
    And clearly the United States is going to have to find a 
way to work with these governments. I am of the opinion that 
while these governments have been part of the problem, they 
have to be part of the solution. We can't ignore them. We have 
to find a way that is mutually beneficiary to us and to them. 
Pressure them, yes; reassure them to reform, focus on the 
economy. They have a lot of interest and reasons why they must 
change for their own good, not just for us. Otherwise they are 
not going to be able to survive, they are not going to be able 
to meet the growing demand, the horrible economic conditions 
that they face, and, therefore, they have their own built-in 
incentives. But, to me, these two issues are much greater, 
much--potentially much greater threat to us than the immediate 
threat that Iraq possess.
    Mr. Tierney. Dr. Zaharna.
    Ms. Zaharna. Yes. What I would like for in terms of 
communication is a special envoy--I take it you are looking for 
something concrete--a special enjoy that would be of the 
stature to go over and work with the Palestinians on that 
problem. There has been a lot of focus on the Israeli side. The 
Palestinians are not getting their message out, and they are 
not thinking that they are heard. This would be a way to build 
the ties between the two.
    And we have done that with Sudan. And I think it would be a 
way, because the long term it is going to be building the 
relationship. And also we are looking toward--in terms of 
building with the Palestinians, and also in terms of educating 
the American public, and also the Palestinian public. We talk 
about educating the Palestinians about American ideas.
    I think also facilitating the Palestinians to put some of 
the burden that they have got to get their message here, they 
have got to be better at communicating with the Americans.
    Mr. Tierney. Thank you.
    Mr. James Zogby. Mr. Congressman, the President's vision is 
right, but no steps toward implementation. Markers were set, 
markers were missed, and nothing was done. Too much of the 
burden was placed on the party that is least capable of doing 
anything about it.
    I was involved with the peace process back during the last 
administration as well. I ran a project that was called 
Builders for Peace.
    Mr. Shays [presiding]. Could you just--you said too much 
burden was put on the party that----
    Mr. James Zogby. The Palestinians. I was going to explain 
that. The fact is I was involved in a project called Builders 
for Peace. We were to promote economic investment. This is 
before there was a Palestinian Authority actually in place. 
Impediments to investment were so severe, we could not get 
product in or product out, because Palestinians to this day 
never controlled ports, never controlled access and egress 
through Jordan or Egypt, and so the result is that it was a 
captive market that stayed under Israeli control.
    Jobs for Palestinians remain day labor jobs in Israel at 
very dirt-poor wages, and so even a year out, after the peace 
accords were signed, the Palestinian economy had already 
dropped below where it was during occupation. Palestinians were 
poorer after peace than they were during the period of 
occupation; less employed, less hopeful, lost more land. 
Settlement size almost doubled in the 8, 9 years after the 
peace accords were signed.
    We have to recognize that, and today, when people hold free 
elections, be democratic and develop a multiparty democracy--I 
guess they could have a multiparty democracy because they are 
living today in 52 little bantu stands where they can't 
communicate from one place to another. So I guess you could set 
a little party up in each place. But that is not what I think 
we need. If we want to help people become democratic, if we 
want to help institutions build, then we have to get the 
occupation off their back, plain and simple. We have to set 
markers and be serious about them and apply them both evenly.
    The compassion gap that I mentioned and the pressure gap 
has to be closed. We have to show the same compassion for 
Palestinian victims that we show for Israelis and apply the 
same pressure to Israel that we do to the Palestinians. The 
simple fact is that we haven't. Therefore, look, how many times 
have we talked about the humanitarian needs of the 
Palestinians? What has been done since March to help translate 
that committee to help the humanitarian concerns and make it 
real?
    This area is becoming like Somalia today. We are talking 
about bags of rice and corn meal to a people who have food. 
Food is being grown in the West Bank right now. They can't get 
it from market to town because of the curfew. That simply is 
unacceptable. People can't travel from the village outside of 
the city into the city to be able to shop because of the 
curfews that are closed down.
    So the--the simple fact is that if we are going to do it, 
we have got to do it and do it right. I think if we were to put 
pressure on Israel, real public pressure from the President of 
the United States that says, I said it, I mean it, and I want 
this to happen this way, it would foster very important 
discussion in Israel, and it would also force a very 
interesting discussion in the Arab world.
    We would actually create--we would be supporting those in 
Israel who want peace, because there is a very lively debate. 
There is a livelier debate in the Knesset than there is in this 
Congress. They talk about it much more seriously than we do. 
There are pros and cons debated every day. It doesn't happen 
here. And the fact is, is that if we did help foster that 
debate and provide the guarantees for security and said to the 
Israelis, as President Clinton used to say, you take the risk, 
we will back you up--but we let them go for a year and a half. 
More people died, people lost hope, and we lost the respect 
that we had in the region because of that.
    And so lay down markers, translate what we say into very 
real commitments that change the situation on the ground, give 
people hope, let them know that we are serious and real, and I 
think it would go a long way to improving our relationship with 
people in the region, and I think it would help foster a very 
lively and important and very productive debate on both sides 
of the line.
    Mr. Tierney. Thank you.
    Mr. John Zogby. Thank you, Mr. Congressman.
    First of all, God help us all if a pollster ever became 
Secretary of State, even for a day. But, since you asked, I 
have had the good fortune of sitting down with some of the 
public diplomacy people, particularly these who are working on 
communications strategy, and I am pleased with some of the 
efforts that they have made to build bridges to find common 
values and common messages that can be shared back and forth. 
But I recall in my one of my earlier conversations back in 
March or so, when we were talking about what is the No. 1 thing 
that can be done, I led with the notion that everyone here at 
the table has said, that the No. 1 issue among Arabs of all 
ages is Palestine. And they said, well, let's cast that aside 
for 1 second and move on to others. And I said, no, that can't 
be cast aside. That is premier; it is first and foremost in the 
minds of Arabs. It is the policy. It is the policy that 
alienates us from the Arab world.
    As a historian, I know that not some, but all of our 
greatest foreign policy successes have come through 
multilateral action and not alone. And so in that vein, I would 
say, let's not undermine the United Nations. Let's not 
undermine various multilateral agencies and efforts that we can 
work through.
    So in that sense, first of all, on the matter of Iraq, I 
don't believe that the American people who feel so insecure 
right now on so many other things want to go to war. And so 
instead, what I would suggest is that we move to censure, that 
we move to isolate, that we move to embarrass this barbaric 
regime, but that we not go to war, because that could just 
explode in so many ways.
    Mr. Tierney. If I can interrupt you. How do you do that, 
without getting back to the problem that we talked about 
earlier of people over there feeling that they are not being 
respected and treated with disdain if you single out one 
country and you start to do just that?
    Mr. John Zogby. I don't think you necessarily have to 
single out one country, because there are others that we can 
censure as well. But the President clearly has, you know, an 
obsession right now on Iraq. Then clearly the President ought 
not to do it alone and ought not to be talking about war at 
this point in time.
    And I say that from a domestic political standpoint. 
American people do not want to go to war. Let me just get off 
on that for 1 second. If you ask them about committing 
thousands of ground troops, hundreds of American casualties, 
thousand of American casualties, would you send your son or 
daughter to fight this war, support for this war goes down. It 
goes down dramatically. It is nowhere near a majority or a 
consensus.
    So very simply we have to deal with this regime in some 
way. I think that we can win support by bringing the rest of 
the world together with us, but not going to war. The same 
thing holds true, I think, on Palestine and Israel. Do not 
undermine the United Nations. The United States is viewed in 
the Arab world favorably, as Dr. Telhami has pointed out, as a 
traditional bastion of freedom, democracy, self-determination, 
and all of the ideals that they identify with and we identify 
with. However, when we are viewed then as just simply listening 
to the call of domestic political advantage and selfish 
interest, we lose that advantage in the Arab world and many 
other places.
    Mr. Tierney. Thank you.
    Mr. Shays. This is a great panel. Wonderful to hear your 
comments. I missed some of the opening statements, but I was 
fascinated by----
    Mr. James Zogby. We can repeat them again for you.
    Mr. Shays. I bet they would almost be identical.
    I want to ask a number of questions, but first let me ask 
you, Dr. Telhami, the Sadat Chair for Peace and Development, 
that is your chair. I was depressed when Sadat was killed, 
twice; first when he was murdered, assassinated, destroyed, 
obliterated, and second when I saw no grief in Egypt.
    I need to have you explain to me why the people in Egypt 
didn't grieve.
    Mr. Telhami. You know, Anwar Sadat was a great leader. 
Great leaders are people who go against people in the short 
term because they understand the strategic responsibility that 
they have. And, in fact, I have done a 20-year study of 
conflict and cooperation in the Middle East, and what is 
depressing about that 20 years, which is not different from 
other regions, by the way, is that despite the fact that when 
the parties are worse off the day after they engage in 
violence, they don't learn to stop it. In fact, the only thing 
that becomes normalized over time is revenge and tit for tat, 
and cooperation doesn't emerge, even though both sides are 
worse off.
    The only time they break out of that cycle is when you have 
bold leadership, and bold leadership is rare. Bold leadership 
in some ways is politically irrational in the short term, 
because you are going against your public opinion, and that is 
why it is so rare. And there are some people who have done it 
in the Middle East. Sadat was one of them. Rabin, to give him 
credit in Israel, also was one of them. Both of them ended up 
dead, killed by their own countrymen.
    And that actual depressing example takes me back to a 
question that was raised during the Camp David negotiations, 
when Carter brought Anwar Sadat and Menachem Begin to Camp 
David to negotiate. Anwar Sadat told Menachem Begin, there are 
some things that I cannot do. I cannot compromise on some 
issues because my public would not let me do that. And Menachem 
Begin snapped and said, what public? You are essentially a 
dictator. You can control your public opinion. You have your 
own television stations. You tell your people what to believe, 
and they believe. You, you told them that the Soviets were 
their friends before they believed you. Now you tell them that 
America is your friends, they believe you. So you can ignore 
your public opinion.
    Unfortunately, the reality was that Anwar Sadat could not 
simply ignore his public opinion, and his legacy remains. He 
paid with his life. But the truth of the matter is that the 
peace treaty remained. It survived despite the change in 
personalities. What he did had an enduring impact on the 
strategic relationship between Egypt and Israel that survives 
to this day.
    Now, in terms of his own popularity in Egypt, I think down 
the road in the 1990's, his popularity was regained when it 
looked like peace between Israel and Egypt and the rest of the 
Arab world was inevitable, when there was a promise of hope, 
there was a revival of Sadatism in Egypt. There were books 
written about his legacy and how people misinterpreted him.
    One of the men who now serves in prison, Egypt's Omar Abdel 
Rahman, was a critic of Sadat at the time, wrote a book saying, 
you were right, Mr. President, before. So ultimately, if the 
course takes you where it is supposed to, people come around 
and see that you were right.
    And, by the way, when he came back from Jerusalem on that 
remarkable visit, when he went to Jerusalem and broke the ice 
and created the change in the psychology and went back to 
Egypt, there were hundreds of thousands of Egyptians who 
welcomed him back home, despite all of the odds, that they 
trusted that the President was doing the right thing even if 
others opposed him.
    So it isn't exactly true that he didn't have much support, 
but clearly didn't have as pervasive a support as, for example, 
his predecessor Nasser, who inspired more hope, but didn't lead 
his people to peace.
    Mr. Shays. Thank you. That was a very interesting answer. 
And we allowed you to go a little longer, given that you are 
representing his chair. Very interesting answer.
    This document here, Dr. Zogby and Mr. Zogby, is it based 
upon the poll that was done in May?
    Mr. James Zogby. No. There are two separate studies.
    Mr. Shays. If I talk about the May study, does it somewhat 
correspond--do the statistics here still hold validity?
    Mr. James Zogby. They still hold.
    Mr. Shays. On 14. You said significant differences appear 
among groups and levels of Internet access and access to 
satellite TV. In every Arab country polled, the youngest groups 
of 18 to 29-year-olds age are substantially more positive to 
American products, people and values than the other age groups. 
Indeed, youth appears to be a factor as a negative--as 
negativity grows with age. The same holds true for those with 
satellite TV and Internet access in the Arab countries. Those 
with it are most positive toward American freedom and 
democracy, American movies and television, American-made 
products and American education.
    The same cannot be said for those polled in the non-Arab 
countries. Now, that fascinates me.
    Mr. James Zogby. It fascinated us.
    Mr. Shays. Because we have been told that the discontent 
with the United States is with the youth. Now, maybe it is 18 
and younger. And yet we have been told another thing, that TV 
has just devastated people's opinion of us. In fact, I am 
reminded of Shimon Peres' comment to us when we visited him 
recently. He said, television makes despotism impossible; it 
makes democracy intolerable. And yet you are saying that TV has 
actually--well, tell me the implications and tell me the 
opportunities.
    Mr. James Zogby. I referred to a concept in my remarks that 
you were not here for. I called it intellectualized prejudice. 
Basically it is using big words to be a bigot. The observation 
that you noted unfortunately is just that. It is taking an 
anecdote or taking what is a perception or even a biased 
observation.; it is generalizing it into some kind of high-
flown description of something that they want to see exist, 
that unfortunately for them doesn't exist in reality.
    The simple fact is, from all of our data in that poll and 
in the later poll that is in this book, What Arabs Think, shows 
that younger Arabs, and younger Arabs who watch satellite 
television, and younger Arabs who have Internet access, in fact 
like America better, like our values more, like our products 
more, and are more open to a number of aspects about who we are 
and what we offer.
    It also shows----
    Mr. Shays. That blows me away.
    Mr. James Zogby. It also shows that they are just as angry 
as those who are older and those who have no Internet access 
and no satellite TV access to our policy. That was another 
interesting observation that I think we found in that poll, is 
that when we compared satellite television watching with anger 
over policy toward Palestine, there was no difference. It was 
across the board.
    And so satellite television as a factor does not create 
anger. And you know it--I often thought that--remember, we had 
a Kerner Commission, because after urban riots in this country, 
the question was, what is going on? We need a Kerner Commission 
about anti-American violence in the Middle East, because I 
think we would learn a lot if we did a clear-headed, objective 
study of why we are in the situation that we are in right now. 
We would find some interesting things.
    I think our book goes some ways to helping understand that 
reality, but still more needs to be done. The fact is, is that 
back in the old days, it used to be said that there were 
outside agitators came in and stirred up trouble. No one ever 
accepted paternity. No one ever accepted responsibility for why 
people are upset. The Israelis didn't do anything wrong. It was 
those outsiders, those Islamists who came in. Well, where did 
they come from, and where did their message come from, and why 
does their message resonate?
    Mr. Shays. You are losing me. What is your bottom line?
    Mr. James Zogby. My bottom line is, is that there are 
indigenous causes to these problems that create--people are 
angry in the Arab world about Palestine because Palestine is 
something to get angry about it. If you watch it on television 
or don't watch it on television, you know about it, and you are 
angry about it. You are angry about the country America that is 
perceived by them as supporting the bad things that are 
happening to the Palestinian people.
    And so if we want to change the policy, don't look to the 
messenger, the TV that creates--that presents the message, look 
to the problem that is being created on the ground for why 
people are angry. They are angry about something very real. 
People are getting killed, people are getting hurt, and they 
don't like it, and they want to stop it.
    Mr. Shays. OK. Well, let me just be clear about one thing. 
I don't want my government to do a darn thing until the 
terrorism stops. And if terrorism is supposed to bring our 
government to do something, that would be the absolute opposite 
of what I think our response should be.
    So terrorism gets us to then make concessions and do 
things? That would be the exact opposite. And so for--I am 
hearing this message that somehow we need to put pressure on 
Israel, and I am--I am thinking of the kid's hand, not 
connected to the body, on the wall next to a bus that was blown 
out, and I am thinking--I have a hard time thinking that I want 
my government to enter this dialog, a big problem with that 
right now.
    Mr. James Zogby. Mr. Congressman, with all due respect, I 
understand that. I understand that. But understand that the 
perception on the other side, what they are seeing, the hand 
that they are seeing severed is the young Palestinian child. 
They are seeing the story as it----
    Mr. Shays. Explain to me, how does a parent justify 
accepting $25,000 because their child blew up innocent 
civilians? Tell me in the mindset, because that is like a big 
disconnect for me.
    Mr. James Zogby. It is a huge disconnect for all of us.
    Mr. Shays. It would be a shame for me to think that my 
child had done that, no matter how oppressive our environment.
    Mr. James Zogby. If you want an answer, I would be happy to 
try to help you with that.
    Mr. Shays. I want a short one.
    Mr. James Zogby. I will tell you. If you begin with the 
assumption, and I hope that you would agree with me on this, 
that they are people like us, something terrible has happened 
in that culture that has created this problem, that has fed 
this problem, and that today leads to the conclusion you point 
to, the profound alienation and the profound disconnect with 
what we view and why they in their heart of hearts view as 
normal.
    What makes a kid make his parents proud? He brings home a 
wife, and he has grandchildren, and he gets a job.
    Mr. Shays. Hold on 1 second, because you are not going to 
be responsive. My response to that, and then you can answer, is 
that it is a cultural difference, that it is a religious 
difference that makes people view the world differently, and it 
is not just hard economic times, with all due respect, or 
oppression.
    Mr. James Zogby. Congressman, if they had--if a young 
person had a job and the hope of a job, if he had the hope of a 
future and the opportunity to do what every normal person in 
the world wants to do, including them, which is bring home 
kids, and food to put on the table for those kids, and provide 
a future for his family, which is what our polling shows they 
want for themselves, he would do it. But absent a job, when you 
have 70 percent unemployment, and it has been sustained over a 
long period of time, and you are a young person with no job and 
no prospect of a job, therefore no prospect of a family and no 
prospect of children, what you do--what happens and what has 
happened in that situation is that evil people with an evil 
ideology which says to them, you want to make your parents 
proud and make your people proud and be somebody, you can kill 
yourself and take some people with you--there is a cult of 
suicide that has developed out of this despair, and if we do 
not address the root causes and make radical transformation on 
the ground that opens up opportunities of hope and can change 
the very lives people live, we will be seeing the consequences 
of this for years to come.
    Mr. Shays. I think we have seen the consequences for a long 
time. One of my senses is that we have seen the consequences 
because we haven't stood up, and we have made terrorists almost 
seem like they have a sacred cause. And so my----
    Mr. James Zogby. Far from it.
    Mr. Shays. That is my view.
    Mr. James Zogby. I would not agree that they do. They do 
not. But we have to--as the Kerner Commission tried to find the 
root causes, we have to do the same.
    Mr. Shays. Doctor, I am going let everyone on this panel 
have plenty of time to speak. I just want to explain that to 
you. I am going to let you have as much time. We are told that 
we have to be out of here at 3 o'clock. We are just going to 
move. We will go somewhere else if we are kicked out of this 
room, because we are not going to stop until we all have an 
opportunity to make some points.
    Doctor, did you want to make a point?
    Ms. Zaharna. I don't want to justify terrorism. What I want 
to do is it seems like it is Palestinians and not Palestinian-
American we are always trying to talk through the prism of this 
conflict. And as we see with the prism of the conflict, and 
there is a balance between what the Israelis are saying and 
then what we are saying.
    And what I would hope in some of the dialogs or some of--
when we say the listening is just to call a blank slate, that 
Palestinians can be heard just on the Palestinian flat base.
    And I know that you have said that you visited Israel, and 
have you had the chance to visit the camps?
    Mr. Shays. No, I haven't. I am scheduled to do that after--
some time, let me just say. I am scheduled to do that. But what 
I am wrestling with is--is the concept that terrorists should 
lead us to interact with terrorists. So we interact with some 
terrorists, and we don't interact with other terrorists. I have 
a rough time understanding why we would have a dialog with 
terrorists.
    Ms. Zaharna. Not all Palestinians are terrorists.
    Mr. Shays. No. That is true. But until the terrorism stops, 
and the terrorists they support stop, how do we justify? Walk 
me through that.
    Ms. Zaharna. I want to say that they have been calling the 
violence--the U.S. policy was negotiating. Whenever there was 
tension in the region, the United States moved to negotiations. 
And this time when it started in September 2000, this was one 
of the first times that United States, instead of--when 
tensions mounted, the United States stopped and said, we will 
not negotiate under violence. And previously, whenever there 
was tension or violence, that was the first thing that the 
United States did was to move in, try to calm down the 
situation.
    Mr. Shays. Maybe that was a mistake, because the lesson was 
if you do violent acts, then we are going to negotiate. I don't 
get that.
    Tell me about the Middle East. If I were trying to impact, 
from a Palestinian standpoint, tell me why civil disobedience 
would not be more oppressive and result in the--I just don't 
understand.
    Ms. Zaharna. I would like to come back, but I will give it 
to Dr. Telhami.
    Mr. Telhami. I think that I wished that it was used. I 
think it would be more effective, personally. I think that 
would have been the course to go. Unfortunately it wasn't. I 
think the President takes a very important and correct position 
in rejecting terrorism for any reason, by any group. I think 
the killing of civilians is unacceptable for any cause, even 
legitimate causes. I think that is the correct moral position 
to take.
    I think the issue is not whether it is the right moral 
position to take. It is a question of how do we make it less 
likely to take place.
    I mean, how do we reduce the occurrence of terrorism? We 
have a problem. We all agree that we need to reduce it. And the 
question is how do we make it work. How do we do it? And we 
have to keep in mind two things that we cannot ignore. One is 
that the trouble is not just that we have people who are 
willing to commit terror. That's bad enough. But there are 
people who also support it. Even those who are not willing to 
do it themselves. And if you look among the Palestinians, there 
is a lot of support for it. And that's disturbing.
    But when we look at how both Israeli and Palestine 
attitudes are on issues that are immoral, you find that after 
the collapse of hope with negotiations, more Palestinians 
supported terrorism than before, and more Israelis, almost half 
have come to support an option of expelling all Palestinians 
from their homes. That is disturbing. But it's a reality. And 
that reality doesn't mean that all those--those Israelis are 
all awful people. They are, their hearts are hardened by the 
fear of the daily realities.
    When an Israeli is afraid to send their kid to school 
because they're afraid they're going to be blown up by a bomb, 
it hardens your heart. And when a Palestinian lives under 24 
hour curfews and their kid's blown up in some bombing, it 
hardens your heart. It's a reality. It's unfortunate it's 
depressing, but it's a reality. We can't ignore that. That 
makes terrorism more likely. It makes violence more likely. 
Good people turn into bad people.
    People are always divided, and we have to understand that 
historically, and we have to, therefore, address that. We have 
to address how we win the hearts, how we sway people from going 
bad instead, and make them go good. That's an issue that we 
have to address. And frankly, terrorism is not an ideology or a 
political coalition like communism. It is an immoral 
instrument. It is an immoral means used by different groups for 
different ends. We should delegitimize it. In order to defeat 
it, you must delegitimize it. You can't destroy it by just 
killing some people or destroying some groups or closing some 
shops. You have to render it illegitimate.
    Societies that condone it, societies that accept it have to 
agree that it's an illegitimate means. But you cannot establish 
legitimacy and illegitimacy alone. And you can't do it without 
getting a dialog with the societies, without having a moral 
say. It is a moral position. It's not really a practical 
position. It's a moral position that we take.
    Mr. Shays. May I say something? You're somewhat repeating 
yourself and I want others to be able to answer as well. I 
mean, you've made your point. Is there a new point you want to 
make?
    Mr. Telhami. Yes. And the point is that because it is a 
moral position to take, it is very important for us to be 
consistent. And we should consistently condemn Palestinian 
terrorism as unacceptable. But we should also condemn when 
there are Palestinian victims. We have to because this is a 
moral position that we must take. And therefore----
    Mr. Shays. Let me ask you though, when a terrorist goes 
into a civilian's home, a Palestinian terrorist goes into a 
civilian home and shoots from that home and there are civilians 
there are the Israelis to fire back or just simply take the 
shots.
    Mr. Telhami. No, I think there is a difference between 
deliberate attack and nondeliberate attack, absolutely.
    Mr. Shays. Let me--let the others respond and we will come 
back to you, Doctor. Excuse me. Both doctors.
    Mr. John Zogby. I wanted to go back to the original 
question that you asked Mr. Chairman, and that was in the poll 
the finding about the 18 to 29-year-olds. Frankly, that was 
contrary to every myth that I was led to believe and it was 
mind-shattering. I think the question becomes how do we reach 
them, or maybe more importantly, how do we insure that we don't 
lose them. And what they told us, they told us, I think pretty 
loud and clear, that they want to see us for what we always 
were, American science and technology, American freedom and 
democracy, American movies and television, all of the things 
that we represent, not American policy.
    But the response that is heard is the well, we're not going 
to do anything else but dig in. We're going to hold fast to 
where we are. We're not going to change. We're not going to 
respond to this, we're not going to respond to that. We are 
going to be what we are. I just suggest to you that's the very 
kind of language that risks losing this group of people. And I 
don't want to lose them.
    Mr. Shays. I know what you just said. But not going to 
change what? No, we're not going to change a policy that says 
terrorism cannot be accepted. Terrorism cannot be negotiated 
with. If you're saying that is a consistent policy that is 
frustrating to people, it's not frustrating to me.
    Mr. John Zogby. No. American one-sided support for Israel 
is the problem.
    Mr. Shays. Yeah. I remember years ago wrestling with the 
fact that when Israelis wanted to help take the Palestinians 
out of the camps so they could live better and build homes, 
they were condemned by the U.N. because the U.N. wanted to keep 
them in the camps. I will never ever forget that because it was 
clear that they were left there to be a sore to be dealt with. 
And we know the one thing that will never happen, the one thing 
you're not going to have the right of return, and that's the 
one thing that Arafat didn't agree to. He had everything he 
could possibly have wanted except the right of return. If right 
of return is the basis you will never have peace.
    How can Israel, a democracy, allow for right of return? It 
won't happen. You wanted to make comments?
    Mr. Brumberg. I just wanted to add a few points. I don't 
think we want to get into a debate about the roots of the 
Palestinian-Israeli conflict here. But I do believe it's 
important to keep in mind that the vast majority of 
Palestinians in the West Bank and Gaza polling consistently 
shows this, support a two-state solution. Even the vast 
majority on the West Bank and Gaza support a two-state 
solution. Polling show us that Hamas and Islamic Jihad get 15 
to 20 percent. That's been consistent.
    Now, even with those polls, the same polling results show 
us that the longer, and the less possible a peace process 
becomes, the more support goes for violence, and that's a very 
unfortunate phenomenon. But that's not contradictory. Now, the 
real question is what to do with the Palestinian leadership, 
because the Palestinian leadership made a critical error in 
deciding that for one reason or the other, it could play that 
card, that it would ignore or downplay its implicit alliance 
with Hamas.
    This was a terrific mistake. We now know that. There has to 
be a serious political reform. But the real question is what is 
the purpose of political reform. When our administration and 
the Israelis talk about political reform, when they insist on 
cracking down on terrorism, when they insist on reforming the 
security apparatus and the Palestinian authority, What is the 
purpose behind that? If the purpose is linked to the clear way 
to the peace process, whose end goal is a two-state solution, I 
think we can manage the issue of terrorism and decrease support 
for terrorism. We have to be articulate, clear and we have to 
act on our goals.
    Mr. Shays. Anybody want to make a comment? Anybody on this 
comment?
    Mr. Telhami. Well, just on the issue of the right of 
return, I think you're absolutely right, Congressman. I think 
that obviously, you know, the whole notion of a two-state 
solution is that you would have this solution based on two 
states reflecting nationalist movements, and Israel would have 
to be a state that is a Jewish state with a Jewish majority, 
and that means that every single solution including that, the 
solution to refugee problem has to be compatible with that. And 
I think most people who have looked at this issue understand 
that.
    And I think personally, when that sort of solution is on 
the table, that brings both a robust Palestinian state and a 
robust Israel with a Jewish majority is put on the table. I 
think that the public in both places would support such a 
solution.
    Mr. James Zogby. Mr. Congressman, can I leap in?
    Mr. Shays. Yeah, definitely. Yeah.
    Mr. James Zogby. Uhm, I heard you well. And I heard your--
--
    Mr. Shays. Excuse me 1 second, please. I'm sorry.
    Mr. James Zogby. I heard you well, and I heard your 
disbelief at that being a Palestinian concern, the right to 
return that is.
    Mr. Shays. No, I mean--I know--excuse me. I know it's a 
very real concern.
    Mr. James Zogby. Let me just talk to you a minute. The 
conversation we might better have in confidence, but let's just 
do it anyway because you raised it.
    Mr. Shays. No. Let me just make this point. It's important 
you let me know, it is a concern and I have explained to you 
that in my judgment, it will never happen.
    Mr. James Zogby. Yeah.
    Mr. Shays. So, should we give up? Don't try to convince me 
this should happen because it won't happen.
    Mr. James Zogby. I'm not going to try to convince you 
anything, other than to understand that in acknowledging that, 
you're dealing with real people with real human needs and real 
human concerns, every bit as real as the concerns of Jews, 
every bit as real as the concerns of Congressman Shays. These 
are people with homes. I spent time with them in the camps in 
Lebanon when I was doing my dissertation research in the 
1970's; old ladies still wearing the key around their neck, 
having photo albums of the House that they had in 1948 and 
pointing to where the grandfather was buried. And then a 
picture that was taken just a few years earlier by a Swiss 
journalist who'd gone there and showed that the House changed.
    So my point is you want to deal with how we communicate. 
Understand that when you communicate with them, if you don't 
recognize from the get-go that the hurts they have are real, 
just like the hurts that American Jews and Jews who escaped 
Nazi Germany had are real. Not the same. Don't go somebody 
writing there an article about Zogby created a parallel between 
whatever. I'm not.
    What I am saying is that real people with real hurts need 
to have those hurts understood if you're going to communicate 
to them. What we have done is we have shown excessive 
compassion to the Israeli side, and no compassion to the Arab 
side.
    You asked why the President's speech doesn't resonate. 
That's one of the reasons why it doesn't resonate. Because in 
our political discourse and in our rhetoric, that legislation 
she held up about Jerusalem, I mean, honest to God, the 
Congress that passed that bill could be charged with criminal 
negligence for putting lives at risk because what we said to 
them is we don't give a damn how you feel, and as a result of 
that, we put American lives and interests at risk because these 
are real people with real fears and concerns and they say you 
don't care about us and how we feel.
    That's the problem, and that's the point. Want to change 
the discourse? Change the feeling of how you feel about them. 
We wrote the book what Arabs think for one reason to try to 
have people here understand in this country these are real 
people. They go to bed at night worried about their kids, wake 
up in the morning thinking about their jobs and fear what is 
happening to them and what we're doing. They want to like us. 
They're afraid that our politics stands in the way of us 
dealing with them as real people.
    Mr. Shays. Thank you for your patience.
    Mr. Tierney. I think the questions and the answers have 
been great. But it brings us to a point. I would agree with you 
that the politics in this country around that issue are just 
abominable, and I think that probably one of the most 
disastrous foreign relations things that's happened in some 
time has been the 18 months of total abject just avoidance of 
the--or disdain for dealing with the middle eastern situation I 
think that just exacerbated everything to appoint now where 
we're in very, very difficult straits. So my question is this 
to anybody that wants to address it.
    Can the United States still be seen as a fair arbiter in 
that situation, or has it gone in your opinions, beyond that 
point where people would trust them to be a mediator or 
arbitrator and try to come to some resolve. And if not the 
United States, then who and what role would the United States 
play.
    Mr. John Zogby. Mr. Congressman, they love our freedom and 
democracy. They love our science and technology. They love our 
movies and culture. They love our people. They hate our policy. 
I mean, I can't be more clear than to say, of course, we can be 
an honest broker. They like us. They're disappointed by us. I--
let me just repeat this mantra.
    Mr. Shays. So if I hear what you're saying, they would 
trust a sudden change in course and see that as being real as 
opposed to being disingenuous.
    Mr. John Zogby. There's a reservoir of goodwill, and I'm 
afraid that if we poison that reservoir of goodwill, we're 
going to lose these 18 to 29-year-olds. I don't want to lose 
them, period.
    Mr. James Zogby. Shibley is right. You never reward 
terrorism, but what you try to do is dry up the swamp where 
it's created, and not simply feed it so that it becomes more 
infested. What John just said, listen and listen well. 
Everything we do is directed at making the situation more 
intolerable instead of making it less intolerable. It's not 
surrendering to terrorism. It is strengthening our friends and 
our allies.
    It's building a broader coalition. It's making America 
stronger and more respected. It's making our people more 
secure. It's making the Middle East more receptive and 
responsive to our values and who we are. It's making the world 
a better place for America to operate in. And I want our values 
projected. But as it stands right now, if our values are the 
barrel of a gun, those are the values being projected. I don't 
think that's the message we want to be sending.
    And if it's either our gun or the Israeli's gun, that's how 
people are looking at us. We can win this war. But we win this 
war by being the best that we can be and projecting the best 
that we want the world to see us as we want ourselves to be 
seen in the region rather, and that will only come when our 
policies correspond to our values, the values that they respect 
in the region, but they just don't see being available to them. 
The minute we change course and say a different thing to them, 
they will respond almost immediately because that's how much 
they want to hear different from us.
    Mr. Telhami. Congressman, if I may, I think that when you 
look at public attitudes and also elite attitudes toward 
American policy, and we think about what is it that we could 
change that would make them trust us, I don't think it's their 
abandonment of the commitment to Israel.
    I think most people in the Arab world actually understand 
that the U.S.-Israeli relationship is special. And it's not 
going to change. And there is an American commitment to the 
security and survival of the state of Israel. And I don't think 
that ultimately is any longer a barrier to a relationship 
between the United States, and the Arab world, the commitment 
to Israel.
    I think people have accepted that. I think the real issue 
is whether we have that plus a projection of caring for their 
problem in a way that would bring about an end to that conflict 
between them. And the reality is that the Arab-Israeli conflict 
has been an obstacle to American policy in the Middle East. 
We've understand that, that there is the commitment to Israel 
on the one hand, and our interest in the Arab world on the 
other means that whenever there is tension between the two, 
we're in trouble. And there is no avoiding that. And that's why 
it's become an axiom of American policy since the mid 1970's.
    It is in our interest, and our vital interest to bring 
about Arab-Israeli peace. And we have--we can't ignore the 
issue because we're not bystanders. We can't say we forget it 
because we are involved. We are involved because by virtue of 
being committed to Israel, it means that whenever there is a 
need, we will be there including at the United Nations, 
including vetoing U.N. resolutions, including going against 
members of the Security Council. But when Israel is on the top 
and the Arabs are paying the price as it happens in the 
Palestinian areas, then we're going to be blamed for supporting 
Israel.
    The only way to reduce that tension is for us to bring 
about a robust Arab-Israeli peace, not to abandon Israel but to 
bring about Arab-Israeli peace. That's why I think you find a 
lot more resentment where there is disengagement. You find a 
lot more support where there is engagement. In the 1990's, you 
heard grumblings of bias in American foreign policy. They never 
stopped.
    There's always accusation of bias even when the United 
States is actually liked and people wanted to be involved 
despite these accusations of bias. But in the 1990's, people 
believed that the United States really was in the process of 
bringing about Arab-Israeli peace. It was coming to an end. And 
they were willing to put aside a lot of differences, including 
on Iraq. Iraq policy, even in the 1990's, wasn't especially 
popular in the Arab world even though it wasn't a war policy. 
Sanctions were never popular in the Arab world. But the tension 
and resentment were highly reduced and put aside because there 
was a sense that we're finally on a train that is first going 
to bring about Arab-Israeli peace, and then we're going to 
address a lot of other issues. We don't have that now.
    Ms. Zaharna. I want to say that I'm one of the few that 
vacations in Gaza Strip, and I happened to be there when the F-
16s were dropping bombs. And I wanted to say in terms of what 
Mr. Zogby was saying in terms of the poll, there is hardening 
of the heart, or you feel you have nothing to lose, but at the 
next moment, there is a tremendous love of the American people, 
the American ideals, the American model, the American 
technology that can do spirit, or if you don't have grace, you 
make it, the hard-working so there's a tremendous love of that 
which makes the pain double.
    One, it's American weapons destroying and two, what 
happened to American values? The one thing I'm loving the 
American people, I'm loving all of this. And then I'm getting 
this great disappointment and frustration. And so that's the 
disconnect between the policy and I think, I mean, it's not--
from our perspective, if somebody bombed me, I'd be upset and 
that would be it for life. But there is such a reservoir, an 
admiration that where there is a hardening of hearts one way, 
there's also an openness another way.
    Mr. Brumberg. Congressman, I want to add one point here, 
and that is that if the United States uses the political 
capital now in the way that the Clinton administration did, it 
will recoup a lot of the lost hope in the United States that 
we've talked about today. This is not a--this is far from a 
lost cause, and there's an enormous opportunity for President 
Bush there before him, particularly if he is able to prevail 
and if he does pursue a war on Iraq and he is able to prevail. 
He could potentially have enormous political capital.
    We began to reshape the Middle East after the first Gulf 
War. Shibley spoke about this. And the question is are we 
prepared to do that? And are we ready to use the political 
capital to do that. And that is really the question. It is not 
too late to pursue an initiative.
    Mr. Tierney. I want to thank all the members of the panel. 
You've been very interesting and enlightening and I think it's 
been a great exchange. Thank you, Mr. Chairman, for bringing 
them here today.
    Mr. Shays. Thank you. Let me just followup on that 
question. Who do we speak with? Who does the administration 
speak to in the Palestinian community? There is dialog. As you 
know, Israelis are meeting with people privately, I mean, this 
concept that there isn't dialog is a little crazy. It's not 
public dialog, and every one of you up there knows it, I think. 
There is dialog between the Israelis and Palestinians. There is 
dialog between the United States and Palestinians. We don't 
know who we have a public dialog with. Who is that public 
dialog with?
    Mr. James Zogby. Yasser Arafat.
    Mr. Shays. OK. This is the man when I was there that had 
ordered the weapons from Iran. And he doesn't fit your 
description of a terrorist?
    Mr. James Zogby. Mr. Congressman, look, we can have this 
discussion, but I'll tell you----
    Mr. Shays. Does he fit your description of a terrorist?
    Mr. James Zogby. He fits my description of the person who 
is the president of the Palestinian Authority.
    Mr. Shays. Does he fit your description of a terrorist?
    Mr. James Zogby. A person who has made some mistakes, real 
mistakes in how he's conducted himself in that capacity but is 
viewed by the Palestinians, is viewed in the rest of the Arab 
world as having a legitimacy that we dare not deny, just as 
when we recognize Ariel Sharon as the elected leader of Israel 
and deal with him, despite the fact that Arabs have a very 
different view of him.
    You don't get to pick who your enemies are and you don't 
get to pick who you deal with to make peace.
    Mr. Shays. So elected terrorists we deal with. Unelected 
terrorists we don't.
    Mr. James Zogby. Well, you know, I would have said that 
Palestinians have used terrorism and I've condemned it. And I, 
like Shibley, I wrote an article a while back on nonviolence, 
and I think it would be very important for the Palestinians 
give up this stupid weapon because it is demeaning to them, but 
also deadly to Israelis.
    Mr. Shays. Dr. Zogby, all I'm asking is this question.
    Mr. James Zogby. Right. Talk to Yasser Arafat.
    Mr. Shays. You don't think this is a sincere question 
obviously.
    Mr. James Zogby. I do.
    Mr. Shays. The sincere question is, I have a problem of 
understanding if we talk to terrorists or we don't. And I guess 
what I want to know and the answer is yes. If they're they're 
an elected terrorist, we talk to them. If they're not elected, 
we don't.
    Mr. James Zogby. No. That's not the--but that's not the way 
you define the equation. The way you define the equation is do 
you want peace between Israelis and Palestinians. And if you 
want peace between Israelis and Palestinians, you return to the 
process as it was but apply a more significant kind of pressure 
to bring about a conclusion.
    I believe if President Clinton had put on the table the 
offer he made in the last 3 weeks a year out and sold it to 
both sides, we wouldn't be doing what we're doing right now. I 
also believe if President Bush had picked up on it and followed 
through with it, we would not be where we are right now. But 
all the people we're talking to, are people who wouldn't stand 
for 5 minutes if Yasser Arafat pulled the rug out from under 
them. He's not the person who stands in the way of us dealing 
with moderates. He's the person who stands between us and 
extremists who want him dead as much as they want the peace 
process dead.
    And don't forget. There is an infrastructure there, not of 
terror, but of civil society that the Israelis have spent the 
last 18 months destroying. They didn't bomb Hamas headquarters. 
They bombed the Palestinian police stations. They bombed 
prisons. They bombed checkpoints where Palestinians were 
operating. They destroyed the physical infrastructure of the 
authority and then looted the ministries in April and May, and 
don't forget, the purpose of it was to make certain that the 
Palestinian Authority did not survive, so that we'd be back to 
ground zero.
    Mr. Shays. The sad thing is that Israel decided to give 
back land to the Palestinians under the basis that their 
elected leader, Arafat would use his security forces and make 
sure that terrorists did not operate out of them. Instead he 
took money that he got and bought terrorist weapons and didn't 
do what he had committed to do and left no choice, but the 
Israelis to go back and get those terrorists. That's the sad 
reality. But we're not going to get beyond, I guess, this 
point. The answer that you gave me though, is Arafat is a 
terrorist, but we need to talk to him because he's elected.
    Mr. James Zogby. That's not the answer I gave you.
    Mr. Shays. Well I mis--he is a terrorist, or he isn't a 
terrorist?
    Mr. James Zogby. No, I don't consider Yasser Arafat a 
terrorist. And I can see the stories in the hate press tomorrow 
because we've got it here too, you know.
    Mr. Shays. No, because they might be deserved. Because when 
I was in Israel and the information I have seen, both 
classified and unclassified, leaves no question whatsoever that 
all the weaponry ordered from Iran was paid for by the 
Palestinians, ordered by Arafat.
    Mr. James Zogby. It was really stupid.
    Mr. Shays. No, stupid is a dumb thing to say. No, that's 
what's stupid.
    Mr. James Zogby. It's interesting. I wrote an article at 
the time called Stupidity and Chutzpah. It was stupidity for 
the Palestinians to have ordered it. It was chutzpah for the 
Israel to have displayed it as they did when what they didn't 
lay out for us were not these stupid guns that the Palestinians 
ordered but were the F-16s, the Apache helicopter gunships and 
the tanks that are far more lethal and have been used with far 
greater lethality than anything that the Palestinians have 
done.
    You're right. You're absolutely right. They should have 
pursued non violence and they still should pursue non violence. 
But remember that the number of Palestinians killed, civilians 
and children, far exceeds anything that the Israelis have 
suffered. Do not judge this by one standard alone. Look at it 
in terms of the totality and if an America wants to win, then 
what we have to do is view both sides with the same degree of 
compassion. If you look at one side with compassion and the 
other side only as a side--no, I know. Rush it and hurry it up 
and get it over with. But you are wrong, Congressman.
    Mr. Shays. No, Dr. Zogby, no I'm trying to be very 
respectful.
    Mr. James Zogby. Thank you.
    Mr. Shays. But your answers continue to go on and on and 
you're just being repetitious, and so that's why I'm 
interrupting you.
    Mr. James Zogby. Sometimes repetition is the mother of 
learning. But I tried. I've failed. I'm sorry. Thank you.
    Mr. Shays. No. The challenge for some of us is that we 
happen to believe that when you negotiate with terrorists, 
you're doing the exact opposite of what you should do. Let me 
ask you this: Why is it hard for democracy to grab hold on the 
Middle East?
    Mr. James Zogby. It is actually beginning to develop----
    Mr. Shays. Let me ask some other folks, then you will be 
able to----
    Mr. James Zogby. Sure.
    Mr. Shays. Dr. Brumberg.
    Mr. Brumberg. This is an enormously complicated and 
interesting question you've raised. Paradoxically most regimes 
in the Arab world are not despotic. What they've done is used a 
level of political liberalization and openness to really stave 
off democratization. So they're very adept at maintaining a 
kind of liberalized autocracy that proves very useful, and in 
so doing they have fragmented their oppositions and created a 
durable sort of autocracy that can only be dismantled through a 
long-term process that has to begin not simply from below but 
also from above.
    And certainly, in terms of U.S. aid programs and the kinds 
of programs we have directed to the Arab world in the last 10 
years, some of which I'm quite familiar with, most of our aid 
programs have been devoted to tinkering with these systems, but 
not getting at the core of the autocracy and how it functions. 
In many respects the United States has been quite happy to live 
with that kind of liberalized autocracy. Many of our allies in 
the Arab world, Egypt, Morocco, Jordan, maintain those sorts of 
systems.
    So one of the answers is that we have to begin to look at 
the whole foundation of that system and how it can be changed 
over time, and whether we're willing to indulge in the kinds of 
pressure and encouragement, carrot and stick that would be 
required to change those systems. There's a lot of rhetoric now 
from the administration about the idea of democracy. There's a 
rhetoric which suggests that once we prevail in Iraq we'll go 
on elsewhere to promote democracy. I find that intriguing, but 
I'm not sure we're actually committed to it. But if we are, 
it's going to bring us back to this issue of how to do it in 
Palestine.
    And on this question, I have to say that I differ somewhat 
with our colleagues at this table. I do think that in many 
respects, Arafat is a spent force. He's made some critical 
errors, and I think the debate in the Palestinian community is 
most important because there he's viewed as somebody--finally a 
debate has emerged--he's viewed as somebody who's made a lot of 
critical errors and there's talk about new leadership. And we 
do have to nurture that. That doesn't mean by the way that 
Arafat will be irrelevant to the process. But he probably will 
never have the pivotal role he might have had once.
    So if we're talking about democratization and we're talking 
about political change, is the United States willing to 
encourage it or not? In Palestine and elsewhere? It's a central 
question.
    Mr. Shays. Doctor Zaharna.
    Ms. Zaharna. Why is democracy not----
    Mr. Shays. Why doesn't democracy grab hold in the Middle 
East? What is there about the culture and the people and so on 
where democracy just doesn't seem to be something they strive 
for and work for?
    Ms. Zaharna. I've studied the culture but I don't know that 
it's inherent in the culture. And in terms of specifics, there 
was during the first intifada in 1987, there was a lot of what 
the United States would call civil society.
    Mr. Shays. I'm not just talking just in Palestine. I'm 
talking about throughout the Middle East. I don't count many 
democratic governments and I'm just asking why and it helps me 
understand how we interact and how we're viewed. I'm just 
curious as to why you feel there are so few nations in this 
area throughout the world where democracies have bloomed forth. 
Why don't they bloom forth in the Middle East? And why is that 
a hard question? There must be a reason.
    Mr. Telhami. I can take that.
    Mr. Shays. I want you to tell me. Why don't you think 
that's happening?
    Ms. Zaharna. I want to give a technical answer in terms of 
in-groups and out-groups and cultural analysis. But the fact is 
that there was and we haven't nurtured it. We've squashed it.
    Mr. Shays. OK.
    Mr. Telhami. Congressman, I think it has been a very 
unfortunate and frustrating reality in the Middle East that 
democracy has not flourished as much as it should have and as 
much as the people deserve. I mean, I think that one of the 
depressing issues pertaining to the reality in the Middle East 
is that we have authoritarian governments that have made life 
difficult for their own people, much more than for us frankly. 
I mean, it is--the people deserve more. I think if you look at 
this in terms of our--I'm a political scientist, and when we 
look at how change occurs and when does it occur, you find that 
when you start on a path, it is very difficult to break away 
from it.
    The path was begun unfortunately, after the colonial era of 
governments being installed. There were authoritarian 
governments. And when governments are in power, they don't give 
it up very easily. It's very, very hard to deviate from that. 
There is a cultural issue. It's not a Middle Eastern cultural 
issue per such, but a traditional cultural issue. The Middle 
East also is not an industrialized--if you look at the--if you 
look at how democracy took place in Europe and the western 
world, it was really followed a change economically, mostly 
through industrialization, the role of the individual, the 
emergence of individualism.
    All of that certainly is not the case economically in the 
Middle East. I think the economy and politics go hand in hand, 
and frankly they need to change the economic system before they 
even change the political system. I think they go hand in hand.
    Mr. Shays. There's the general view that as a society tries 
to compete economically, not in terms of selling oil, just 
taking something out of the ground, but tries to compete 
economically it has to educate its people. It has to create a 
sense of freedom and so on. And is it likely that part of the 
reason why we're seeing a religious schools, folks in that way 
as away to try to avoid that potential----
    Mr. Telhami. Well, Congressman, I think that there is no 
question that they need to change the educational system and 
the economic system. And many of them understand that and there 
has been some change at various stages, a debate that's been 
going on. And I think that's the area where, in fact, we can be 
helpful because it is in their interest. They've come to 
understand that it's a problem for them. These governments 
understand that the economy is a disaster. The unemployment and 
the pressure from the public, the growing population are going 
to bring them down anyway. And so they want a change. They need 
to change.
    That's an area where our--we have common interest with 
them. We can work with them to change, and then bring along 
political change. But I want to say that even on this issue, we 
shouldn't underestimate the role of foreign policy in 
perpetuating repression. Let me give you an example of that. I 
think when you look over the past couple of decades, when we 
have a choice like we have had in 1991 or a choice that we've 
had like as we do now, pertaining to Iraq, or a choice that we 
have pertaining to the Arab-Israeli conflict, when we ask 
governments to do things that are not popular, and we always 
do, for a variety of reasons that we've discussed. They can 
only do it in one way. They can only do it in one way and that 
is by resisting the public. And in order for them to deal with 
the--their incompetence and inability to deliver the aspiration 
of the public pertaining for example to the Palestinian-Israeli 
issue, which has been humiliating to the people, they can't do 
anything about it, and the governments aren't doing a thing 
about it, either good or bad.
    They are not doing anything about it. And that obviously, 
we want them to support us in our policy. We certainly want to 
discourage them from going to war. And in that regard, we 
overlook the fact that they have to be repressive. And if you 
think about the sort of challenge that these states face today, 
vis-a-vis the public, they're going to have to unleash the 
security services for the next many months in the hundreds of 
thousands to be able to make sure that demonstrators don't 
overthrow them, to make sure that university demonstrations 
aren't going to pour into the streets.
    To make sure that nobody is plotting and so forth. And that 
obviously, is--you can only do it through repression. So we 
have to deal--we have to understand there's a connectedness 
between the foreign policies issues and the perpetuation of 
repression that we have to overcome.
    Mr. Shays. So you're clearly not saying that--how many 
countries in the Arab world are there and how many are 
democratic?
    Mr. Telhami. There are----
    Mr. Shays. 22 countries.
    Mr. Telhami. There are varying degrees, varying degrees of 
political liberty across the Arab world but there is no western 
democracy in the Arab world.
    Mr. Shays. I didn't misunderstand you did I? I'm smiling 
because I hope I didn't.
    Mr. Telhami. No.
    Mr. Shays. You're not suggesting that they are not 
democratic because of our foreign policy.
    Mr. Telhami. No, what I said is I gave you all the reasons 
why they're not democratic, including the path they're in, 
including the fact that governments. But I said in addition is 
that let's not underestimate the role of foreign policies in 
perpetuating that rather than helping it forward.
    Mr. Shays. Mr. Zogby, what do the Arab--what kinds of poll 
did you find or reading when the Saudi government, at one time 
the per capita wealth of the Saudi government per capita was 
24,000. Now it's about 7,000. And yet the Saudi government has 
realized extraordinary income from oil. So it is not an issue 
of resources. Explain to me what the average Saudi thinks of 
their own government and why they think whatever they think 
about their own government.
    Mr. John Zogby. Well, you know, Mr. Chairman, there are 
limits to the ways that we can ask questions over there. That's 
certainly not one way that I would have done it. What I can 
tell you is that we've asked a lot about economic issues and 
concerns and there is a growing disgruntlement among Saudi 
people, rank and file that it's palpable in some areas in 
Jiddah in southwestern Saudi Arabia. There is borderline anger 
about the way the economy is being run.
    Mr. Shays. Do they blame the United States?
    Mr. John Zogby. What I do want to say though is that this 
is a process question as well. Each time we've gone in there to 
poll Saudi Arabia, about a dozen times now, we've been able to 
push the envelope a little bit further in terms of the kinds of 
questions that we can ask, and so I'm seeing to some degree, 
more and more openness and willingness to allow our kind of 
work sort of a pre-figure to democratization.
    Mr. Shays. So the bottom line is it's hard to get a sense 
of Saudi attitudes in a fair poll because you're restricted by 
what you can ask.
    Mr. John Zogby. Hardly. We can't ask about the job 
performance of the Crown Prince. But we can ask about your 
status in life. Are you better off than you were 4 years ago? 
Will you be better off 4 years from now? And there are 
rumblings.
    Mr. Shays. Yes, sir.
    Mr. James Zogby. But numbers are fairly high on the 
optimism side and also on the satisfaction side, I mean 
surprisingly so. And among young people, as we've noted before, 
Saudi young people are more satisfied and more optimistic than 
Saudi old people. Let me say--let me just say about the 
question, though, Congressman. The per capita income issue is a 
function of a couple of factors. One is that there's been a 
huge population growth and second is that overall oil revenues 
have gone down. But in addition to that, Saudi Arabia has 
invested literally hundreds of billions of dollars in building 
a massive infrastructure in the country, and also don't forget, 
paying for and supporting our involvement to defend them in the 
last Gulf War.
    Those are factors that--in fact, where there is resentment, 
there is resentment about the amount that was paid that way. 
There also is, to be very honest, resentment about issues 
involving corruption and lack of movement on some levels that 
people care about. I would suggest to you that one of the ways 
you work with friends is you help move friends forward when 
they're ready to move forward and even when they're not you 
sort of edge them forward.
    And I think that to just finish the point that Shibley was 
making that I think is an important one. We don't have full-
fledged democracies in the Middle East. But what we do have is 
looking at this as Americans, countries that are friends that 
are beginning to move that we can help them move and actually 
we can help the process, in several Gulf countries, there are 
progressive developments.
    We need to be moving them forward and not making life more 
difficult for them. I think that we've had a public diplomacy 
effort, not a public diplomacy effort, but actually through the 
Department of State, we've had the Citizen Exchange Programs. 
They need to be enhanced. We have other programs that involve 
training programs. They need to be worked on. I think that some 
of the programs that many of us have participated in which 
are--when they had elections in Jordan they asked us to bring 
over people who could do campaign training. When they had 
women's issues in some countries, they asked us to bring Arab 
American women there to help talk about how women in the Arab 
community and America move forward. There are ways we can help 
and I don't think we've actually done enough of that kind of 
programmatic work that would help make some of the incremental 
movements that would be very beneficial to us.
    Mr. John Zogby. Could I just add one quick point?
    Mr. Shays. Sure.
    Mr. John Zogby. I don't want our role confused here. My 
understanding of the mandate for this hearing was that we were 
to present Arab public opinion and not to advocate for any 
government, not to advocate for any position on issues but 
simply to relate what we've heard and try to honestly interpret 
that. That certainly, I believe has been my function here, and 
so I don't want there to be any misunderstanding that my role 
has been here as a pro Arab advocate of some sort. I'm 
interpreting what we've seen having done quite a few polls over 
there.
    Mr. Shays. I think that's clear. And you have been all of 
you have been wonderful witnesses. Is there anything before we 
close up here?
    Mr. Tierney. No. Just to again thank you, to reiterate 
that. Everybody has been a good witness, and I hope that nobody 
perceives your role to have been other than that. It's been 
very helpful.
    Mr. Shays. I would concur. I would also just allow each of 
you to have a closing comment if you'd like, anything that you 
want to put on the record. Thank you very much, all of you. 
Appreciate your being here.
    Mr. John Zogby. Can I just say that Joseph and Celia Zogby 
who came from Lebanon about 95 years ago would be very proud 
for the last hour and a half. I just wanted to enter that into 
the record.
    Mr. Shays. Thank you for saying that. I'm proud of your 
contribution and I'm proud of this ability to have dialog, so 
thank you. We'll go to our next panel and our last panel and 
they have been very patient.
    Our last panel is Yigal Carmon, president of the Middle 
East Media Research Institute [MEMRI], as we call it; Laurent 
Murawiec, former senior international policy analyst, the Rand 
Corp.; and Hafez Al-Mirazi, I'm sorry. Mirazi. I'm going to ask 
you three to stand and we'll swear you in.
    [Witnesses sworn.]
    Mr. Shays. I'll say to you that usually we learn the most 
from the third panel, even though you all wait the longest. You 
have a chance to think of what you really want to tell the 
committee and we're delighted you're here.
    And so we will take in the order we called you. And thank 
you again for your patience and thank you for being here. So 
we're starting I guess with you, Mr. Carmon.

   STATEMENTS OF YIGAL CARMON, PRESIDENT, MIDDLE EAST MEDIA 
      RESEARCH INSTITUTE; LAURENT MURAWIEC, FORMER SENIOR 
INTERNATIONAL POLICY ANALYST, RAND CORP.; AND HAFEZ AL-MIRAZI, 
     WASHINGTON BUREAU CHIEF, AL JAZEERA WASHINGTON OFFICE

    Mr. Carmon. Thank you Mr. Chairman. I am tempted to----
    Mr. Shays. I have to just tell you something. We--I met 
with you in your office in Jerusalem and you were prone to give 
explanation and then digress to another one. So I'm going to 
hold you to time here. I just want to warn you up front, OK.
    Mr. Carmon. I know, and I'm tempted to leave out the 
presentation I prepared and just----
    Mr. Shays. No, no. If you follow your presentation you 
might stay on time. It's just additional testimony.
    Mr. Carmon. Well, because this can be read later and I 
have----
    Mr. Shays. Let me say this to you. I'm sorry. We'll start 
over again. You say whatever you want. Your statement will be a 
permanent part of the record. You make the points you think you 
need to make.
    Mr. Carmon. I think I would rather make some points 
relating to the previous panels because this was an issue that 
was--that reflects a lot of what the Congressmen are 
considering. And what I have to say can be read later.
    Mr. Shays. OK. We'll start the clock now. Here you go.
    Mr. Carmon. Yes. So let me relate first to a few questions. 
Why was Sadat murdered? It wasn't because of the peace process. 
The assassins who were Islamist said it was because of the--of 
what he did with regard to enlarging the rights of women and 
his general approach with regard to social issues. A lot of--
you asked the first panel about the influence of the impact of 
no answer on the part of the United States to the challenge of 
terrorism. And I want to remind you that not only wasn't there 
an answer to terrorism, but the American Embassy in Damascus 
was stormed by government-directed mob and there was no answer 
to that. It was absolutely stormed.
    If we had been in another period the United States would 
have declared war on such a country. The wife of the Ambassador 
was rushed to a security room and the whole embassy was 
stormed. Nobody even remembers that. This is an unprecedented 
event in the history of international relations as far as I 
remember. A lot was mentioned here about the Palestinian cause 
as the reason for whatever happens or the attitude toward 
America.
    So let me quote the distinguished Arab editor of the paper 
Ashakalaset, who wrote in English and the Arab news, it's a 
newspaper that in the 7 years that he has monitored the 
publications of al Qaeda, he has never seen the Palestinian 
issue as a major thing in factor at all at that time. And later 
on, I would like to read to you I will conclude my notes by 
reading to you from a poem that was written by a poet here in 
the--well, actually he lives in England, but it was published 
here in the United States that refers to this same problem. And 
I will leave it for later on.
    People talked here about the situation in the territories 
as if there has never been Camp David. I don't want to relate 
to that, but one thing, the count of suicide is 1,500 years 
old. It is not a result of the curfew that was placed on the 
Palestinians as a result of the intifada, and that followed 
Camp David. There were suicide attacks in the 3 years after the 
beginning of Camp David before the Likud came to power in 
Israel, namely at the time where the late Mr. Rabin and Mr. 
Perez were in power.
    These were the years of hope and before anything happened 
to subvert the direction and in these years there were 
terrorist attacks and the P.A., the Palestinian Authority did 
nothing. You were talking about the use of weapons Abu Masin, 
who is second in command in the PLO, said publicly to Arab 
papers that it was wrong to use weapons. And what happens next 
is Arafat working hard to subvert any possibility of him being 
a prime minister within the reforms.
    Two other people in the Palestine Authority opened their 
mouth against that policy, a prior previous minister, Abi 
Lamah, another one near Zuher Al Manassah, and they were shot. 
They were shot at their homes. This is why they are now quiet. 
I wanted to mention one thing that came up in the last moment 
of the last panel. We heard from Mr. Zogby that they are not 
free to ask any question they want. I think that polls where 
the--those who conduct them are not free to ask whatever they 
want are totally invalid. This is part of the problem of the 
democracy in the Middle East or the lack of democracy.
    I think, Mr. Chairman, that this deserves a special panel, 
and you have part of the answer in the fact that the 
distinguished witnesses in the last panel who admitted that 
there are dictatorships and dictators in the Middle East at the 
same time said don't touch Saddam Hussein.
    I would like to conclude by reading to you from this poem, 
and I will mark one thing at the end of it. It is taken from an 
Arabic language paper, Al-Watan, that says about itself that 
it's a national weekly Arab American newspaper published in 
Washington and San Francisco and Los Angeles and New York, 
whose mission is to provide Arab and Muslim Americans with the 
most current, valuable, reliable and informative news of 
political economy. OK.
    Mr. Shays. Is this printed in English or is it printed in--
--
    Mr. Carmon. Yes, it was in Arabic. No it's in Arabic. But 
here is the poem. Yes, I am a terrorist. The west cries in fear 
when I make a toy from a match box. While they, the west, make 
a gallows of my body using my nerves for rope. The west panics 
when I announce 1 day that they have torn my galabia, while it 
is they who have urged me to be ashamed of my culture, and to 
announce my joy and my utmost delight when they violate me.
    The west is sorely grieved when I worship one God, in the 
stillness of the prayer niche. While from the hair of their 
coattails and the dirt of their shoes, they need 1,000 idols 
that they set atop the dung heaps made of the titled ones, so 
that I become their slave and perform amongst them the rituals 
of flies and he--they will beat me if I announce my refusal. If 
I mention among them there are fragrance of flowers and grass, 
they would crucify me, accusing me of terrorism. Admirable are 
old actions of the West----
    Mr. Shays. Mr. Carmon----
    Mr. Carmon. It's finishing in 2 minutes.
    Mr. Shays. I just don't understand what you're reading. It 
makes no sense to me.
    Mr. Carmon. OK. This is the poem that talks about the clash 
between the Middle East and the west.
    Mr. Shays. What do you hope that I learn from this?
    Mr. Carmon. OK. There is--if I can continue, it talks about 
the clash with the west, not one word about Israel, not one 
word about the Palestinians.
    Mr. Shays. OK. And so that illustrates what point, as far 
as you're concerned?
    Mr. Carmon. That it's not about the Palestinian cause.
    Mr. Shays. OK. And that's your basic point here that 
terrorism is not about----
    Mr. Carmon. In reference to what the last panel has said, 
that's my main point. Of course, there is the presentation 
which I guess you will have time to read.
    [The prepared statement of Mr. Carmon follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.042
    
    [GRAPHIC] [TIFF OMITTED] T8885.043
    
    [GRAPHIC] [TIFF OMITTED] T8885.044
    
    [GRAPHIC] [TIFF OMITTED] T8885.045
    
    [GRAPHIC] [TIFF OMITTED] T8885.046
    
    Mr. Shays. OK. Thank you. Thank you.
    Mr. Murawiec.
    Mr. Murawiec. Thank you, Mr. Chairman. Let me say that I am 
greatly honored to be called upon to testify in front of you.
    Mr. Shays. Thank you. It is an honor to have you, sir.
    Mr. Murawiec. Thank you. The Arab street is a myth. Did we 
speak of the Berlin street under Hitler? Of the Moscow street 
under Brezhnev or of the Beijing street when--under Mao? In 
fact, most Arab countries are dictatorships of one form or the 
other. Tribal theocratic despotism like Saudi Arabia socialist 
military regime based on terror, like Syria, Iraq, or the 
Palestinian Authority or military bureaucratic autocracy like 
Egypt. Dictatorships have no street because if you take to the 
street you're probably dead.
    Why is the Arab street only conjured up when a position to 
America is the matter? Have I ever heard any Arab leader 
express the word, well I have to reform my wicked ways lest the 
Arab streets topple me. Dictatorships brook no politics or 
public opinion. The freedom they allow is the freedom to 
grumble and not much.
    In fact, when large populations are ready to explode in 
raging frustration because they have no job, no future, no 
serious income, because if they're not part of the ruling clan 
or tribe or clique, they'll be crushed by the local cop, the 
local bureaucrat because the entire landscape is corrupt, let's 
make it short. People are ready to explode. But there is one 
type of target which is allowed. You are told that the west, 
the United States, and Israel, you are told by the official 
press, radio and TV, it's fine to scream at them and 
demonstrate. You will not be clubbed or locked up or tortured 
in prison if you do.
    Of course, you won't be the one to decide when and where 
you demonstrate. You may be given little flags and signs and 
even floats if the matter is really important and if CNN has 
been alerted to the imminent time and place of that spontaneous 
demonstration.
    So what's the Arab street? It's a cliche that has gained 
currency because Arab dictators wanted us--wanted to be able to 
project upon the world's screen and image of the dangerous 
irrationality, the lurking violence, the explosive potential of 
the very populations that they keep in shackles and poverty.
    Under communism, Brezhnev repeated all the time be nice to 
me or else the hard liners will edge me out. This is the same 
kind of process at work. And we're told now look I'm a 
moderate. If only you do my bidding the Arab street will not 
become angry. In fact, or so I believe, that fabled street is a 
cul-de-sac. Its pedestrians are turned on and turned off at 
will. If the Arab dictators were so keen to listen to the men 
in the street, well, they wouldn't be dictators.
    So I think that people who speak so much of the Arab street 
should really pay more attention to the Arab in the street 
who's a rather different kind of a creature. But at any rate, 
as far as we're concerned we shouldn't hold the Arab world to 
different standards than we hold the rest of the world. There 
shouldn't be double standards, indeed, I have heard that in the 
last couple of hours. So democracy should be no less of a 
standard than the rule of law and accountability and 
transparency and all the rest of it. There is something wrong 
if double standards are so applied.
    And since the people of the Middle East are therefore not 
able to organize themselves or to acquire an expression and to 
give it a corporate forum, this is a result of Arab 
independence after 1945. There used to be--there used to be and 
I think we should insist on that a powerful force in the Arab 
world that developed in the early 19th century that called for 
modernization, westernization for the rule of law and economic 
progress.
    That idea was called an-Nahda, the renaissance and it 
flourished from Beirut to Alexandria and Cairo. It was liberal, 
it was democratic, it was secularizing it was looking west. The 
fact that it has been censored, repressed, banned, jailed, 
tortured and very often exiled doesn't mean that it's 
disappeared. Voices of freedom, in fact, can be heard from the 
Arab world although they often arise from United States or 
European territory, which doesn't make them unauthentic or out 
of touch with the Arab people.
    Such people speak from here because there would be silence 
to death if they spoke from there. And that voice, I would 
propose to you, needs American support and American commitment 
to make itself heard. The vast number of people in the Arab 
world yearn for the very kind of freedom that America 
represents, are begging America to be true to itself. They are 
not armed with the cruelty of the tyrants or the cynicism of 
the terrorists of the mob. And they appear to be defenseless in 
their countries.
    In fact, I believe them to be our truest allies in Arab 
Middle East and ultimately our only allies there. They're 
begging us to stop listening to the street and listen to them. 
We've witnessed something extraordinary in the Muslim world on 
September 12, 2001. Thousands upon thousands of inhabitants of 
Tehran took to the street to spontaneously demonstrate their 
sympathy for the United States. We witnessed the joy in the 
streets of Kabul after U.S. forces forced out the Talibans.
    What held true for Tehran and for Kabul will hold true, I 
believe, elsewhere. And if I may, sir, add a few points of 
comments to what I heard during the day as you say this is the 
advantage of the latecomer, I would say, that the asymmetry in 
America policy toward various forces in the Middle East is 
real, but it's the asymmetry that exists between friend and 
foe. After all, it is not Israel that collaborated with the KGB 
for 40 years. It is not Israel that was attacking American 
imperialism throughout the post war. So maybe there is a reason 
for double standards. I will not treat my friend the way I 
treat my foe.
    Second, people say our policy is hated. Now, is the policy 
right or wrong? If the policy is right, perhaps it is hated, 
but it is right. And I was reminded of this phrase by Winston 
Churchill: In war the point is not to be loved, it is to be 
right. I should think that this holds true now as it did then.
    Last, I would like to add that I have heard a lot today 
about feelings and the hurt of people, etc. This may well be 
true, and I believe it is very often true, but this is not a 
policy analysis. This is an appeal to emotionalism. It is an 
appeal to victimhood, and it is a matter of not looking at 
oneself. It is, is my policy right? Has it
been right? I have been wronged? Did I do wrong? I should be 
able to look at myself in order to project new policy.
    I think this holds for all of the aspects that are in 
discussion today.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Murawiec follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.047
    
    [GRAPHIC] [TIFF OMITTED] T8885.048
    
    [GRAPHIC] [TIFF OMITTED] T8885.049
    
    [GRAPHIC] [TIFF OMITTED] T8885.050
    
    Mr. Al-Mirazi. Thank you, Mr. Chairman, for inviting me, 
and especially the title of that hearing, I believe that we 
need it very badly, especially in Washington: Are We Listening 
to the Arab Street?
    I would like to also remind you, my fellow panelists and 
the audience here, that this Arab Street I haven't actually 
inhabited since 1983. I have been living in Washington since 
that time, and I spent in Washington, DC, more years than I 
spent in any other city in the world, including my country of 
origin, Egypt.
    I also spent more years working for the U.S. Federal 
Government at Voice of America Radio than I spent working in 
any other media outlet, including my current employer, Al-
Jazeera Satellite Television, which I joined 2 years ago as 
Washington bureau chief.
    I was asked once by a veteran U.S. journalist how I felt 
about the transition from VOA to Al-Jazeera, and my answer was, 
when I was an editor and broadcaster at VOA Arabic Service, my 
focus was on how to give an Arab context to stories created in 
an American-influenced newsroom based in Washington.
    However, as a journalist and talk show host at Al-Jazeera, 
my focus now is the reverse. I have to explain American and 
U.S. positions and give an American context to news stories 
that is heavily influenced by the Arab perspective, originated 
in a newsroom in our headquarters in an Arab capital, Doha, 
Qatar. Of course, after September 11 much of our coverage has 
originated also from Washington, DC, and has come out of the 
United States.
    Although most people here in the United States might only 
know Al-Jazeera as the station that was carrying the bin Laden 
tapes, they are unaware, maybe because of the language barrier, 
that we have carried live more of President Bush's speeches 
than any of the three major U.S. networks; ABC, CBS and NBC. 
Just last night when these three networks declined to carry the 
President's speech on Iraq, Al-Jazeera was broadcasting it live 
with simultaneous translation into Arabic.
    Not only that, but we put together a panel consisting of an 
Arab-American professor and a former U.S. Secretary of State 
for Near Eastern Affairs, Dr. Martin Indyk, to provide live 
commentary and analysis before and after the President's 
speech. And maybe after also I read the statement, I could 
answer some of the questions that was--about the Arab reaction 
to President Bush's speech on Iraq yesterday.
    One of the nice comments from Mr. Indyk, that he observed 
that there was no single word or mention in his speech about 
democracy in talking to the Iraqi people, and his explanation 
was not to scare the minority Sunni in Iraq that the democracy 
might mean the rule of majority, which is the Shi'ites. And 
also I observed it in that discussion that the President did 
not mention at all or put some words for the Arab, neighboring 
Arab countries or the Arab leaders what they ought to do or 
ought not to do, as if he is not using Iraq or dealing with 
Iraq in a regional context or perspective.
    I would like to go back to the title of these hearings: Are 
We Listening to the Arab Street? I might take issue with the 
phrase the ``Arab Street''; of course, not for the same reason 
that my fellow panelist Mr. Murawiec raised, but because it 
tends to give the impression of a radicalized Arab youth 
spilling out into the streets. I prefer instead to think of our 
audience, which is estimated to be more than 35 million, as the 
Arab living room, because this phrase creates a more accurate 
and human picture of the majority of our viewers, who are 
educated and middle-class professionals with families. Most 
importantly, they include many Arab-Americans who are voting 
citizens here in the United States.
    If you need to know how the Arabs feel about the United 
States, you can just visit any family in your district, or in 
Detroit, MI; Brooklyn, NY; or for that matter here in the 
Washington suburbs.
    Arab resentment of the United States is only driven by U.S. 
foreign policy, not by American values. On the contrary, the 
frustration stems from the realization that the U.S. 
Government, in their eyes, does not apply the American values 
of freedom and liberty for all when it comes to the Middle 
East. We see this in what is perceived as the U.S.-tolerated, 
if not condoned, occupation of Palestinian land by Israel. We 
see it also in U.S. support for authoritarian regimes and 
undemocratically elected leaders in the Arab world who are also 
welcome in Washington as long as they serve the short-term 
interests of the U.S. Government.
    The Arab Street, Mr. Chairman, like the American Street, 
reacts to pictures and footage of human suffering. We witnessed 
how CNN's broadcasting footage of U.S. soldiers' bodies dragged 
through the streets of Mogadishu, the Somali capital, affected 
and outraged the American public opinion. In turn the 
administration had to withdraw its troops from Somalia, despite 
the political wisdom of staying there. We have witnessed also 
the effect of CNN footage on the American Street after the 
Serbian shelling of the marketplace in Sarajevo, which resulted 
in U.S. public pressure on the administration to intervene in 
the Balkan crisis.
    The Arab governments are no different in their reactions to 
the outrage and pressure felt from the public when they see 
footage of human suffering of the Palestinians as a result of 
the occupation, the human sufferings of the Iraqis as a result 
of sanctions.
    I would also like to mention that Al-Jazeera has been 
consistent in carrying pictures of Israeli pictures of victims 
of suicide attacks as well as those of Palestinian victims of 
Israeli attacks. The problem that is not perceived by the 
United States, of the U.S. media here, is that based on 
numbers, there are, on a daily basis, more victims on the 
Palestinian side than on the Israeli side. This is reflected in 
the amount of images that we put out.
    Unlike any other Arab TV channel, Al-Jazeera routinely 
gives Israeli Government officials the chance to appear on our 
network in order to explain their positions. In addition, I 
have just hosted, a few weeks ago, one of my fellow panelists 
here, Mr. Yigal Carmon, to discuss the work of their 
organization, MEMRI. The fact that he served for 22 years in 
the Israeli military intelligence was only mentioned in the 
context of his neutrality in monitoring the Arab media.
    Because we invite Israeli guests, we are routinely 
criticized by some Arab government-controlled media outlets and 
are accused of being front for either the Israelis or the 
Americans. Some also cartoonists in the Arab media put King 
David star over the heads of anchors in Al-Jazeera, as if they 
are sending a message that in whose behalf are we talking.
    In fact, the criticism of these media outlet is mostly 
reflective sometimes of the government resentment toward Al-
Jazeera for daring to air opposition views, thus providing that 
all politics are really local.
    Some of those outlets accuse Al-Jazeera of being anti-
Egyptian or anti-Saudi and so on whenever we broadcast the 
views that the government did not agree with. This is 
understandable in a government-controlled media environment, 
but it is not understandable, to me at least, to see free and 
independent U.S. media reacting in the same way and same manner 
toward Al-Jazeera and accusing us of being anti-American for 
broadcasting views that the U.S. Government does not approve 
of. Ironically, the same news media that applauded and praised 
Al-Jazeera before did that for its role in democratization and 
carrying popular and dissenting--unpopular and dissenting views 
of many Arab authoritarian governments.
    Al-Jazeera's mission has always been the same, to cover 
both sides of the story. People who are good at telling the 
American side of any story should make themselves available to 
Al-Jazeera and other foreign media the same way they make 
themselves available to the American media every Sunday. 
Indeed, we might say that the Sunday talk shows could basically 
be viewed as preaching to the converted.
    After 9/11, we were given interviews by Secretary of State 
Colin Powell, Secretary of Defense Donald Rumsfeld, National 
Security Advisor Dr. Condoleezza Rice, and other U.S. senior 
officials. However, except for a second interview that I 
conducted with Secretary Powell, we have not met with any one 
of them again.
    It is particularly important to have sustained exposure to 
senior U.S. officials and Congressmen, not just in times of 
crisis. On the contrary, in those times, times of crisis, it 
might almost be too late for a constructive message to be 
conveyed. We cannot expect that a new U.S. public diplomacy 
campaign to win the hearts and minds of the Arab people, or 
even the French, but they could help in damage control capacity 
simply by highlighting the positive, if they have any, in 
foreign--in U.S. foreign policy in the Arab world that is 
perceiving that policy to be biased and based on double 
standards.
    And finally, Mr. Chairman, emerging independent and free 
media outlets in the Arab world, regardless of their 
shortcomings or unpopular perspectives or mistakes, including 
Al-Jazeera, should be encouraged by the United States as the 
leader of the free world and instead of pressuring the 
governments in the region to crack down on these outlets for 
short-term political convenience.
    Thank you very much again for this invitation.
    Mr. Shays. Thank you.
    This is going to be an interesting dialog that we are going 
to have. I think as I hear our three panelists, two would 
probably be more inclined to think the same way here, but that 
was different on the panel before this one.
    Let me ask each of you your reaction to the Zogby poll that 
surprised me and said that between 18 and 29-year-olds, there 
was basically a positive feeling for American products, people 
and values than other age groups. I would have thought that 
would have been, and we were told that would have been, the age 
that was the most unhappy.
    Should I have been surprised? Were you surprised and so on? 
Why don't we start with you first.
    Mr. Al-Mirazi. Well, if you mean by your remark Mr. 
Telhami's remark about the last 25 years?
    Mr. Shays. No. I am referring to the Zogby poll that said 
significant differences appear among age groups and level of 
Internet access and access to satellite TV. In every Arab 
country polled, the youngest groups, 18 to 29 years, are 
substantially more positive on the American products, people 
and so on.
    In other words, we seem to be doing better with that age 
when we have been told continually that the young were those 
most angry with the United States and, we thought, most 
inclined to not think very positively of us.
    Mr. Al-Mirazi. Yes, Mr. Chairman, that is consistent with 
what I said in my statement, that the frustration comes from 
high expectation. That same group that has high expectation of 
American values that they adore and admire, they feel when it 
comes to the politics of the region and the politics of their 
own country, it is not applied.
    But when they watch the debate in the United States, 
especially that group, that they have the English language, 
ability to read U.S. or American newspapers, watch CNN, and 
follow the debate or enjoy the entertainment industry product, 
they appreciate that. But the frustration is mainly about when 
they apply these kind of values, freedom and liberty for all, 
to their own. And this is where the frustration comes from.
    Mr. Shays. One last question before I go on. Does American 
TV bring discredit to us in the Arab communities, or it is 
neutral, or is it--in other words, when they see the programs 
that they see, do they think ill of the United States, 
particularly this generation?
    Mr. Al-Mirazi. Well, American TV here I always like to make 
a distinction, at least for my audience.
    Mr. Shays. I am talking about what is broadcast to 
overseas.
    Mr. Al-Mirazi. Well, the effect and influence of American 
TV overseas, I could assume--still I have lived in Washington, 
as I mentioned, for almost two decades--is not that big effect. 
Maybe the effect of the CNN is there. The effect of the 
Internet is more than the American TV on that audience.
    Mr. Shays. Thank you.
    Mr. Murawiec. Well, since the results of those polls seem 
quite eerily to correspond to the political views of the 
polster, as we heard earlier, I tend to slightly distrust and 
perhaps disbelieve the results of the poll.
    Mr. Shays. Well, let me ask you this. Maybe he was 
responding to his own poll, and then--I mean--let's give him--
so let's--OK. I mean, in other words, he was responding to his 
own poll. He said that he was surprised by it.
    Mr. Murawiec. It seems to me that the entire thing is 
tautological. If I may expand on that, we are told and were 
just told again by my distinguished neighbor that it is Arab 
resentment and, Arab frustration that are the cause of the 
problem.
    Mr. Shays. Speak to the first part of the question. The 
first part of the question was, among their youth there seems 
to be more respect for the United States than the other 
generations. And I thought it would be the other way around, 
and so did others.
    Mr. Murawiec. Sir, I have no particular--nothing 
enlightening to say on that. I do not know.
    Mr. Shays. So you weren't surprised by that? You just 
distrust the poll; is that what you are saying?
    Mr. Murawiec. I look at it with great skepticism.
    Mr. Shays. You look at it because you view the poll that 
they were prevented from asking questions that they needed to 
ask, that in--in other words, they weren't able to ask the 
right questions?
    Mr. Murawiec. That is the first point, which the polster 
was honest enough to report himself. There is another one, 
which if I--I wasn't sure whether I was hearing advocacy or a 
poll. And since the results of both seem to coincide 
completely, I thought, gee, here is a poll that is aimed at 
demonstrating a political thesis, and I am not sure that it 
represents anything in reality.
    In other words, the instrument seems to be perfect to 
measure what the polster wants to measure rather than any form 
of reality.
    Mr. Shays. OK. Mr. Carmon.
    Mr. Carmon. Well, polls in the Arab world, which is under 
dictatorships, are totally invalid. And I think that Mr. Zogby 
had a slip of the tongue to admit that he wasn't free to choose 
his questions, not that he would choose any other. But, in any 
case, I don't know any respectable university that will take a 
poll, a poll in which the polster was limited in asking 
questions.
    Mr. Shays. Well, he did point out that he couldn't ask 
questions about the royal family, but that wasn't the question 
that was being asked, so he didn't ask the question about the 
royal family. But in terms of the questions he did ask, he 
didn't imply that he was limited.
    Mr. Carmon. Well, but science is about more than that. It 
is not that in this field you can ask and that field you can't. 
This is not serious. This is not a poll. This is not scientific 
work. It is simply totally invalid.
    Mr. Shays. OK. Let me ask you, Mr. Carmon, about Al-Jazeera 
in terms of, you know, for instance, the President's speech was 
on last night. What is your reaction to this station that is 
seen by how many, 35----
    Mr. Al-Mirazi. Over 35 million.
    Mr. Shays. Let me ask you--that strikes me as an 
extraordinary large number of people. As compared to CNN in the 
area, how would that compare? In the same net places that you 
compete, do you get more audience, do you get less?
    Mr. Al-Mirazi. Well, I would assume that we have more 
audience, at least in our target area, which is the Middle East 
and North Africa, 22 Arab countries. We are talking about more 
than 280 million population, about 300 million.
    But, also, the--this is an Arabic language channel.
    Mr. Shays. CNN does not have Arabic?
    Mr. Murawiec. They just started a Website in Arabic on CNN.
    Mr. Shays. OK. What do you think about the station, because 
you listen to what they say in Arabic?
    Mr. Al-Mirazi. We haven't sent him the honorarium yet.
    Mr. Carmon. Al-Jazeera is a unique phenomena in the Arab 
world, new and unique. It follows the--the Western kind of 
media, and it is--it answers, like other channels that we know 
in the West, to the public sentiments. It reflects them, it 
answers to them, and in that respect it reflects much of the 
hatred. But unlike other media outlets in the Arab world which 
are government-controlled, they are not government-controlled, 
and this doesn't mean that they do not reflect a lot of 
government-controlled sentiments, but they themselves follow a 
Western type of media.
    I have heard criticism of Al-Jazeera that their new 
approach stops at the border of Qatar and does not touch on 
their own government, and this is true. However, their approach 
of other countries is absolutely free, and they suffer a lot of 
repression, and their representatives are arrested in many 
places, and they are intimidated in many ways, and still they 
are not--I think that we should not--as important as Al-Jazeera 
is, we should focus more on--because Al-Jazeera is one, with 
all that immense viewership, we should focus on the government-
controlled media all over the Arab world, which is one of the 
elements that makes the Arab Street for what it is.
    The Arab Street is influenced by the media, by the 
education systems, which are also government-controlled, and by 
the religious institutions that are partly government-
controlled and partly non-government-controlled. These are the 
forces that shape the Arab Street, and they are all conveying 
an onslaught of hatred to the United States, and, of course, 
there is also a threadlike stream of liberal voices that come 
mostly from outside of the Arab world, but also from within it, 
and it is persistent, it is unyielding, but it is a minority.
    So I would really recommend that we focus on those who need 
change. Al-Jazeera does not need change. Insofar as they need 
it, they are progressing all of the time. But what needs change 
in the Arab world is the government-controlled institutions, be 
it media, education systems, and religious institutions.
    Mr. Shays. Let me get into that in a little bit.
    Mr. Murawiec, please, what is your response to Al-Jazeera?
    Mr. Murawiec. I think that the development of Al-Jazeera in 
the last few years is a sign of the times. It is a rather 
positive one, because it has breached the monopoly in media 
that each national dictatorial government in the Arab world 
used to enjoy, and it is a contribution to the creation of real 
pluralism of information in the Arab world. And so we would 
need five or six of them, rather than just one, because one 
tends to turn into a monopoly again. So there ought to be more, 
and I think there ought to be major U.S. efforts at having 
Arabic language broadcasts that wouldn't be stale or propaganda 
or plainly silly or just pop music, but that would convey what 
the Arab world actually needs to hear.
    And with all due respect, it is not necessarily an 
interview a week with the secretary of this or the secretary of 
that the Arab world needs to hear. I have a proposal to make. 
There are some individuals in the Arab world whom I consider to 
be downright heroic, who have had the extraordinary courage of 
criticizing their own societies. A number of them live in this 
country. One was born a Lebanese Shi'ite. He is Mr. Professor 
Fouad Ajami. Another one was born an Iraqi Shi'ite. He is Mr. 
Conan Makea. Couldn't find anywhere--how about Conan O'Brien? 
There is quite a number of others. The list is really long.
    I would like for an American broadcasting organization to 
broadcast translations of their forbidden books in Arabic or 
Persian or Urdu or whatever might be the case, and to make 
these available to the Arab public. I would like such a 
broadcasting effort to address women in the Arab world, which--
who are the great hope of the Arab world and of the liberation 
of the Arab world.
    So I do think, to come back to your question from which I 
have strayed, that this is--Al-Jazeera is a very welcome first 
breach in a monopoly, and that much more needs to be done.
    Mr. Shays. OK.
    Mr. Carmon. If I may, in our work we focused on the liberal 
voices in the Arab world and outside of it. And there are quite 
many, and they--we have a reform, or what we call a reform 
project, where we compile their intellectual biographies, and 
we are going to have hopefully also a conference soon enough 
about that, and the yearly guidebook to all of those voices 
that need to be heard, that need to be supported by Americans, 
by Congress, by the administration.
    The way to go about many things about reforming their world 
is to support these voices. I concur with what Dr. Murawiec's 
remarks in his presentation, this is the way to go to support 
the liberal voices, both inside and outside the Middle East.
    Mr. Shays. Thank you. Are any of you doctors, and I have 
been calling you Misters here, or are you all Misters? There is 
no doctor?
    Mr. Murawiec. I am a plain Mister, but I thank my neighbor.
    Mr. Shays. I have such respect for people who take the time 
to earn their doctorate that I would never want to not give 
them their due respect.
    I would like to know a little bit about the President's 
speech last night as to how it was portrayed on your station, 
on your network, rather, and then how you--how it was dialogd 
afterwards.
    Mr. Al-Mirazi. If you would permit me, if I could mention 
something before we pass that, into the discussion on the 
President's speech and the Iraq issue.
    There is a need also, especially in the Congress side, and 
on the U.S. side, to be vocal in condemning the hatred language 
and the hatred speech when it comes in the American media or 
for distinguished religious leaders in the United States, 
because that gives the higher moral ground, and gives it model 
and the encouragement for people on the other side to do the 
same.
    We have witnessed, I mean, three very famous and 
distinguished religious leaders in the United States bashing 
Islam in the language that if we replaced or substituted the 
name of the Prophet of Muslims and put Moses or Jesus or we put 
Jewish in instead of Muslims, nobody would have accepted that 
or tolerated that. We have witnessed on CNN Franklin Graham 
considering Islam as a wicked religion.
    On FOX, Pat Robertson talking about Mohammed as a wild-eyed 
fanatic; Jerry Falwell on CBS, last Sunday on 60 Minutes, 
considering Mohammed as a terrorist. And the interviewer is 
soliciting more about him, and saying, you mean that he is a 
model for the rest of the Muslims, as Jesus was a model and 
Moses was the model?
    This kind of hatred speech and hatred language, when we 
don't say anything about it, and when he don't have here moral 
courage and moral condemnation, again, as to this kind of 
language, whatever the followers of that hatred speaker is or 
the numbers of them or how many electronic messages or mail 
messages are sent to the Congressmen who would condemn them. 
This is very needed in order also to pressure on the other side 
and tell them that you have to speak out against this kind of 
language or this kind of hatred.
    Back to your question about the speech on Iraq. Of course 
the--it was ironic for us that the President saved some of the 
remarks in the 25-minute speech, maybe he spent about 10 or 7 
minutes, talking to the Iraqi people. I hope that he was 
considering Al-Jazeera is carrying it live, although we decided 
that like few hours before.
    Mr. Shays. What time would that have been?
    Mr. Al-Mirazi. That was not prime time. It was 4 a.m., 3 
a.m. over there. 8 p.m. here would be 3 a.m. the next morning 
over there. However, we had our reporter, our correspondent in 
Baghdad ready to give us some kind of a reaction, what would 
the Iraqi media would be interested in, or what would attract 
their attention in a speech like that.
    He tried to do his best. Of course, we know that we cannot 
expect a correspondent in Iraq or in many other capitals to be 
as free as in my case, or someone in London or even in Cairo, 
Egypt, to suppress their views about what do they think the 
Government of Iraq would react to.
    The same reporter, just 2 weeks ago, his credentials and 
press accreditation has been suspended for 10 years--for 10 
days, because the Iraqi Government considered his language as 
very similar to the Western propaganda that is used against 
Iraq. Al-Jazeera decided not to take any story from the Baghdad 
bureau, not from any other reporter, until we did from the 
reporter that we decide, and in 5 days they canceled, and they 
allowed him to talk again.
    I would go back to the lack of any mention, as Dr. Indyk in 
his analysis of the speech after he finished mentioned, that 
attracted his attention, no single word, while he was talking 
to the Iraqi people about democracy. And his explanation was 
maybe not to scare Sunnis that are supporting Saddam, that he 
belongs from democracy and pluralism of Shi'ites coming as a 
majority over there. That could be an explanation. The other 
explanation, that the majority of our viewers would think of 
that democracy is the last thing that the President of the 
United States care about when really he speaks about to the 
Iraqi people, or it is for political convenience, he is not 
using it.
    The other thing is that no mention to the Arab-Israeli 
conflict, the case for his father or for Jim Baker in 1991, 
that always there is a sense of what is the main issue and the 
main problem over there in the area. And in order to disarm the 
Iraqi President from using the Arab-Israeli conflict or the 
Palestinian argument of the Israeli occupation, the Baker-Bush 
or Bush-Baker administration took the initiative in the Middle 
East conference that followed the Gulf War in 1991.
    We are lacking that right now, and without really 
addressing that conflict, there is no way to move ahead.
    And I will stop here because, really, there is not much 
that we could have figured out what would be the reaction on 
the other side.
    Mr. Shays. Would there be interest in your running that 
again during a time when more people are more likely to watch 
it? I mean, I think it is terrific that you ran it live, but 
would you be running it again, the President's speech again?
    Mr. Al-Mirazi. We had a news story about it. We kept 
running that news story until 4 p.m. this evening, with also a 
reaction, like the reaction of Congressman Dennis Kucinich, 
since he belongs to Cincinnati, Ohio, to Ohio, and how 
interesting would be the reaction to Congressman from the same 
State.
    Mr. Shays. Let me just ask you, though, Mr. Kucinich, for 
instance, doesn't favor us moving into--well, I don't want to 
portray his position, because I would want to do him justice, 
but I believe that he would tend to have tremendous 
reservations about moving forward.
    And would you have had others, and do you have other 
Members of Congress on? I mean, could you list me 10 people, 
Members of Congress, that you would have on?
    Mr. Al-Mirazi. We try on daily basis. This is an open 
invitation for the record, not only for you, Mr. Chairman, but 
really for all of the members of the subcommittee or the House, 
that we would really love to have them speak on any other 
issues, like on the issue of Jerusalem. That was a very 
explosive one. We tried with about 10 Congressmen who were--
that issue of Jerusalem, very dear to them, and they insisted--
some of them insisted on putting the provision that created a 
lot of the controversy and the problems for the President in 
that foreign appropriations bill.
    We tried with all of them, Mr. Lantos' office, Mr. 
Ackerman's and others, and their time didn't permit them to 
come. But, of course, we will welcome any of them.
    Mr. Shays. Thank you.
    Mr. Carmon, tell me about MEMRI and what your task is, and 
try not to spend too much time describing this, because you 
love this organization so much. I seem to be poking on you a 
little bit.
    Mr. Carmon. Well, understanding any conflict which may 
erupt on any specific issue involves understanding its roots, 
ideological and historical. And to go to the roots, you need to 
go to the three main aspects: the media, which represents the 
present; the education systems, which represent the future, the 
values, the ideals that are conveyed to the next generation; 
and to the religious institutions that represent the higher 
moral--accepted higher moral system.
    This is exactly what we do. This is a model at work. We 
deal with the Middle East, but this could be applied to any 
conflict of any--in any place in the world. Go to the media, to 
the education, to the religious institutions, and you will get 
the roots and the way--the only way for which you can devise an 
effective policy. And this is what we are doing, for about 4 
years.
    We translate, we monitor and translate the Arabic and Farsi 
media. We study and analyze them. We study the education 
systems.
    Mr. Shays. So you are focusing primarily what is said in 
Arabic in the media.
    Mr. Carmon. And Farsi.
    Mr. Shays. And Farsi. And education as well as religion?
    Mr. Carmon. Yes, sir.
    Mr. Shays. What is the thing that alarms you the most, and 
which one of these institutions do you have the biggest concern 
of?
    Mr. Carmon. Well, all three, in fact, because they are all 
mostly government-controlled. And in this respect, Mr. 
Chairman, I think one of the recommendations I am happy you 
mentioned, appearing--to my colleague, Mr. Hafez Al-Mirazi--is 
appearing on--on Al-Jazeera, Congressmen and others.
    There is a notion that developed after September 11 that it 
is a matter of PR, that they hate us and we have to have a 
better PR. This is not about better PR. This is a battle that 
should take other roots, because it is, in its most part, 
government-controlled. When does one need PR? When he sells 
some product when it is not good, he may make up for it with 
some PR. But when his reputation is damaged falsely, he doesn't 
need PR. And it is damaged to the extent that his life is 
jeopardized and his peoples, then he needs a good team of 
lawyers, or the equivalent of it, in international relations to 
stop it.
    Let me give an example. When the editor of Al Ahram, the 
main paper in Egypt, who is appointed by the President of this 
country, writes that the Americans are dropping genetically 
altered food in order to damage the--in Afghanistan, and not 
only that, they drop it into mine fields----
    Mr. Shays. Now, where was that printed?
    Mr. Carmon. In Al Ahram, in the main paper in Egypt, and by 
the editor in chief. You don't need better PR to stop him from 
spreading such lies.
    Mr. Shays. Give me another example. I mean, that is a very 
vivid one. Give me another example.
    Mr. Carmon. Another example is when he--which was--in which 
steps were taken, because my recommendation is to take more 
confrontational approach to deter this media from doing so.
    When, in Saudi Arabia, the Al-Riyadh daily published a 
blood libel, claiming--alleging that Jews are putting blood of 
non-Jews, Christians, Muslims in the holiday pastries, which, 
of course, creates hatred that endangers lives, the State 
Department, the Office of the President and the Congress 
protested, and the result was that the paper--the editor 
apologized, retracted, fired that columnist, who happened to be 
a professor of university. There are results that--there are 
things--for instance, when the American ambassador to Egypt 
took on the Egyptian media for spreading lies, such as the FBI 
and CIA are responsible for September 11, not only the Jews, 
but also the Afghanis, this was an approach that bore results.
    Mr. Shays. Let me ask you this question. So in the process 
of translating this, do you try to do it on a daily basis?
    Mr. Carmon. Yes. We do it on a daily basis.
    Mr. Shays. Then you provide that information to a variety 
of----
    Mr. Carmon. We provide it to legislators, to 
administration, to the media, to the public at large. We do it 
in all European languages, and Russian as well. We try to 
provide the--to bring the inner world, Arab world and Muslim 
world to a certain extent, to the knowledge. We try to bridge 
the gap of language to have people know.
    At one point I said that a legislator will read the 
editorial in Al-Ahrim the same way that he reads it in the New 
York Times, with the morning coffee. Once he reads the words, 
he reads--he hears the idioms, the wording, the idea, he 
understands. And, of course, if he reads what is said in the 
education system--let me give you two examples. The Palestinian 
education system, which was schoolbooks that were created in 
the period of peace, not--after the Shah, which--books were--
that were developed after the peace with international 
professional help, including UNESCO, and they teach kids that 
the noble soul has two goals, death and the desire for it.
    The Syrian education system tells boys of 10 years old the 
merits of martyrdom, that are qualitative--move from a narrow 
life to a wider life, more intensive life, etc. There was--
martyrdom was the concept that motivated those who attacked the 
United States on September 11. This needs to be changed.
    The education books of Saudi Arabia are a shame. They 
preach hatred to Christianity, and they say that all--I could 
quote, but it is all in my presentation, and it will be on the 
Website. We are now at full swing with studying other--we did 
the Palestinian schoolbooks and Syrian; we are doing now the 
Saudi and the Egyptian.
    Now, in the Saudi schoolbooks there is hatred toward 
Christianity, terrible hatred. This is--and we should remember 
that the Saudis, too, according to their own testimony in a 
paper in English, not even in Arabic, Hymen Nekheim, spread 
billions of dollars to spread this education to the whole 
world, from the east coast of America--from the west coast of 
America to the east coast of China.
    Mr. Shays. One of the Egyptian princes was asked about 
their school textbooks and acknowledged that they had language 
which was pretty outrageous. And that confrontation was a good 
one, because they at least pledged--he pledged that they 
would--that he was pretty shocked by it, not that he didn't 
know, but at least publicly acknowledging that he was pretty 
shocked by it, and that it would change.
    So that would seem to conform to your point.
    Mr. Carmon. Mr. Chairman, confrontation works. If only the 
United States would fight for its reputation for not being 
hated, it will not be hated so much. The problem is that this 
is a new phenomenon, and the Voice of America, what it does now 
is a new phenomenon. Radio Sawa is a new phenomenon. The 
approach of Mr. Welch to take on--the American ambassador in 
Egypt to take on the Egyptian media is a new phenomenon.
    In the past, as I have mentioned before, the storming of 
the embassy in Syria, of the American Embassy, got no response 
at all.
    Mr. Shays. Thank you. I have basically asked the questions 
that I have wanted of all of you. I will tell you that I am 
absolutely convinced that we need to monitor what is said in 
the Arab community and languages other than English, and we 
need to be aware of it. I do think it needs to be confronted 
when we see the outrageous statements that do exist, 
particularly, as you point out, in government-controlled--I 
mean, we have a better opportunity to speak out, because it is, 
in fact, government-controlled, and government-induced.
    I will also say that I leave this hearing having a better 
feeling of Al-Jazeera than I had, because even, frankly, among 
two potential adversaries, they acknowledge that you are on the 
cutting edge in a community in which risks are taken, and 
obviously why you still are conscious of your audience and play 
to your audience. And I would probably see some programs there 
that--I would see some programs that anyone would think that I 
was complimenting, because I wouldn't, but I know in our own 
society, I mean, we had 20 hearings before September 12th, and 
we could hardly get anyone to pay attention.
    At the same time, we spent months talking about a Senator--
a Congressman named Gary Condit on what he knew, when he knew, 
and what he did and what he didn't do. And we were dissecting 
it in small little pieces month after month. So, I think all 
societies tend to present their programs to what they perceive 
are the interests of society.
    Which--I am going to say again, I am sure there are, I know 
there are, programs that I would be horrified to see, but I am 
delighted to know that there is some real attempt to provide 
disagreement and challenge and conflict in that audience, and I 
congratulate you for that.
    I am going to ask each of you if you have closing comments 
that you want to make before we adjourn.
    Mr. Al-Mirazi. I just would like to thank you again for the 
appreciation of the work of Al-Jazeera or any other Arab 
independent media; that, as I said, even in some of the 
government-controlled media, we hear the voices of wisdom, we--
as we do have the radicals in the same newspaper. Al Harim has 
so many people really that have their own objective and honest 
views that they put out, and the--and that should not take the 
views of the radicals of--the distorted views should not deny 
others in the same Arab media credit of what they are doing on 
a daily basis.
    The idea of monitoring hatred and incitement, as it was in 
Oslo even agreement or in Wye River agreement to have a 
commission, a U.S.-Arab-Israeli commission to monitor that 
should be across the board, Mr. Chairman, not only monitoring 
the Arab media, but monitoring, as I mentioned before, the 
examples of the--of Mr. Robertson or Mr. Falwell or others.
    We should have a commission that would monitor the three in 
the American side, on the Arab side and the Hebrew newspapers. 
And we don't have to even publicize it or to create more 
reaction and problems, at least on the policy level, that could 
be discussed and draw the attention of each government or try 
to reach out to the media outlet itself if it is an independent 
media, not to reach it through the government, in order to 
assure the independence of that media and the respect that we 
are not going to crack down on the government in order to crack 
down anew.
    That is very important. The--as I mentioned, when we hear 
Secretary of Defense, Secretary Rumsfeld, talking about the so-
called occupied territories, that doesn't help for our own 
audience, because the administration itself knows exactly what 
is occupied territories, what is not occupied territories. Once 
we use the language of that, the language of the Judea and 
Samara for the West Bank and Gaza, as if we are giving a 
religious or Biblical countenance to occupation--also, that one 
we should be careful of, because when--once we say the so-
called territories, or discuss the legitimacy of occupation 
after 1967, we open the door for the radicals on the Arab-
Muslim side to say, in the meantime the so-called Israel.
    And let's open the subject before 1967 or 1948. Let's, for 
the sake of what has been achieved so far, move on, and let's 
not go back to these kind of overbidding on each other.
    So I would like just to say monitoring should be for all, 
and we should not make the impression for the Arab people or 
Arab writers that they are only in the defensive or accused, 
and they have to prove their earnings every day.
    We would like them to be civilized in the discussion, as 
much as we would like Israeli writers and different outlets to 
be, and American also, op-ed writers, to be sensitive to 
cultures. Thank you, sir.
    Mr. Murawiec. Yes, sir. I would like to point out that 
there is a giant difference between the Arab world in general 
and the Western world in general. The media in the West are not 
controlled by the government. They are pluralists. When outrage 
occurs in Western media in this country, in particular a lot of 
outrage directed at the outrage appears in the media, which is 
what happened in the instances quoted by the gentleman next to 
me.
    The Arab world is very much mired in archaisms, which I 
think is a fundamental source of conflict. That is why, when 
one talks of the Arab Street and cannot talk of the American 
Street. There is no American Street. There is an American 
Congress, and that is the giant difference. And if I may bring 
that up as the--recall what the--the title of the hearing was.
    And therefore, I don't even think that the remarks, the 
reported remarks, of Secretary Rumsfeld were terribly 
inflammatory. In fact, they opened the door to no radical 
writer, because no radical writer ever needed any door to be 
opened to him in the Middle East. For the last 50 years the 
notion that there was no Israel, but this Zionist entity was 
the mantra in the entire Arab press.
    So, therefore, I think that it is important to see things 
in perspective historically and apply history in this kind of 
judgments, including to the media. Thank you.
    Mr. Shays. Thank you.
    Mr. Carmon. Inasmuch as America is fighting for its 
security, should they fight for its reputation? This will 
lessen the hate toward America. And it is not about PR, it is 
about confrontation. It will change things. And if I may 
conclude by offering a 2\1/2\-minutes video to show what is to 
be fought.
    Mr. Shays. Let me just say to you, I am not sure I want to 
do that. I am not sure I want to end up--this is a pretty 
hateful video of a young girl who is 3 years old who spews 
hatred. I am not going to end the hearing that way. Let me--I 
understand, though, that this is being taught. It is pretty 
outrageous. And we will have it as part of the record.
    You all have been very patient with this committee. You 
have been very articulate. You have been very insightful, all 
three of you, and you have added tremendously at least to the 
knowledge of the committee, and I thank you for it.
    I really appreciate all three of you being here. It is an 
honor to have all three of you. We are just going to put on the 
record--we need to place two items in the record, two articles 
by Dr. Daniel Brumberg, and we will put those articles in the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8885.051
    
    [GRAPHIC] [TIFF OMITTED] T8885.052
    
    [GRAPHIC] [TIFF OMITTED] T8885.053
    
    [GRAPHIC] [TIFF OMITTED] T8885.054
    
    [GRAPHIC] [TIFF OMITTED] T8885.055
    
    [GRAPHIC] [TIFF OMITTED] T8885.056
    
    [GRAPHIC] [TIFF OMITTED] T8885.057
    
    [GRAPHIC] [TIFF OMITTED] T8885.058
    
    [GRAPHIC] [TIFF OMITTED] T8885.059
    
    [GRAPHIC] [TIFF OMITTED] T8885.060
    
    [GRAPHIC] [TIFF OMITTED] T8885.061
    
    [GRAPHIC] [TIFF OMITTED] T8885.062
    
    [GRAPHIC] [TIFF OMITTED] T8885.063
    
    [GRAPHIC] [TIFF OMITTED] T8885.064
    
    [GRAPHIC] [TIFF OMITTED] T8885.065
    
    [GRAPHIC] [TIFF OMITTED] T8885.066
    
    [GRAPHIC] [TIFF OMITTED] T8885.067
    
    [GRAPHIC] [TIFF OMITTED] T8885.068
    
    [GRAPHIC] [TIFF OMITTED] T8885.069
    
    [GRAPHIC] [TIFF OMITTED] T8885.070
    
    [GRAPHIC] [TIFF OMITTED] T8885.071
    
    Mr. Shays. And I think we will adjourn this hearing. Thank 
you very much.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
